<html>
<title> - ENDING VETERAN HOMELESSNESS</title>
<body><pre>[Senate Hearing 114-328]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-328

                        ENDING VETERAN HOMELESSNESS

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                ___________
                                
                                
                  U.S. GOVERNMENT PUBLISHING OFFICE
96-247 PDF                WASHINGTON : 2016                  
_______________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  
       
         
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              

                             July 29, 2015
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     2
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    16
Manchin, Hon. Joe, U.S. Senator from West Virginia...............    18
Boozman, Hon. John, U.S. Senator from Arkansas...................    20
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    22
Heller, Hon. Dean, U.S. Senator from Nevada......................    24
Rounds, Hon. Mike, U.S. Senator from South Dakota................    26
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    28
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......    30
Hirono, Hon. Mazie, U.S. Senator from Hawaii.....................    32

                               WITNESSES

Pape, Lisa, Executive Director, Homeless Programs, Veterans 
  Health Administration, U.S. Department of Veterans Affairs; 
  accompanied by Dr. Thomas O'Toole, Acting Director, VA National 
  Center on Homelessness Among Veterans..........................     4
    Prepared statement...........................................     5
    Response to request arising during the hearing by:
      Hon. Dean Heller...........................................    26
      Hon. Mike Rounds...........................................    27
    Response to posthearing questions submitted by:
      Hon. Johnny Isakson........................................    34
      Hon. Richard Blumenthal....................................    35
      Hon. Sherrod Brown.........................................    40
Ho, Jennifer, Senior Advisor to the Secretary, U.S. Department of 
  Housing and Urban Development..................................     8
    Prepared statement...........................................    10
    Response to request arising during the hearing by Hon. Johnny 
      Isakson....................................................    14
    Response to posthearing questions submitted by:
      Hon. Richard Blumenthal....................................    42
      Hon. Sherrod Brown.........................................    43
Bates, Lisa Tepper, Executive Director, Connecticut Coalition to 
  End Homelessness...............................................    44
    Prepared statement...........................................    46
    Response to posthearing questions submitted by Hon. Richard 
      Blumenthal.................................................    79
Blecker, Michael, Executive Director, Swords to Plowshares.......    47
    Prepared statement...........................................    49
    Response to posthearing questions submitted by Hon. Richard 
      Blumenthal.................................................    80
Crone, Baylee, Executive Director, National Coalition for 
  Homeless Veterans (NCHV).......................................    57
    Prepared statement...........................................    59
    Response to posthearing questions submitted by Hon. Richard 
      Blumenthal.................................................    82
Powers, Edward, Executive Director, HOPE Atlanta.................    66
    Prepared statement...........................................    68
    Response to posthearing questions submitted by Hon. Richard 
      Blumenthal.................................................    83
Steele, Jeff, Assistant Legislative Director, The American Legion    69
    Prepared statement...........................................    71
    Response to posthearing questions submitted by Hon. Richard 
      Blumenthal.................................................    84

                                APPENDIX

Gerton, Teresa W., Acting Assistant Secretary for Veterans' 
  Employment and Training Service, U.S. Department of Labor; 
  prepared statement.............................................    85
Giraud, Jean-Michel, Executive Director, Friendship Place, 
  Washington, DC, and Member of the DC Interagency Council on 
  Homelessness; prepared statement...............................    88
Garcetti, Hon. Eric, Mayor, city of Los Angeles; letter..........    92

 
                      ENDING VETERAN HOMELESSNESS

                              ----------                              


                        WEDNESDAY, JULY 29, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Boozman, Heller, Cassidy, 
Rounds, Tillis, Sullivan, Blumenthal, Murray, Brown, Hirono, 
and Manchin.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. The Senate Veterans' Affairs Committee 
will come to order, and we welcome everybody that has come here 
today.
    Ranking Member Blumenthal and I will make opening 
statements. Any member that wishes to issue a statement may do 
so at the end of the hearing or may submit one for the record 
so we can get right to our witnesses, whom we appreciate being 
here today.
    But first, I want to take a moment to make note of Joseph 
A. Violante, who is here today. Joseph, come on up and stand up 
here. You are standing, but, I mean, come forward so everybody 
can see you. Joe is retiring from National Legislative Director 
of the Disabled American Veterans. He has done an unbelievably 
great job for a long period of time.
    I reminded him in the anteroom a minute ago, my very first 
hearing when Senator Blumenthal and I took over the leadership 
of this Committee, you were one of the first people to testify, 
and we appreciate your work on behalf of veterans. We 
appreciate the fact that you served our country in combat in 
Vietnam. We really appreciate the fact that you married a very 
beautiful woman who is with you today. Where is she? Stand up, 
dear. [Applause.]
    Joe, we thank you for your service and appreciate all you 
have done for the Marine Corps, all you have done for the 
United States of America, and all you have done for this 
Committee. Thank you very much.
    Mr. Violante. Thank you, Mr. Chairman. I appreciate it very 
much. [Applause.]
    Chairman Isakson. When I spoke to The American Legion at 
the beginning of this year, in January, I made five points 
about the five things I wanted our committee to try to 
accomplish and work on in terms of the beginning of the new 
leadership in this Committee. First and foremost was veterans' 
homelessness and second, women's issues in the VA. Today, we 
are here to talk about veterans' homelessness in our country. 
While it is improving in terms of lessening, it is still a 
great problem for many, many veterans coming home. We have two 
distinguished panels who will talk about the issue and I am 
looking forward to their testimony.
    From 2010 to 2014, the number of homeless veterans has 
decreased by a third. But when that ends up being 49,933 
homeless veterans, that is way too many. There are ways in our 
communities that we can meet the needs of these veterans who 
are unique in their problems that cause the homelessness in the 
first place, as we have learned from the Veterans Courts which 
we have established, which are becoming so successful in 
helping veterans who have that first-time brush with the law 
after they come home, to get them back on the straight and 
narrow.
    One of the problems with those who are not on the straight 
and narrow is the homeless issue, so we are going to talk about 
that today, and I know Ms. Ho is going to talk today about the 
city of Houston--I read your testimony--and the city of New 
Orleans, both of which have substantially and effectively 
eliminated veteran homelessness.
    We will also hear from the Swords to Plowshares 
organization of San Francisco, CA, that has been one of the 
Nation's leaders for almost 40 years in providing services to 
veterans who are on the streets of our cities, and in that 
case, the city of San Francisco. These stories will help us in 
setting the priorities we need to set in this Committee to see 
to it that veterans' homelessness is a footnote in history, not 
a chapter in everyday's history book.
    With that said, I will turn it over to Ranking Member 
Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
         RANKING MEMBER, U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman, and thank you for 
having this hearing today.
    In the midst of all the focus on health care and delays in 
delivering health services, we should not lose sight of the 
importance of homelessness as well as joblessness. The two go 
together and, in fact, are related to health care. This hearing 
reflects a recognition of the interconnectedness of the 
services that we have an obligation to provide to our veterans.
    I am very, very pleased and honored that we are joined by 
Lisa Tepper Bates, who is Executive Director of the Connecticut 
Coalition to End Homelessness. She will be testifying on the 
second panel. She has been an extraordinarily steadfast and 
effective advocate to end veterans' homelessness. In fact, 
Connecticut has been at the forefront of this effort nationally 
and I am hopeful that we will have some very exciting and 
extraordinary results to announce in the near future.
    Under her leadership, the Connecticut Coalition has played 
an integral role in a Statewide collaborative effort uniting 
different towns, regions, service providers to coordinate the 
kinds of help and support that we provide to homeless veterans 
and to maximize the potential of the housing and supportive 
services Statewide.
    With the Connecticut program as a model, I have introduced 
a measure called the Veterans Housing Stability Act of 2015 
with my colleagues, Senators Brown, Sanders, and Hirono. This 
legislation would require VA to take concrete steps to expand 
veterans' access to permanent housing. I stress and underscore 
permanent housing. It is based on evidence-based solutions that 
have resulted in savings in community health care 
organizations. They have proven effective in health care 
interventions and in providing not just temporary roofs over 
veterans' heads, but permanent housing.
    The numbers that Chairman Isakson recited before are a 
searing indictment of our Nation, the greatest, strongest 
nation in the history of the world. Veterans comprise an 
estimated 12 percent of the national adult homeless population 
overall. One out of ten men and women on the streets today 
without a roof over their head is a veteran, having served and 
sacrificed for our Nation. The reason that person is homeless 
has to do with our failure as a nation to keep faith with those 
veterans in other areas, like jobs and health care.
    So, the effort today is to seek to address that 
interconnected web of issues that are responsible for those 
staggering statistics--49,000 veterans who have served in 
conflicts ranging from Vietnam to Iraq and Afghanistan and find 
themselves on the streets without the help and support they 
need.
    I want to join the Chairman in recognizing Joe Violante for 
his extraordinary service, advancing from Staff Counsel at the 
Court of Veterans Appeals all the way to National Legislative 
Director at Disabled American Veterans. He has really dedicated 
his life to public service and to ensuring that all men and 
women who wear the uniform receive the benefits and services 
they need and deserve. I want to wish him well, hope that he 
will stay in touch, and say to his lovely wife, Debbie, thank 
you for your service to our Nation----
    Mrs. Violante. Thank you.
    Senator Blumenthal [continuing]. And you are going to be 
seeing more of Joe, I think. I do not want to say whether that 
is a good thing or a bad thing----
    [Laughter.]
    Senator Blumenthal [continuing]. But I know it is--very 
seriously, it is a good thing.
    Joe, thank you for your friendship as well as your service 
to so many of us who have worked with you. It has been a real 
privilege and honor to work with you. Semper Fi and thank you.
    Chairman Isakson. It is now my privilege to introduce our 
first panel. First, Ms. Lisa Pape, Executive Director, Homeless 
Programs, Veterans Health Administration, U.S. Department of 
Veterans Affairs; accompanied by Dr. Thomas O'Toole, the Acting 
Director of VA National Center on Homelessness Among Veterans; 
and Ms. Jennifer Ho, the Senior Advisor to the Secretary of the 
U.S. Department of Housing and Urban Development.
    I would ask both of you to keep your testimony to 5 minutes 
or less if you can. Then we will take questions from all the 
members of the panel. We thank you for being here today.
    Ms. Pape.

  STATEMENT OF LISA PAPE, EXECUTIVE DIRECTOR, VETERANS HEALTH 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY THOMAS O'TOOLE, M.D., ACTING DIRECTOR, NATIONAL 
             CENTER ON HOMELESSNESS AMONG VETERANS

    Ms. Pape. Good afternoon, Chairman Isakson, Ranking Member 
Blumenthal, and Members of the Committee. I appreciate the 
opportunity to discuss the Department of Veterans Affairs 
commitment to ending homelessness among veterans.
    Today, I am accompanied by Dr. Thomas O'Toole, the Acting 
Director of VA's National Center on Homelessness Among 
Veterans.
    In 2010, VA made a clear organizational priority to prevent 
and end veteran homelessness, which is a key objective of the 
current administration and leaders throughout our Nation. With 
Congress's continuing support and unprecedented Federal and 
local partnerships, VA greatly increased access for homeless 
and at-risk veterans and their families to permanent supported 
housing, to employment, to benefits, and to a full range of 
health care, including primary care, specialty care, mental 
health care, and substance use disorder care.
    VA embarked on this priority using a strategy that 
emphasizes housing first and prioritizes access to permanent 
supported housing. Housing first means providing access to 
permanent supported housing with as few barriers and 
restrictions as possible while also providing wrap-around 
services to help the most vulnerable veterans sustain housing 
and achieve stability.
    VA's approach emphasizes rescue for veterans who are 
homeless today, sustainment, support, and treatment for 
formerly homeless veterans who enter permanent supported 
housing to ensure that they are able to maintain it, and 
prevention for veterans at risk for homelessness or rapid 
connection to permanent housing for those who have fallen into 
homelessness. Using this approach, VA identified key elements 
essential for success, which include access to high-quality 
health care, permanent and sustainable housing, economic 
opportunities, and other supportive services.
    VA recognizes that no effort to end veteran homelessness 
will be effective without comprehensive services for those with 
chronic health, mental health, and substance use disorders. 
Approximately 71 percent of homeless veterans have a mental 
health diagnosis or an addiction disorder, which, if untreated, 
can keep them from returning to or sustaining independent 
living and gainful employment. Many veterans, but particularly 
those who have battled chronic homelessness, need skillful and 
repeated attempts to engage them in the care they need.
    VA recognizes that no single Federal or State agency or 
local organization can end homelessness among veterans. We must 
join hands. Together with our partners, VA has helped over 
200,000 veterans move from homelessness to permanent housing 
since 2009.
    My written testimony outlines specific examples of programs 
and identifies many of VA's Federal, State, and local partners, 
notably the U.S. Interagency Council on Homelessness and the 
Department of Housing and Urban Development, who share our 
vision of ending veteran homelessness.
    VA has maintained close working partnerships with Federal 
partners and with State, local, and tribal governments. 
Veterans Service Organizations also fill a critical role, as do 
community and faith-based organizations, nonprofit providers, 
and the business and philanthropic communities. These 
partnerships are the linchpin that binds a complex network of 
multi-level government programs and community-based services 
together. This creates a foundation of direct support, 
community by community, tailored to fit the unique needs of 
each individual community.
    VA has made significant progress and we are now closer to 
our goal of ending veteran homelessness than at any point in 
our history. Before the priority to end veterans' homelessness 
began, the percent of homeless veterans was 63 percent higher 
than the percentage of homeless non-veterans. Today, the 
percentage of homeless veterans has decreased and is now only 
30 percent higher than those of non-veterans.
    As VA prepares to mark 5 years of this priority to end 
veteran homelessness, we look forward to sustaining the 
essential partnerships that have enabled VA and our partners to 
significantly reduce veteran homelessness. When veterans become 
homeless or even at risk, VA and our partners must have the 
capacity to quickly connect them to the help they need to 
achieve housing stability.
    Sustaining the gains made so far requires continued 
investments of financial resources. Failure to provide these 
resources will severely jeopardize our ability to sustain our 
progress and will put at risk thousands of veterans and their 
families in the future. We must ensure that we do not allow 
veteran homelessness to return to previous levels.
    Mr. Chairman, this concludes my testimony. Dr. O'Toole and 
I are prepared to answer any questions the Committee may have. 
Thank you.
    [The prepared statement of Ms. Pape follows:]
   Prepared Statement of Ms. Lisa Pape, Executive Director, Homeless 
 Programs, Veterans Health Administration, U.S. Department of Veterans 
                                Affairs
    Good afternoon Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee. I appreciate the opportunity to discuss the 
Department of Veterans Affairs' (VA) commitment to ending homelessness 
among Veterans. I am accompanied today by Dr. Thomas O'Toole, Acting 
Director of VA's National Center on Homelessness among Veterans 
(NCHAV).
    In 2010, VA made it a clear organizational priority to prevent and 
end Veteran homelessness which is a key objective of the current 
Administration and leaders throughout our Nation. With Congress' 
continuing support and unprecedented partnerships with Federal and 
local partners, VA has greatly increased access to permanent housing; a 
full range of health care including primary care, specialty care and 
mental health care; employment; and benefits for homeless and at-risk 
Veterans and their families. We are now focusing on sustaining and 
continuing the progress VA has made in its efforts to end Veteran 
homelessness by ensuring that programs and resources essential to 
ending Veteran homelessness are clearly identified and will continue to 
be available.
    VA embarked on this priority using a comprehensive, evidence-based, 
and outcome-driven strategy consistent with the first-ever Federal 
strategic plan to prevent and end homelessness, Opening Doors. This 
strategy emphasized ``Housing First'' and prioritized access to 
permanent housing. Housing First means providing access to permanent 
housing with as few barriers and restrictions as possible, while 
simultaneously providing wrap around services to assist individuals in 
sustaining housing and achieving stability.
    VA's approach to ending Veteran homelessness is to emphasize rescue 
for Veterans who are homeless today; sustainment, support and treatment 
for formerly homeless Veterans who enter permanent housing to ensure 
that they are able to maintain it; and prevention for Veterans at risk 
of homelessness or rapid connection to permanent housing for those who 
have fallen into homelessness.
    Using this approach, VA identified key elements of clinical care 
and social services that are essential for success. All Veterans must 
have access to high-quality health care, permanent and sustainable 
housing, and other supportive services.
    Since 2010, VA has broadly expanded the array of services and 
supports aimed at identifying, interceding with, and rapidly engaging 
homeless or at-risk Veterans in housing, clinical care, and social 
services, as well as resources aimed at preventing homelessness. VA has 
also worked with the U.S. Interagency Council on Homelessness (USICH) 
and the Department of Housing and Urban Development (HUD) to develop 
and implement criteria for determining whether communities have ended 
Veteran homelessness.
                                housing
    Direct connection to permanent housing with appropriate supportive 
services ``wrapped around'' the Veteran is the most clinically 
effective and cost-efficient way to end homelessness. Strong 
interagency collaboration has resulted in housing programs and policies 
that have been critical to the advances made so far. They include:

    <bullet> Housing First in the Community (Housing First)
    <bullet> Rapid Re-Housing
    <bullet> Homelessness programs that help Veteran and their families 
secure permanent housing such as:

         - Housing and Urban Development-Veterans Affairs Supportive 
        Housing (HUD-VASH); providing permanent supportive housing 
        opportunities; and
         - Supportive Services for Veteran Families (SSVF)--providing 
        rapid rehousing interventions and homelessness prevention 
        services.

    <bullet> The Grant Per Diem (GPD) program that uses a community-
based transitional housing model, which includes time-limited 
comprehensive support services with the goal of rapidly transitioning 
Veterans to stable permanent housing.
         - 25 GPD programs are beginning to use the ``transition in 
        place'' (TIP model), which allows Veterans to remain in their 
        units after completing GPD participation. The results so far 
        are promising with 517 operational TIP housing units between 
        them.

    <bullet> VA's Health Care for Homeless Veterans (HCHV) programs 
provide access to healthcare, along with same-day access to safe and 
stable temporary housing for:

         - Homeless Veterans transitioning from street homelessness;
         - Veterans who recently became homeless; and
         - Veterans being discharged from institutions.
    <bullet> VBA's Home Loan Guaranty program helps to prevent 
homelessness by assisting Veterans who fall behind on mortgage payments 
to avoid foreclosure.
                             sustainability
    In addition to stable and affordable housing, economic 
opportunities are also essential to maintain housing stability. This 
includes access to employment opportunities to support Veterans' 
housing needs, improving the quality of their lives, and assisting in 
their community reintegration efforts. One resource available to 
Veterans is VA's Homeless Veterans Community Employment Services 
program. Through this program, each VAMC has been funded to hire a 
Community Employment Coordinator (CEC) for homeless Veterans. Each CEC 
serves as a liaison to local community providers of employment and 
support services, including Department of Labor (DOL) Homeless 
Veterans' Reintegration Program grantees and private sector employers.
    For Veterans who are eligible, access to VA disability compensation 
and pension benefits, and other benefits, are a key component of 
financial stability and remaining stably housed over time. Every VA 
regional office has either a Homeless Veterans Outreach Coordinator or 
Homeless Veterans Claims Coordinator responsible for case management 
and expediting the processing of homeless Veterans' claims.
    Many Veterans served through SSVF have a disabling condition. 
Supplemental Security Income/Social Security Disability Insurance's 
(SSI/SSDI) Outreach, Access, and Recovery (SOAR), is a national project 
funded by the Department of Health and Human Services' (HHS) Substance 
Abuse and Mental Health Services Administration to increase access to 
SSI/SSDI benefits. Using the SOAR model, SSVF grantees can help prevent 
evictions for disabled Veterans, and connect eligible Veterans to 
Social Security benefits, which can be a crucial support for housing 
sustainability. Additionally, VA and its partners USICH, HHS, and the 
Social Security Administration recently released joint guidance which 
includes specific strategies for assisting Veterans experiencing 
homelessness to obtain SSI/SSDI benefits.
                          supportive services
    The majority of HUD-VASH participants are experiencing chronic 
homelessness and suffer from serious mental illness, substance use 
disorders, or chronic medical conditions. VA case managers provide 
clinical visits to these Veterans to ensure they remain in housing and 
do not become homeless again. VA recently published regulations that 
make HCHV services, including Contract Residential Services, available 
to all homeless Veterans who are enrolled in or eligible for VA health 
care, regardless of whether they have a serious mental illness, 
ensuring that VA can immediately engage homeless Veterans and get them 
off the street.
                                outreach
    Many Veterans, but particularly those who have battled chronic 
homelessness, need skillful and repeated attempts to engage them in the 
care they need. A history of incarceration is a powerful predictor and 
risk factor for homelessness. Therefore, homelessness and criminal 
justice involvement have a reciprocal relationship. As a result, 
outreach to justice-involved Veterans is a key part of VA's prevention 
strategy. VA conducts homeless outreach at shelters and community 
events, and in courts, local jails, and state and Federal prisons. VA 
has implemented a clinical reminder to help identify Veterans who are 
homeless or at risk of homelessness when they present for care at a VA 
outpatient clinic. VA and USICH have also produced an identification 
and referral guide to help community-based providers identify Veterans 
who are homeless or at risk of homelessness.
                         access to health care
    VA recognizes that no effort to end Veteran homelessness will be 
effective without comprehensive services for those with chronic health, 
mental health, and substance abuse disorders. Approximately 71 percent 
of homeless Veterans have a mental health diagnosis or an addiction 
disorder, which, if untreated, can create significant challenges for 
returning to or sustaining independent living and gainful employment. 
Therefore, VA provides a continuum of outpatient, residential, and 
inpatient mental health services across the country.
    Since every homeless Veteran is unique, and so are his or her 
needs, VA offers services that are responsive to the needs of a diverse 
population. Approximately 10 percent of homeless Veterans served in FY 
2014 were women. In addition to linking women Veterans to the wide 
array of services (some of which are gender-specific), every VA 
healthcare system has a designated Women's Healthcare Provider * * * 
Homeless and at-risk Veterans in rural areas often face barriers to 
services, including a lack of transportation options and limited 
housing stock. VA is making significant investments in rural 
communities' ability to combat Veteran homelessness, through the SSVF, 
HUD-VASH and other homeless programs. VA is also working with HUD's 
Office of Native American Programs to allocate HUD-VASH vouchers to 
tribal communities.
                              partnerships
    VA recognizes that no single Federal or state agency or local 
organization can end homelessness among Veterans. We have maintained 
close working partnerships with Federal partners, such as HUD, DOL, the 
Department of Defense, HHS, the Small Business Administration (SBA), 
the U.S. Interagency Council on Homelessness (USICH), and others, as 
well as partnerships with state, local, and tribal governments. 
Veterans Service Organizations also fill a critical role, as do 
community- and faith-based organizations, non-profit organizations, and 
the business community. These partnerships are the lynchpin that binds 
an intricate network of multi-level government programs and services 
together to create a foundation of direct support community by 
community tailored to fit the unique needs of each individual 
community.
    VA has made significant progress, and we are now closer to our goal 
of ending Veteran homelessness than at any point in our history. Since 
2010, nearly 230,000 Veterans and their family members have been 
permanently housed, rapidly rehoused, or prevented from falling into 
homelessness by HUD's targeted housing vouchers and VA's homelessness 
programs. As a result of our targeted efforts, we are closing the gap 
between homeless Veterans and non-Veterans. Before the priority to end 
Veteran homelessness began, the percentage of homeless Veterans was 63% 
higher than the percentage of homeless non-Veterans. The percentage of 
Veteran homelessness has decreased to be only 30 % higher than for non-
Veterans. So, we are beginning to see that ending Veteran homelessness 
is achievable, as cities including Houston and New Orleans, have 
announced their achievement of an end to Veteran homelessness. As VA 
approaches the five year mark of its priority to end Veteran 
homelessness, we look forward to sustaining the essential partnerships 
that have enabled VA and our partners to significantly reduce Veteran 
homelessness. It will be critical to ensure that once communities meet 
the goal of ending Veteran homelessness, they will be able to sustain 
it with appropriate systems and resources in place to respond 
efficiently and effectively.
                               conclusion
    When Veterans become homeless or even at-risk, VA and its community 
partners must have the capacity to quickly connect them to the help 
they need to achieve housing stability. Sustaining the gains made so 
far requires continued investments of financial resources. Failure to 
provide such resources will severely jeopardize our ability to sustain 
our progress and will put at risk thousands of Veterans and their 
families in the future. We must ensure that we do not allow the levels 
of homelessness among Veterans to return to previous levels.

    Mr. Chairman, this concludes my testimony. My colleague and I are 
prepared to answer any questions you or other Members of the Committee 
may have.

    Chairman Isakson. Thank you very much for your testimony.
    Ms. Ho.

STATEMENT OF JENNIFER HO, SENIOR ADVISOR TO THE SECRETARY, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. Ho. Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee, I am Jennifer Ho, Senior Advisor to 
HUD Secretary Julian Castro. Thank you for this opportunity to 
discuss our collaborative work to eliminate veterans' 
homelessness in America.
    When we wrote the first Opening Doors: Federal Strategic 
Plan to Prevent and End Homelessness, we knew that the 
timelines we laid out were aggressive. Ending veterans' 
homelessness across the country by the end of 2015 would be a 
challenge. We knew that. But, we also knew that in order to 
achieve real sustainable success, we needed an ambitious and 
measurable goal.
    This goal has been crucial to the success achieved thus 
far, success that has been achieved in New Orleans and Houston, 
both of which have announced that every homeless veteran in 
their city who needs help with housing can get it. New Orleans 
and Houston prove that although the goal is aggressive, it is 
reachable.
    We are measuring success by the overall reduction in 
homeless veterans over the last 5 years and the system 
improvements that have been put into place at the Federal and 
local level. HUD, the VA, and the U.S. Interagency Council on 
Homelessness are working more collaboratively than ever before. 
We meet regularly, share data, use it to drive policy, and we 
make decisions together.
    The most collaborative of these efforts is HUD-VASH, a 
program that combines housing vouchers from HUD with case 
management and clinical services provided by the VA to assist 
vulnerable veterans and those who are experiencing chronic 
homelessness. Since 2008, over 79,000 HUD-VASH vouchers have 
been awarded to Public Housing Authorities in each of the 50 
States, the District of Columbia, Puerto Rico, and Guam. About 
10,000 of those vouchers were awarded since April.
    We are also funding joint technical assistance in 
communities across the country to eliminate barriers that stand 
in the way of meeting the goal. Some of those barriers are 
Federal ones. Sometimes our rules and regulations prove 
difficult to navigate for communities looking to enact real 
systems change, and so when a barrier is at the Federal level, 
we are organized to deal with it much more swiftly.
    Some of the barriers to ending homelessness among veterans 
have not yet been overcome. These barriers stand in the way of 
communities meeting the goal, and so we must all work together 
to develop solutions.
    Perhaps the biggest of those barriers is access to 
affordable housing. Once a veteran has a voucher in hand, there 
is no guarantee that there will be an affordable unit available 
to him or her, particularly in high-cost housing markets. We 
need local officials to make it clear that this is a priority. 
We need more landlords to step up and become partners in the 
work. We need developers to designate some of their units for 
homeless veterans. In short, we need more affordable housing.
    Another barrier is our inability to serve all veterans 
experiencing homelessness, regardless of how or whether they 
receive services from the VA. Some veterans do not qualify for 
VA benefits. Others choose not to receive treatment from the VA 
or are too far away from a VA medical center. They all served 
their country.
    We must find a way to house every veteran, regardless, 
which is why in the President's 2016 budget request we included 
vouchers for veterans experiencing homelessness, but who are 
not reached by HUD-VASH. While the Senate mark does not include 
that specific request, we appreciate how Congress continues to 
share our strong commitment to this goal. We recognize Congress 
has provided critical funding in prior years for HUD-VASH. But, 
if we are truly to end homelessness among veterans, we need to 
be able to serve every veteran experiencing homelessness, 
including those who are not reached by VA services and those 
living in Indian Country. We look forward to working together 
with this community to better serve all homeless.
    Now is the time to end veterans' homelessness once and for 
all. There is momentum building. Over 700 mayors, governors, 
and county executives have joined the Mayors' Challenge to End 
Veterans Homelessness. In January, New Orleans announced that 
it had ended veterans' homelessness. Last month, Houston, the 
fourth-largest city in America, announced that it has put a 
system in place that can house every homeless veteran who needs 
it.
    This does not mean that New Orleans or Houston will never 
have another veteran that experiences homelessness in their 
communities. Instead, it means that they have created a 
systematic response to ensure that homelessness among veterans 
is rare, brief, and non-recurring. They are serving as models 
for other communities who are striving to do the same.
    We are taking those models, collaborations, and that 
success ending veteran homelessness and applying it to our 
broader work ending homelessness for families with children, 
for young adults, for everyone.
    Mr. Chairman, Members of the Committee, I want to thank you 
again for this opportunity to testify on our work ending 
veterans' homelessness and I look forward to your questions.
    [The prepared statement of Ms. Ho follows:]
   Prepared Statement of Jennifer Ho, Senior Advisor on Housing and 
 Services to Julian Castro, Secretary, U.S. Department of Housing and 
                           Urban Development
    Good afternoon Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee. Thank you for this opportunity to discuss the 
progress made by the Department of Housing and Urban Development (HUD), 
the Department of Veterans Affairs (VA), the U.S. Interagency Council 
on Homelessness (USICH), and our community partners toward eliminating 
Veteran homelessness in the United States, along with the challenges 
that remain.
    Ending Veteran homelessness has been a high priority goal for HUD, 
and the entire Administration, since Opening Doors: Federal Strategic 
Plan to Prevent and End Homelessness was launched in June 2010. Thanks 
to funding from Congress and close collaboration among Federal and 
local partners, the Nation has made substantial progress in reducing 
Veteran homelessness and creating sustainable Federal and local systems 
that quickly respond to homelessness. Our aggressive goal to end 
Veteran homelessness by the end of 2015 has been the driving force for 
real, measurable, sustainable progress. From 2010 to 2014, there was an 
estimated 33 percent drop in the number of Veterans experiencing 
homelessness on a single night according to HUD's 2014 Point in Time 
count (from just under 75,000 in 2010 to just under 50,000 in 2014). 
New Orleans and Houston proved the goal of ending Veteran homelessness 
is achievable when they announced this year that they effectively 
eliminated Veteran homelessness.
    Such great progress would not have been possible without the 
investments made by Congress and the authority given to HUD and VA to 
collaboratively serve many Veterans with Housing and Urban Development-
Veterans Affairs Supportive Housing (HUD-VASH). In order to fulfill our 
commitment to end Veteran homelessness, we must serve all Veterans 
experiencing homelessness. Thus, we need support from Congress to fill 
in the gaps in current services and to overcome barriers to serving all 
Veterans experiencing homelessness.
    Specifically, we need the ability to more effectively serve 
Veterans not currently reached by HUD-VASH. First, we will need the 
special purpose vouchers requested in the 2016 Budget to serve 
individuals who served in the Armed Forces but are not currently 
eligible for VA Medical Services due to time in service or discharge 
status requirements. There are also Veterans in rural areas that are 
not close to a VA Medical Center or who are reluctant to use the VA for 
services for whom special purpose vouchers would be needed. Finally, 
HUD currently has the authority to pilot HUD-VASH funding on Tribal 
Lands, but would need the requested special purpose vouchers to expand 
voucher assistance in these areas. With more than 700 mayors, 
Governors, and local officials signed on to the First Lady's Mayor's 
Challenge to End Veteran Homelessness, the level of local commitment to 
end Veteran homelessness has never been greater. Now is the time to 
capitalize on this momentum by expanding our reach to include all 
homeless Veterans, helping communities problem-solve around challenging 
housing markets that have very few affordable housing units, and 
applying lessons learned from the progress on Veteran homelessness to 
all populations experiencing homelessness.
                                hud-vash
    Both VA and HUD administer programs that serve Veterans 
experiencing a range of housing issues, from the risk of losing housing 
to chronic homelessness over years--or even decades. HUD, VA, and USICH 
created an interagency committee called Solving Veteran Homelessness as 
One (SVHO) to combat a problem that cannot be solved by one agency 
alone. SVHO has dedicated staff members who meet frequently to align 
our programs, assess progress, and identify and resolve potential 
barriers to success. The greatest source of collaboration between HUD 
and VA is HUD-VASH, an essential resource for ending Veteran 
homelessness.
    The collaboration between HUD, VA, and USICH on the HUD-VASH 
program is unprecedented and reaches from the senior leadership at each 
Agency to national program staff to local offices on the ground. 
However, HUD-VASH is only as successful as the local partnerships 
between the VA medical centers (VAMC), Public Housing Authorities 
(PHA), and Continuums of Care (CoC). While these local partnerships 
often require a new and challenging way of doing business, many 
communities have fostered thriving relationships between their VAMCs 
and PHAs and closely collaborate with local CoCs. HUD and/or VA staff 
is available when communities request or need help to resolve policy 
issues or identify solutions regarding procedures or practices that 
could be improved.
    HUD-VASH provides long-term assistance to the most vulnerable 
Veterans experiencing homelessness by combining HUD's Housing Choice 
Voucher (HCV) rental assistance with VA's intensive case management and 
clinical services. To date, funding for over 79,000 vouchers have been 
awarded, and over 90,000 lease-ups have occurred through turnover. We 
are currently housing over 57,300 Veteran families through HUD-VASH and 
about 4,700 vouchers have been issued but are not yet under lease, 
which means a Veteran is searching for a unit. In some areas where the 
rental market has a low vacancy rate and rents are high, Veterans are 
having difficulty identifying housing options. We are working together 
with the VA and USICH to identify and implement strategies to assist 
with landlord engagement and to encourage development of more 
affordable housing in these areas.
    To maximize the impact HUD-VASH resources have on reducing Veteran 
homelessness, HUD and VA target HUD-VASH vouchers to the most 
vulnerable Veterans. Thus, HUD and VA established a performance target 
to use 65 percent of HUD-VASH vouchers for Veterans experiencing 
chronic homelessness.\1\ HUD and VA use data on the number of Veterans 
experiencing homelessness in communities and data on the performance of 
PHAs and VAMCs to distribute vouchers to areas that have the greatest 
need and the ability to effectively administer new vouchers. While this 
65 percent performance target remains intact, HUD and VA recognize that 
there are communities that have successfully housed 100 percent of 
those Veterans experiencing chronic homelessness. For those 
communities, HUD and VA will consider providing an exception to this 
performance target on a case-by-base basis to allow them greater 
flexibility to serve other vulnerable Veterans in their community.
---------------------------------------------------------------------------
    \1\ Veterans experiencing chronic homelessness live with a 
disabling condition and have been continuously homeless for at least 
one year or experienced at least four occasions of homelessness in the 
last three years.
---------------------------------------------------------------------------
    HUD-VASH is critically important for Veterans experiencing chronic 
homelessness who typically require long-term housing assistance paired 
with supportive services, particularly since they tend to have high 
rates of mental health and substance abuse problems that may be 
exacerbated by physical illness, injury or trauma. Since HUD-VASH's 
combination of HUD housing assistance and VA supportive services can 
support Veterans for as long as needed, this type of supportive housing 
enables Veterans to live as independently as possible in a place of 
their own. Research has repeatedly demonstrated that this permanent 
supportive housing not only ends homelessness for people who would 
otherwise live for years on our streets and in shelters, but also saves 
taxpayer money by interrupting the costly cycle through shelters, 
emergency rooms, hospitals, detox centers, and jails.
    We appreciate how Congress continues to share our strong commitment 
to HUD-VASH. We recognize how Congress has continually provided 
critical funding in prior years for HUD-VASH vouchers that has enabled 
us to have sufficient resources to achieve our goal. But we need to 
make sure that assistance is available for all Veterans who need it--
including those not currently reached by the HUD-VASH program, Veterans 
living in tribal communities, and Veterans, regardless of discharge 
status.
                   implementing strategies that work
    This year, New Orleans and Houston announced that they effectively 
eliminated Veteran homelessness, demonstrating that this goal is 
achievable when communities have adequate resources, strong local 
leadership, and implement the strategies that we know work. These 
strategies include using coordinated entry systems that ensure there is 
no wrong door for Veterans seeking help; proactive and coordinated 
outreach efforts to locate all Veterans in need of assistance; sharing 
data across systems to ensure no Veteran falls through the cracks; 
implementing community-wide Housing First practices; and collaborating 
with the Department of Labor's American Job Centers and their Homeless 
Veterans' Reintegration Program grantees, local Workforce Development 
Boards, and other stakeholders so Veterans can be quickly connected to 
jobs.
    The significant announcements in New Orleans and Houston that they 
effectively ended Veteran homelessness means that those communities 
have created responsive systems that will ensure that when a Veteran 
does become homeless, it will be rare, brief, and non-recurring. A 
Housing First approach is a key component to ensuring homelessness is 
brief and non-recurring. This evidenced-based model provides immediate 
access to permanent supportive housing from the streets or shelters 
without requirements on service participation. The Housing First model 
has been identified as the most successful approach for people who have 
been experiencing homelessness for years and have complex disabilities.
    While Housing First makes intensive services available, it does not 
require residents to undergo psychiatric treatment or have maintained a 
period of sobriety to obtain housing, which makes housing more 
accessible for Veterans experiencing chronic homelessness. Vulnerable 
Veterans can more easily engage in services and address chronic health 
conditions, including substance use disorders, once they are housed and 
no longer burdened with the chaos and uncertainty of homelessness. HUD 
and VA are both committed to following a Housing First approach in HUD-
VASH. In support of the Housing First model, VA issued guidance to VAMC 
case managers to not require Veterans to demonstrate sobriety or 
receive treatment for underlying addiction or mental health issues as a 
precondition for receiving housing assistance. To help target the most 
vulnerable Veterans, HUD eliminated all criminal history screening 
requirements for HUD-VASH vouchers except for the lifetime ban on sex 
offenders.
    helping communities meet the goal of ending veteran homelessness
    Since the ability of any community to meet the goal of ending 
Veteran homelessness depends on the strength of each community's 
leadership and successful implementation of proven strategies, HUD and 
its Federal partners are committed to working with communities to help 
them get there. Because of the critical role that HUD-VASH plays in the 
efforts to end Veteran homelessness, a significant amount of technical 
assistance and training has been committed to improving the performance 
of HUD-VASH.
    In addition to the many national and local-level trainings 
delivered by HUD and VA staff, both HUD and VA support local partners 
on the ground. These initiatives, led by Community Solutions, have 
included Boot Camps, the 25 Cities Initiative, and Zero: 2016. Through 
these efforts, many communities have achieved large gains in short 
periods of time by: getting all key partners to the table and 
strengthening local coordination; accelerating HUD-VASH housing 
placements; improving targeting of HUD-VASH vouchers to the most 
vulnerable Veterans experiencing homelessness; implementing transparent 
data and performance management strategies; and developing specific 
targets for the number of Veterans to house each month.
    These efforts dovetail nicely with other large-scale initiatives 
that are helping communities end homelessness, including the Mayor's 
Challenge to End Homelessness championed by First Lady Michelle Obama. 
This summer, HUD launched <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ca9cafbeb98a82a5a7af">[email&#160;protected]</a>, a technical assistance initiative 
aimed at helping communities cross the finish line. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f596a7b7c4f4760626a">[email&#160;protected]</a> is 
intended to both provide support to communities that have not received 
technical assistance through other initiatives and to supplement 
existing efforts. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="782e1d0c0b383017151d">[email&#160;protected]</a> will target assistance to where additional 
support is needed, and tailor the assistance to each community's needs.
           challenges we face in ending veteran homelessness
    Despite the unprecedented progress achieved in reducing Veteran 
homelessness, communities still face significant barriers. While HUD-
VASH makes housing affordable for Veterans experiencing homelessness, 
many HUD-VASH recipients still face a limited supply of affordable 
housing, particularly in high-cost markets. Once a Veteran has a 
housing voucher in hand, there is no guarantee that there will be 
enough affordable housing available in his or her community. While we 
can help communities better engage private landlords and incentivize 
landlords to prioritize housing Veterans experiencing homelessness, 
addressing the shortage of affordable housing requires commitment from 
local governments and housing developers to prioritize affordable 
housing for this population. The Administration is working with local 
actors in areas where this problem is most acute to help incentivize 
the availability of affordable housing for Veterans experiencing 
homelessness.
    We also must continue providing communities with guidance about the 
role of transitional housing in efforts to address Veteran 
homelessness. While transitional housing may be needed to address the 
specific service needs of a Veteran before moving to permanent housing, 
some models of transitional housing can lead to longer periods of 
homelessness for a Veteran. Much of the country's transitional housing 
imposes high barriers to entry, which makes it harder for high-need 
Veterans to access transitional housing because it prioritizes 
therapeutic goals such as achieving sobriety over permanent housing. 
For this reason, HUD, VA, and USICH must continue efforts to transform 
existing transitional housing models so that Veterans can access 
permanent housing as quickly as possible.
    Another barrier is our inability to serve all Veterans experiencing 
homelessness regardless of whether they receive other benefits from VA 
or whether they live on Tribal lands.
    We are excited that Congress authorized a Tribal HUD-VASH 
demonstration project for Fiscal Year 2015. This demonstration, for the 
first time, gives veterans living on Tribal lands access to targeted 
housing assistance and case management. In Fiscal Year 2016 and beyond, 
we hope to continue to be able serve Veterans experiencing homelessness 
who live on Tribal lands, because our obligation is to all Veterans, 
including those who live on Tribal lands.
    Similarly, some Veterans do not qualify for VA benefits, while 
others choose not to receive treatment from VA, and we must serve them 
all. While HUD encourages CoCs to prioritize serving Veterans who do 
not access VA services, CoCs lack the resources to meet the needs of 
all those Veterans. That is why the President's Fiscal Year 2016 budget 
request included $177.5 million for 22,500 vouchers for homeless 
families, as well as Veterans who are not currently reached by HUD-
VASH--as well as an increase of $265 million for new permanent 
supportive housing for people experiencing chronic homelessness that 
could prioritize Veterans who do not receive VA assistance. Many 
individuals cannot access VA services because they received a less than 
honorable discharge. Therefore, we urge Congress to support the 
President's Fiscal Year 2016 budget request for these resources.
                               conclusion
    Mr. Chairman and Members of the Committee, I hope this discussion 
has helped inform your understanding of the progress we have made 
toward ending Veteran homelessness, and what is needed to achieve our 
goal of ending Veteran homelessness and all homelessness in the United 
States. Thank you for this opportunity and I look forward to answering 
any questions you may have.

    Chairman Isakson. Well, thanks to all of you, and I will 
begin the questioning by asking you this question, Ms. Ho. 
Would you describe for the Committee and the people in the 
Committee room what a HUD-VASH voucher is worth.
    Ms. Ho. The average cost of the voucher?
    Chairman Isakson. Right.
    Ms. Ho. Let me just check with Molly for a second. It is 
about $8,000 a year of housing assistance. So, it works like a 
regular housing choice voucher----
    Chairman Isakson. OK.
    Ms. Ho [continuing]. Where you get--you pay 30 percent of 
your income, and then it pays the difference up to the rent 
limit.
    Chairman Isakson. So, $8,000 a year would be roughly $650 a 
month, is that right? Am I counting right?
    Ms. Ho. Your math is much quicker than mine, sir.
    Chairman Isakson. It is close. It is probably not right, 
but it is close. [Laughter.]
    Thank you for being respectful of my old age. [Laughter.]
    But, $650 a month will not provide much housing in most of 
America's major cities.
    Ms. Ho. Sir, this is the average subsidy value of a HUD-
VASH voucher, but the amount of assistance that is paid from 
community to community varies----
    Chairman Isakson. Right.
    Ms. Ho [continuing]. Based on something that we call the 
fair market rent, which is a locally determined figure. A fair 
market rent in Montana would be different than a fair market 
rent in Washington, D.C.
    Chairman Isakson. Is that voucher sent to the property 
owner, who then offers it to veterans who might be a potential 
tenant in the house, or is it sent to veterans, or is it 
redeemable by a veteran when they find a house they want to 
rent?
    Ms. Ho. Thank you for that question, sir, on how it works. 
The Public Housing Authority actually has the HUD-VASH 
voucher----
    Chairman Isakson. Got you.
    Ms. Ho [continuing]. So, when the contract is executed 
between the veteran and the landlord, the payment of the rent 
subsidy is made from the Public Housing Agency to the landlord 
directly. Then the veteran would pay 30 percent of their 
income. That is all calculated by the Housing Authority.
    Chairman Isakson. Did not some cities offer some abandoned 
housing from the housing crisis of 2008-2012 and convert it 
into housing for the homeless?
    Ms. Ho. Sir, that is an excellent question, but I do not 
have details on that to report. I could check back with others 
at HUD and get back to you.
 Response to Request Arising During the Hearing by Hon. Johnny Isakson 
  to Jennifer Ho, Senior Advisor to the Secretary, U.S. Department of 
                     Housing and Urban Development
    Response. The Neighborhood Stabilization Program (NSP) was 
established for the purpose of providing emergency assistance to 
stabilize communities with high rates of abandoned and foreclosed 
homes, and to assist households whose annual incomes are up to 120 
percent of the area median income (AMI). NSP funds may be used for 
activities which include, but are not limited to:

    <bullet> Establish financing mechanisms for purchase and 
redevelopment of foreclosed homes and residential properties;
    <bullet> Purchase and rehabilitate homes and residential properties 
abandoned or foreclosed;
    <bullet> Establish land banks for foreclosed homes;
    <bullet> Demolish blighted structures;
    <bullet> Redevelop demolished or vacant properties

    If any properties were used to house homeless individuals it most 
likely occurred as purchase and rehabilitate homes and residential 
properties abandoned or foreclosed. This may well have happened but I 
am not aware of specific examples.

    Chairman Isakson. Thank you very much.
    Ms. Pape, I really appreciate your focus on that 71 percent 
that are either drug-related or mental health-related. In your 
written testimony, you say, ``Therefore, VA provides a 
continuum of outpatient residential and inpatient mental health 
services across the country to address that problem.'' What is 
that continuum, and what are those services? Are the services 
available at the VA hospitals and through the community 
contract providers, or what?
    Ms. Pape. You know the answer, sir. That is exactly right. 
We are able to provide both inpatient residential care, called 
domiciliary care, which many of you probably know, 
rehabilitation, where a veteran can live up to usually 6 
months, usually less, about 4 months, and get the rehab they 
need that focuses on substance abuse, PTSD treatment, any 
mental health treatment, as well as for communities that do not 
have domiciliaries, there is residential contract care that we 
also contract for care so that veterans can get what they need.
    I will mention there is a huge continuum of mental health 
care, inpatient and outpatient, Vet Centers that our veterans 
can get connected to, and, of course, any community agency that 
joins hands with VA to do mental health or substance abuse 
services.
    Chairman Isakson. I have been told by advocates for the 
homeless that homeless veterans are far different than the 
typical homeless person. In fact, they told me if you are going 
to find a veteran in need of a house, you do not look to a 
wandering street. You go to a public library or other public 
facility during the day and they will be there until it closes 
at night because they do not want to let anybody know they are 
homeless or look that way. Do we do a good job in our mental 
health centers of identifying people who might be homeless and 
getting them services and getting them help?
    Ms. Pape. That is an excellent question. Thank you. Our 
veterans are proud, as you know, and not every veteran wants to 
step up and say they are homeless because it is so shame-based. 
We have instituted a screener both--that is inpatient for us so 
that if veterans come to the hospital, there is no wrong door. 
We do not ask them, are you homeless. We ask them, are you 
having difficulty paying your rent, are you sleeping on someone 
else's couch, so that we can start to identify if they are at 
risk; are you in jeopardy of losing your job, so we can 
identify that. It is really about a no wrong door approach. We 
also work with our community partners to ask those same kind of 
questions so that we can start looking at the preventative 
nature of homeless veterans.
    Chairman Isakson. Thank you very much to all of you.
    Ranking Member Blumenthal.
    Senator Blumenthal. Thank you.
    Let me ask you, Ms. Pape, would it be helpful for you to 
have a program that increases housing stability and retention 
by providing grants to community organizations for after-care 
of formerly homeless veterans?
    Ms. Pape. We know in order for us to really end 
homelessness and sustain homelessness, we need to have the 
capacity across the country, community by community, to end 
veterans' homelessness. We are always pleased to hear when 
folks want to step up and provide permanent supported housing 
or additional services that can address the issues of our 
homeless veterans.
    Senator Blumenthal. Folks in the community. So, that would 
be a welcome program for you. That is one of the provisions of 
the----
    Ms. Pape. Absolutely.
    Senator Blumenthal.[continuing]. Veterans Housing Stability 
Act of 2015 that I introduced today. Modifying the VA program 
so that you could use homes from VBA's foreclosure inventory, 
that is to say the homes that are foreclosed, so that nonprofit 
agencies could better use them to end homelessness and provide 
roofs over heads and even permanent housing. That would be 
welcome, would it not?
    Ms. Pape. I would need to take the details back and have 
our offices work together. That would be under the Veterans 
Benefits. But, again, permanent housing for any homeless 
veteran is a welcomed addition to our entire continuum.
    Senator Blumenthal. So, in theory, you would welcome it, 
and you want to see the details----
    Ms. Pape. Yes, sir.
    Senator Blumenthal [continuing]. And I welcome your 
support.
    Ms. Pape. Yes, sir.
    Senator Blumenthal. In terms of the super-utilizers--let us 
use that word to refer to health care clients who need more 
intensive case management intervention--would it be helpful to 
you to have a program that targeted them among the homeless?
    Dr. O'Toole. Senator, if I can answer that. This is a huge 
issue and it speaks to the larger process of once we get them 
housed, obviously, their care needs to continue, and if we want 
to keep them housed, we have to be providing the up-front care. 
Homeless veterans, on average, are at least twice, if not more, 
complex in their care needs than the general veteran 
population.
    We have actually instituted a program within the VA using 
the homeless registry to actually proactively identify who 
those veterans are that are at highest risk for being a super-
utilizer, or most expensive and utilizing the most--highest 
levels of care, with reports that go out to the field on a 
monthly basis of who those veterans are to field assistance to 
support them while they help. We have been able to demonstrate 
about a $6.3 million reduction in acute care use with that 
group as a part of this initiative.
    Much more needs to be done. We would be very, I think, 
happy to see any additional support in further developing this 
hot spot, or not only for acute care use, but also for risk for 
losing their housing and other predictive analytics and 
algorithms that we can apply to providing more efficient and 
effective care.
    Senator Blumenthal. Well, I welcome your support and look 
forward to working with you on that provision, as well.
    One more among the provisions in this bill, not by any 
means exhaustive, the definition of a homeless veteran--why not 
conform the definition of homelessness for veterans to the 
definition of homelessness for the Department of Housing and 
Urban Development so as to include a veteran or veteran's 
family who are fleeing domestic or dating violence, sexual 
assault, stalking, or other dangerous and even life-threatening 
conditions in their current housing situation? Would you favor 
that kind of change in the statute?
    Ms. Pape. Again, we would want to take those details back, 
have discussions with our partners. We would be happy to work 
with your office on drilling down on the details of what that 
would mean. But, absolutely.
    Senator Blumenthal. Well, I hope that you can commit to 
work with us on this matter, because I think not only decrying 
and describing the problem, but doing something about it is 
really what is necessary. Thank you very much, and thank you, 
Ms. Ho, as well.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Tillis, followed by Senator 
Manchin.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair, and thank you all for 
what you do.
    The one question I have, and it may be one that each of you 
may have a comment on, in North Carolina, I was Speaker down 
there before I came up here in January, and we did a lot of 
work at the State level on homelessness. We got a CDBG, or 
community development block grant, to actually start taking a 
facility, a health facility, and converting it to a 150-bed 
homeless vets transitional facility. It was a bit of a pain to 
get through, though. It was one of these obvious great uses for 
the resources. We had a willing State agency. It took us about 
a year and a half, almost 2 years to get to the point to where 
we are finally at implementing it and should go online fairly 
quickly.
    What more do we need to do for communities that are forward 
thinking, they want to help, VSOs, what more do we need to do 
to remove the barriers that would have caused that process to 
take so long?
    Ms. Ho. I would be happy to take that. Senator Tillis, 
thank you for that insightful question. We were at a conference 
with 1,800 homeless advocates and service providers and one of 
the things that is just so clear to me, this work is not for 
the faint of heart, and the bureaucracy of doing the right 
thing is incredibly hard. Oftentimes, when you are creating 
more supportive housing options, you are trying to figure out 
how to weave together 13 different funding streams and tax 
credits, and they all work on their own cycles.
    It is one of the reasons that we think that the HOME 
Program is so important for the creation of more affordable 
housing and supportive housing. As you know, in the Senate 
markup right now, there is a 93 percent cut to the HOME 
Program, and it is the best engine that we have to create more 
affordable housing, and it is an incredibly flexible funding 
tool that local communities control so that they can use it to 
gap fill when they are trying to put together the financing for 
supportive housing or for affordable housing.
    What we hear from communities all the time is that the 
local control and the flexibility associated with the HOME 
Program, as well as the fact that it is specifically dedicated 
to the creation of more affordable housing opportunities, that 
that is a really important tool to have.
    Senator Tillis. Something I would like to see from you, 
which I was going to ask the other panelists, too, is if you 
could go back and identify things that we should rethink that 
could be constraints that we placed on you or that you may have 
placed on yourself or the interaction with other agencies that 
we need to look at modernizing and streamlining so that we can 
get a faster rate of solutions to the homelessness problem; 
and, I, for one, would like to help.
    I would also like to spend some time talking more about the 
best practices that are out there. You know, I, for one--
Senator Sullivan is from a very large State with a very large 
dispersed rural population. I am in a State that is 50 percent 
urban, 50 percent rural. We need different solutions to those 
challenges, and I am very interested in hearing about a kind of 
national plan and prioritization, if any of you would like to 
speak on that.
    Dr. O'Toole. Thank you, Senator. I think this is an issue, 
as well, that we have been struggling with. I would say that if 
we were to look forward 5 years from now in terms of what are 
the population groups and what are the dynamics that we need to 
be prepared for, there are four population--sub-populations of 
veterans at risk for becoming homeless or who are homeless that 
we really need to be concentrating our efforts to.
    Homeless women, because of the increasing ranks of active 
duty who are going to be separated from service. Those men and 
women who served in Iraq and Afghanistan, part of the OEF/OIF 
era and their return and separation from service and the risks 
that they have. We have an increasingly aging and frail 
population of homeless and formerly homeless who have had an 
accelerated aging process and accelerated needs and complexity 
of needs. We also have those veterans that cycle through.
    When we start laying into that dynamic, urban homelessness 
is very different than rural homelessness and we have to have 
that consideration and understanding and appreciation, as well. 
We also need to be looking at our programs, really not as 
stand-alone, but representing a continuum that can be flexible 
and responsive to where the veteran is and what those needs 
are.
    This is a process that we have been engaging in and, I 
think, would welcome a very active role and engagement with you 
and others in really trying to map out that strategic thinking 
over the next 5 years.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis.
    Senator Manchin.

       HON. JOE MANCHIN, U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, and thank all of 
you for your service and doing the Lord's work, really, trying 
to help our veterans.
    But, let me just say that in my State of West Virginia, 
drug abuse is the number 1 killer. It is prescription drug 
abuse. When I first came to the Senate--I happened to be 
privileged enough to be Governor of my State, and I did not 
realize the amount of unemployment in our veterans' ranks, drug 
abuse, and homelessness. I do not know which one follows which. 
Do you all have a percentage breakdown of addiction versus 
mental impairment? Which is the most?
    Dr. O'Toole. A lot depends, of course, on how you want to 
define it, but most statistics in this area are putting the 
rate of addiction among homeless veterans at a 64 to 65 percent 
range. The percentage of homeless veterans who have a mental 
illness typically runs about a 45 percent range. Those with two 
or more conditions, or those who would have what is considered 
a serious persistent mental illness of a higher degree of 
severity. It runs about 35 percent; and, chronic disease is 
about 65 percent.
    Senator Manchin. How often do you all communicate with the 
Department of Defense? Basically seeing what you are seeing 
after they have given their service to our country and you are 
seeing the effects of that service that was commitment. Are 
they asking you all, what are you getting on this end and what 
we are putting out on this end?
    Ms. Pape. We do work with the Department of Defense and 
especially during the transition from servicemember to veteran. 
Folks know these statistics to make that transition better so 
that we can intervene sooner and help prevent some of the deep-
seated issues that may often result as from being a 
servicemember. But, some of this addiction and mental illness 
is just how people are hard-wired, too. It is not always 
because they served in the military.
    Senator Manchin. Well, I agree. The thing that we are 
fighting is drug addiction here on the private sector, and 
there is not a single person sitting in this room who does not 
know somebody in their immediate family or extended family that 
has not been affected by legal or illegal drugs. It is of 
epidemic proportion. None of us here have escaped it.
    With that being said, we in the Department of Defense or in 
the military are trying to hound it on this side, because we 
are looking at, first of all, how it is being dispensed, the 
abuses that go on, how they are getting it. In the military, it 
seems to be like candy. I mean, we are just giving it for every 
reason in the world. I mean, they have problems here, problems 
there. We have anxiety. Before you know it, we have got them 
hooked before we get them out of the service. Then, we wonder 
why the high unemployment rate. They cannot pass a drug test.
    Ms. Pape. Right.
    Senator Manchin. They cannot pass a drug test. I mean, you 
look down into it--the homelessness among addicts, like you 
said is 65 percent probably. So, the military is supporting it. 
I am saying, if they are speaking to you all and talking to you 
all, you have got to tell them what I am getting. When they 
have given the service to our country and you are finished with 
their service, or they are finished, let me tell you the 
product I have got to work with. I think all of us have to be 
extremely concerned about this. It is just unbelievable.
    I talk to some of these veterans. They cannot transition 
back in because of their addiction. They cannot hold a job. 
They cannot get retrained. You can spend all the money you want 
and if you give them a home, they cannot keep the home unless 
you can keep them clean. You have seen that.
    Ms. Pape. And employment. It is important to have a way to 
sustain----
    Senator Manchin. Well, they need a job. We kept saying that 
we are trying to reconnect the dots before they leave.
    Ms. Pape. Yes.
    Senator Manchin. I appreciate the work you are doing. It is 
such a mammoth problem that we have. But, if we cannot control 
it in the military--and, if the VA, Medicaid, and Medicare 
would not be dispensing opiates like M&Ms and we would go, 
basically, opiates should not be dispensed unless other 
alternative pain relievers have been tried--have you all talked 
about that at all. Doctor?
    Ms. Pape. I will let Dr. O'Toole answer that.
    Senator Manchin. I am sorry.
    Dr. O'Toole. No, as a primary care provider who will be 
seeing patients in a couple of days in my clinic, this is a 
huge issue, and, Senator, I have to just echo everything you 
are saying and that it also speaks to a larger issue of how we 
manage pain and how we address pain issues in a way that, 
obviously, does not keep people suffering, but is effective in 
this.
    Just to echo and to reinforce your point, the number 1 
reason for losing a HUD-VASH voucher from an event-based 
process is having a substance abuse-related hospital admission.
    Senator Manchin. But, Doctor, dispensing--and I will finish 
because my time is up--but dispensing, I cannot believe the 
culture that we have today. When I was growing up, you got an 
aspirin or something and that was it. We all had pain, I guess, 
to a certain extent. We just did not get this kind of relief.
    I had a person--my communications director had gone and had 
a wisdom tooth pulled. Ninety oxycontin for a wisdom tooth. 
Now, you tell me somebody should not be put in jail for that. 
This is where we have got to crack down, Doctor. So, I just 
hope that you all would push back, and we could do it in the 
military.
    Dr. O'Toole. I could not agree more.
    Senator Manchin. Thank you, sir.
    Chairman Isakson. Let me amplify on that for 1 second. You 
know, a lot of these homeless veterans with mental health 
problems that are coming to you for services are also getting 
VA services for their health. Senator Manchin is probably right 
on target that they have got some prescriptions being provided 
by the VA that are contributing to their homelessness. There 
ought to be some vertical reporting back and forth to try and 
get that pharmacist or that VA physician or that VA CBOC that 
serves that veteran the information that he is now homeless and 
on the streets and the biggest contributor is drugs, which they 
are the biggest provider of those drugs.
    Dr. O'Toole. Absolutely, sir. One of the things we have 
developed within the VA is actually a homeless-specific primary 
care model that does integrate and coordinate care between the 
housing and the veteran's ongoing care needs. I think that the 
Senator's point and your point about how essential it is to 
manage medication use effectively and judiciously so that we 
are not making the problem worse is absolutely spot on and it 
is an issue. It is an issue that is not limited to the VA, as 
we all know, but it is one that, obviously, this population is 
incredibly vulnerable to. And, we do try to work on it. We do 
actively address this issue within the clinical context that we 
have. VA has launched several initiatives to really try to curb 
and redirect away from opiate use to more prudent pain 
management approaches, and it is an ongoing battle for all of 
us.
    Chairman Isakson. Thank you.
    Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and thank you so 
much for having this very, very important hearing, and I do 
appreciate all of your efforts.
    Ms. Pape and Ms. Ho, as the law currently stands, veterans 
who receive a housing voucher through the Housing and Urban 
Development-Veterans Affairs Supportive Housing, HUD-VASH, 
Program are not considered to be homeless because, technically, 
they have housing and, thus, they are ineligible to participate 
in the Homeless Veterans Reintegration Program, HVRP, which I 
understand is a Department of Labor program, but it falls 
within Title 38 and is, therefore, within the jurisdiction of 
this Committee.
    Senator Tester and I have introduced legislation, S. 425, 
which reauthorizes HVRP for an additional 5 years and also 
clarifies that veterans who participate in the HUD-VASH Program 
can still participate in HVRP. It is my firm belief that the 
two programs are very complementary. It is difficult for a 
veteran to focus on learning the skills needed to find and 
maintain employment if they are homeless, and providing housing 
without teaching job skills only perpetuates the cycle of 
homelessness.
    I guess my question is, do VA and HUD support changing the 
law to allow veterans participating in HUD-VASH to also 
participate in HVRP?
    Ms. Ho. Thank you, Senator, for that question. It is a 
great question. The way that the different eligibility criteria 
between programs works is oftentimes counterproductive to what 
we are trying to accomplish in the long run. I would defer to 
my colleagues at the Department of Labor on the nuances of the 
eligibility, but absolutely, the ability to get employment 
assistance to veterans who become housed is critical, both in 
terms of their long-term self-sufficiency, but also just their 
recovery and well-being. So, anything that we can do to enhance 
employment services for veterans once they are housed would be 
terrific and HUD would be more than happy to work with you and 
our colleagues at the VA and the Department of Labor on the 
details of that.
    Senator Boozman. Ms. Pape.
    Ms. Pape. I would absolutely concur with what Ms. Ho is 
saying, and know that targeted programs for homeless veterans 
in employment is very necessary, because, remember, our 
veterans' average age is about 53 years and they have spent 
several years on the streets. They are not used to getting up 
and going to a job. Anything that can target homeless for 
employment is a good thing for all of us.
    Senator Boozman. Yes, it is really kind of crazy. I mean, 
it is a catch-22 situation. I mean, you provide them a benefit 
where they are in housing for a period of time, and yet they do 
not have any benefits to get the skills that they need so that 
they can actually maintain their own housing. We really would 
appreciate working with you guys.
    Ms. Pape, there was a VA OIG report issued in December 2014 
about the National Call Center for Homeless Veterans. Let me 
give you some of the highlights. In fiscal year 2013, 79,500 
homeless veterans contacted the call center. Twenty-seven 
percent of callers left messages because counselors were unable 
to take the calls. The IG identified 40,500 missed 
opportunities, which is a majority, where the call center did 
not refer veterans to medical facilities or closed referrals 
without verifying that the veterans had received the VA 
services that they needed. There was also $267,000 in funding 
that was inappropriately spent.
    Oftentimes, one of the biggest hurdles to helping a 
homeless veteran is getting them to make contact. As you 
mentioned and as we have discussed, many of these individuals 
are mentally ill or have a variety of problems. How do you call 
back somebody who is homeless?
    I guess the question is, since the VA OIG report was 
issued, can you comment about what is being done to fix the 
problem, and can you tell us now what the percentage of 
incoming calls are being answered at this point in time.
    Ms. Pape. Absolutely, and thank you for the question. Since 
the IG report came out, the call center was originally 
organized under the Veterans Crisis Line, so the Suicide 
Hotline and the Homeless Call Center were organized together. 
That call center has been moved out from under the Crisis Line 
and moved to our Health Resource Section, where they already 
run four other crisis or hotlines, phone lines. They run a 
benefits line, a pharmacy line--it is escaping me, another 
line--a pharmacy line, and then the Homeless Call Center. That 
has improved our ability to respond to calls already.
    Senator Boozman. Do we have a percentage of calls that are 
actually being answered for homeless people calling in?
    Ms. Pape. We do. 95 percent of the calls are being 
answered. Instead of an answering machine--they got rid of the 
answering machine--they now have a queuing system, so that if 
somebody is waiting for a call, it goes to the next available 
caller, like all the call lines we have had before. 95 percent 
are getting responded to at this point.
    Senator Boozman. Good. Thank you very much.
    Ms. Pape. Yes.
    Senator Boozman. Mr. Chairman, we really need to follow up 
on that in the future and kind of hawk that as to what is going 
on. Again, I know that you all are working hard in this regard, 
and the good thing about that is, you have got all these people 
calling in. I mean, we are doing something right along that. 
But, it is kind of like the other situation that we have got 
with the benefit of some housing and then you lose benefits on 
the other. We have simply got to--you know, we have got to 
solve the problems that we create by doing some good things, 
and sometimes it creates other problems. Thank you very much.
    Chairman Isakson. Thank you, Senator Boozman, and I commend 
you on your effort on veterans' homelessness, not just at this 
hearing, but what you have done the last couple years. I 
appreciate it very much.
    Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and I want to 
thank the panelists for your commitment to a really important 
issue that I think all of us want to get behind, and I applaud 
the VA for its focus on this.
    I think that just the term ``homeless veteran'' is 
something that kind of chokes up a lot of us. I think it would 
be great if 10-20 years from now to be able to just banish that 
term completely because it no longer exists. We will all work 
together on that.
    I wanted to follow up on the discussion of homeless veteran 
women. You know in my State we proudly boast the top number of 
veterans per capita of any State in the country, but sadly, we 
also have very high levels of domestic violence and sexual 
assault in Alaska, some of the highest in the country, as well. 
I am wondering, kind of following on a little bit of Senator 
Blumenthal's question, to what degree have you seen that our 
women veterans homelessness is a result of domestic violence, 
and do we need to do something to make sure the definition is 
broad enough so these women can avail themselves of these kind 
of services if they fall into that definition.
    Dr. O'Toole. I am happy to jump in on that. Thank you, 
Senator, and I absolutely agree with you. I do not have the 
statistics off the top of my head, but domestic violence risk 
and fear of domestic violence is a significant factor for women 
veterans becoming homeless. The other issue is, obviously, many 
of these women, upwards of 30 or 40 percent, have children, 
dependent children that they are responsible for. So, it is not 
only making sure that the definitions are expanded to make sure 
that women can avail of services in the immediacy of needing 
them, but also that we have the capacity for caring for their 
children, as well, during these crises.
    Senator Sullivan. You will take a look at this definition 
and make sure that women who fall into that category can avail 
themselves of the services?
    Ms. Pape. Absolutely. We will, again, work with your office 
and our Congressional affairs to provide technical assistance. 
Absolutely.
    Senator Sullivan. Great. Senator Tillis raised a good point 
about kind of the difference between some of the urban 
challenges that we have with homelessness and then rural. You 
know, for a big State like Alaska, we have a lot of veterans 
who live in very remote rural areas. What are you doing in 
terms of those kind of challenges with regard to homelessness 
in rural communities?
    Ms. Ho. Do you want to take that----
    Ms. Pape. I will start, but I know my colleagues will have 
additional information. As you know, rural homeless is a 
challenge, absolutely no doubt. They are often called the 
hidden homeless. They are living in campgrounds in the woods, 
right, couch-surfing, and you do not find them the same way 
that we can find them in urban areas. We have to be really 
creative about how we find those homeless rural veterans. We 
have the call center, of course, which we try to ensure that 
that number is out to all medical centers and our partners in 
those areas so that those folks can call into us and we can get 
connected.
    We also have our SSVF grant, Supportive Services for 
Veteran Families, and we are able to target that grant into 
rural areas, and I am glad to say that when we started it, it 
was in about 48 percent rural areas, and over the last 2 years, 
we have grown that so that grant now is available in 68 percent 
of rural areas out there, which is very positive. That grant 
provides us the opportunity to serve families and then pay 
light subsidies, which we cannot do in any other program. If 
there is not a resource in the rural area, we can help them pay 
for whatever need they may have.
    Senator Sullivan. Great. Ms. Ho, do you have a----
    Ms. Ho. Yes, Senator, and thank you for that question. I am 
a Minnesotan and did this work in rural Minnesota and urban 
Minnesota, and while homelessness manifests itself differently 
in rural communities than it does in big cities, the causes are 
oftentimes the same and the solutions are the same. You know, 
the solution is a home.
    I think one of the things that--one of the reasons why the 
President included in the 2016 budget special purpose vouchers 
for veterans that are not tied to HUD-VASH or the VA is that we 
want to make sure that no matter where a veteran lives, that we 
have the opportunity to have vouchers that are going to meet 
those needs.
    The other thing that we have done with the HUD-VASH Program 
is that we have used the authority that you have given us to 
have the HUD-VASH vouchers be immediately portable. Even if 
somebody living in a rural community, their closest Public 
Housing Authority (PHA) does not have an allocation of HUD-
VASH, as long as they can work with the VA through the 
eligibility, they can get a VASH voucher from another PHA that 
does and use it in their home community.
    It is one of the tools that we have with existing HUD-VASH. 
Of course, we also think that getting the special purpose 
vouchers for veterans that would not necessarily be tied to the 
VA would help us fill in some of the gaps, especially in remote 
and rural communities.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    Senator Heller.

           HON. DEAN HELLER, U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you for holding this 
hearing to examine the issues we have with homeless veterans, 
and I want to thank the panel, also, for being here, for your 
insight and wisdom on this particular topic.
    You know, in this community, we talk a lot about the 
failures with the VA health care, VA claims backlog, and, 
obviously, improving the management at the VA, but when we look 
at how well our Nation is caring for veterans, I think we need 
to start by looking at our homeless veterans. Men and women who 
have served our country obviously should never be in this 
particular position.
    I think the VA has been focused on this issue, and frankly, 
I think improvements have been made, and I am glad to see that. 
But, as long as we have homeless veterans, I think we ought to 
be doing everything we possibly can to get them back on their 
feet. Frankly, I also do not think it is solely a VA effort. We 
have several organizations in our communities back in Nevada 
that provide services to help veterans put a roof over their 
head and some stability back into their lives. I think Nevada 
is lucky in that case to have organizations in both Southern 
and Northern Nevada, and for that, they should be commended.
    I like the program of VA 25 Cities Initiative. They help 
better coordinate with community leaders to address these 
veterans' homelessness, and especially in Las Vegas, and in 
combination with the effort that you are doing and what these 
organizations in the State are doing, we have seen now where 
homeless veteran numbers declined by 44 percent in the last 
year, and that is very, very commendable. I think that is 
great.
    My hope is that the VA initiative can be expanded in other 
cities, like in Northern Nevada and Reno, where we have about 
150 homeless veterans at this point.
    But, I also urge this Committee, Mr. Chairman, to consider 
legislation I have introduced with Senator Murray for several 
Congresses to allow VA-funded shelters to be reimbursed for 
care of veterans' dependents.
    Ms. Pape, can you define for me functional zero.
    Ms. Pape. Absolutely. Jennifer alluded to some of this in 
her testimony. Functional zero, or we call it an effective end 
to homelessness, means that communities have the capacity to 
serve homeless veterans who are on the streets. It does not 
mean, by any means, that a veteran will not become homeless. 
People go through hard times. They have housing crisis, health 
issues that will cause them to become homeless, but that the 
community has a rapid response to that homelessness and can get 
them either a house or a safe place to stay and the services 
they need.
    Senator Heller. Can you give me examples? Can you give me 
examples of cities that were formerly not functional zero but 
are today?
    Ms. Pape. Absolutely. There are two that have stepped 
forward, which gives us great inspiration. First, New Orleans, 
and what they did was name list everybody. They know every 
veteran that is on their streets by name so that they can 
continue to work directly with them; and Houston did the same.
    Though they may still have veterans kind of out there, they 
are connected, know the veteran by name, and are striving 
toward getting that veteran as quickly as possible, usually 
under 30 days--I think New Orleans is at, like, 25 days at this 
point--in a house or a safe place of living very quickly. If 
communities can do that, they will well be on their way.
    Senator Heller. Have you determined or rated cities? Is 
that what you do? I mean, could I find a list of functional 
zero cities, and how close, perhaps, cities and communities in 
Nevada are?
    Ms. Pape. Senator, what we are asking is that communities 
come forward to the U.S. Interagency Council on Homelessness, 
along with their mayors who have joined into that Mayor's 
Challenge. We have several that have stepped up and are nicely 
on their way. Phoenix has hit some great milestones. Cleveland 
tells me they are on their way. Binghamton, NY, is on their 
way. So, we have those who raise their hand and come to us. We 
are not out there rating the cities. We are hoping the 
communities own it.
    Senator Heller. Do you keep a list specifically for women 
homelessness, veteran women's homelessness? Is there a 
statistic?
    Dr. O'Toole. We know and we do track the number of homeless 
women who are there. It is roughly 10 to 12 percent. We know 
the programs and we have designated programs that are set aside 
and specifically dedicated to care for them.
    Senator Heller. Is there a hard number?
    Dr. O'Toole. I would have to get back to you on that for 
the record. There is a figure, but it escapes me right now.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Dean Heller to 
Dr. Thomas O'Toole, Acting Director, VA National Center on Homelessness 
          Among Veterans, U.S. Department of Veterans Affairs
    Response. The number of homeless and at-risk for homelessness 
female veterans served by VA last year was 36,763.

    Senator Heller. I was just curious. So, you are saying, 
what, 10-12 percent of something is----
    Ms. Ho. Sir, if I may. The other piece to add to that is 
that 14 percent of the HUD-VASH vouchers are going to women 
head of households. We have had a real targeted effort----
    Senator Heller. There is a targeted outreach effort.
    Ms. Ho. That is right, sir.
    Senator Heller. What is the uniqueness, the difference 
between homeless women versus homeless men?
    Ms. Ho. Do you want to speak to that?
    Dr. O'Toole. I think one of the primary ones is the issue 
of dependent children and, obviously, the needs that extend 
beyond the individual to also cover that of the family. The 
pathways in, which Senator Sullivan referenced in regard to 
domestic violence and instability there, are clearly 
significant, as well. Military sexual trauma as a driver for 
homelessness is something that our research at the National 
Center has identified, as well, as a significant driver.
    Senator Heller. Mr. Chairman, my time has run out, but 
thank you very much, and again, thanks to the panel for being 
here today.
    Chairman Isakson. Thank you, Senator Heller.
    Senator Rounds.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    I appreciate the VA's mission to end homelessness among 
veterans. Recently in South Dakota, I have seen programs like 
the Veterans Outreach Center in Sioux Falls get cut, and I am 
hoping in the future that may be reconsidered. That particular 
decision to cut was with a program in which you had, I believe, 
a 1-year contract that in 4 years optioned. You have notified 
them that you were taking the option for the fourth year, and 
then in the middle of what were some very challenging budget 
times, made the decision after notifying them that you were 
going to not continue with that last lease.
    Of concern to me is not so much that there were hard 
decisions made, but, rather, the priority that was placed upon 
which programs were being reduced. I am curious, because what 
we looked at was about a $3.2 billion shortfall in terms of the 
agency, and we are moving money right now under a House bill 
coming over with the Chairman and the Ranking Member's 
assistance that will help fill that gap or allow the agency to 
transfer funds and so forth to take care of those needs.
    But, somewhere along the line, the decision was made that 
the outreach for the homeless was one of the areas that would 
be eliminated. We have got construction projects that are in 
some cases a billion dollars over budget. We have got more 
demand for services and so forth. I am not so much looking to 
criticize the process, but I would like to understand the 
process that was used in determining which programs were more 
at risk than others and why it was that a VA outreach facility 
for the homeless was identified as being one of those areas 
which was cut, and what is the possibility of getting it 
reinstated for those veterans that were using it on a daily 
basis.
    Ms. Pape. That is an excellent question; and the details, I 
do not have in front of me, although we are happy to take that 
back and look into how that process unfolded in your area. I do 
know that, and have been told that the level of services was to 
remain the same, that they may not be using that space for 
outreach, but that there were alternative spaces found in which 
veterans could still access their outreach worker. It just was 
not at that particular space. But, again, we will take that 
back for the record and get you a process----
    Senator Rounds. Well, let me ask this. Was the decision, 
when the time came to make the cuts in order to get by in case 
the transition was not successful with the resources being 
moved around, was it decided to divide it up based upon program 
by program, with each program bringing or responsible for 
sending in cuts? Was it based upon the number of veterans being 
served by program? What was the decisionmaking process that 
identified that, in this particular case, programs here that we 
are talking about today were part of that targeted need for 
reductions?
    Ms. Pape. That decision was made either at the VISN or 
local level. It was not at my program office level, which is 
why I do not have those details. We will go back and get that 
information for you and make sure that we send it in.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Rounds. The details of this particular decision 
were discussed with VISN 23 leadership prior to the decision 
being made. No previous discussions occurred with any outside 
entity, including my office. But, it would appear, based on the 
comments that I received back on my inquiry, that VISN 23 was 
advised of them, but was not apparently consulted with them. 
Apparently, it is above that local level where these decisions 
were being made. Would that be a fair assessment?
    Ms. Pape. I just do not know the details enough. I am so 
sorry.
    Senator Rounds. OK. Let me just finish with this. I have 
got one other item, and I am going to run out of time. With 
regard to tribal lands, have you had any discussion about 
tribal lands were we have got an estimated 2,000 Native 
Americans--veterans, warriors--who are homeless today. Do you 
have specific programs at all with regard to homeless veterans 
who are living on tribal lands in Indian Country?
    Ms. Pape. We do. Right now, HUD-VASH does serve about 2 
percent of American Indian Native Americans in the HUD-VASH 
Program, but HUD was just recently given authority for vouchers 
on tribal lands, which we did not have before, and VA is 
supporting that effort by providing staff or contracting for 
staff. That is good news for all of us.
    Jennifer, you may want to add to that.
    Ms. Ho. If I may, sir, yes----
    Senator Rounds. My time is up, but with the Chairman's 
permission.
    Chairman Isakson. Permission granted.
    Senator Rounds. Thank you.
    Ms. Ho. Thank you, sirs. We are very excited about the 
authority that was given to us in 2015 to take some of the HUD-
VASH vouchers and use them in tribal designated housing 
entities in partnership with the VA. It is going to make that 
resource available to veterans who live on reservation land, 
tribal land, in a way that it might have been harder for them 
to connect to the ones that are out in a Public Housing 
Authority.
    The other piece that I would just raise is in the 
President's 2016 budget, in the special purpose voucher 
request, we have both the request for homeless vouchers for 
veterans that are not connected directly to the VA. We also 
have a second request for tribal vouchers for homelessness 
broadly, not only for veterans, who live in Indian Country. 
Both would be helpful in terms of reaching this group.
    Senator Rounds. Thank you, and we will visit with you later 
about that. Thank you very much.
    Ms. Ho. Thank you, sir.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Rounds.
    Senator Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you, folks. Ms. Pape, I think you 
mentioned in your testimony that incarceration is a significant 
risk factor for homelessness. There are two ways to read that: 
either that most of--the significant number of the veterans who 
are homeless have been recently incarcerated; or one who is 
incarcerated and about to be released, is at significant risk 
for being homeless. Just for clarity, may I ask which it is?
    Ms. Pape. It is kind of both. It is if a veteran has a 
history of incarceration, they are more likely to become 
homeless, and as a veteran is leaving incarceration, 
particularly long prison incarcerations, there is also a large 
chance that they could become homeless as they have to 
transition back into society.
    Senator Cassidy. If that is the case and it is long prison 
incarceration, not jail incarceration where you are in, you are 
out. Now, let me ask, I have done a lot of work in prisons and 
there is a high prevalence of mental illness and people with a 
history of drug addiction who are incarcerated, probably more 
jails than prisons, but still. Can you separate out the 
influence of both? Let us face it, if you are mentally ill and 
you get out, wherever you are, you are going to have a hard 
problem with homelessness.
    Ms. Pape. That is right.
    Senator Cassidy. But, is incarceration a risk factor 
separate from mental illness and addiction?
    Ms. Pape. I am looking to the researcher.
    Dr. O'Toole. Senator, there is, I think, an independent 
effect, and partly, it relates to how well that person is able 
to reengage with their community, reengage in the workforce, 
that obviously has significant impact on their ability to move 
out of poverty and be able to sustain a household or work 
independently.
    But, I think your observation, though, about the mental 
illness and addiction dynamics that are clearly very, very 
prevalent with this population also speak to the parallel need 
to make sure that in their transition from a prison experience 
or jail experience, that they are getting treatment, and that 
is really one of the most significant drivers in trying to 
eliminate or minimize the risk for homelessness, is getting 
that treatment in place in that transition.
    Senator Cassidy. For those leaving jails who may have 
mental illness or even addiction, do you have any program such 
as the Assisted Outpatient Treatment Program that some 
communities use, where someone is adjudicated to supervised 
treatment? If so, have you seen an effect upon whether the 
person becomes homeless once more, whether they are able to 
adjust to society?
    Ms. Pape. We have a Veterans Justice Outreach Program that 
works very closely with Veterans Treatment Courts across the 
Nation. Instead of veterans getting incarcerated or even going 
to jail, these Veterans Justice Outreach workers work with the 
courts----
    Senator Cassidy. But, if you have----
    Ms. Pape [continuing]. To get veterans into treatment.
    Senator Cassidy. Into treatment.
    Ms. Pape. Into treatment.
    Senator Cassidy. It is an adjudicated--you shall go to 
treatment in lieu of going to jail. Do you have data on those 
communities that have such programs versus those that do not? 
Is it a successful program?
    Ms. Pape. It is a successful program, and I want to say it 
is around 80 percent of the veterans who participate do not 
fall back into homelessness.
    Senator Cassidy. Now, do you have a cohort group that you 
are looking at that you can compare to and say, listen, in this 
group, we do not have it, in this group, we do, and otherwise, 
variables are adjusted, and, my gosh, it is 80 percent better?
    Dr. O'Toole. We are in the midst of developing some 
specific research protocols along that specific line, and so I 
do not have any data to cite for you specifically to these 
veteran programs, but hope to have that within the next, 
probably, six to 9 months, sir.
    Senator Cassidy. Now, knowing that you will not have 
necessarily a control group, but nonetheless, you are comparing 
it to a pretty large population, but you are telling me 
comparing it to that large population, do you see beneficial 
effect?
    Ms. Pape. Absolutely.
    Senator Cassidy. On a separate issue, in another committee, 
we are working on something related to AOT. If you could, 
please, share that data with us--my assistant will give you her 
card--we would appreciate that, knowing that it does not have 
complete control, but is probably still insightful.
    Now, way back when, long before I entered politics, I had a 
friend--I will not tell you the whole sordid story, the brother 
of an old girlfriend----
    [Laughter.]
    Senator Cassidy [continuing]. Who had gone to Vietnam, 
tragically had become addicted, and he applied for veterans 
disability benefits and they said, well, we will only give you 
the disability after you go through rehab. He went through 
rehab, and it was the best thing that ever happened to him. He 
did not need his disability. He became an X-ray tech and et 
cetera, et cetera, et cetera, a really a great story.
    This was long before I entered politics. I guess my 
question is, is there still a program where someone is 
screened, and before they can go on to the next step of 
whatever there is some dangling carrot. Listen, if you go into 
this rehab or you go into this treatment program, you can then 
go to this next step, but only until you do so will you go to 
the next step. Again, I am just recalling from distantly, but 
does that program still exist?
    Dr. O'Toole. Sir, one of the things we have done within 
homeless programming is adopted a process of housing first, 
which tries to remove some of the contingencies to actually be 
able to place somebody in housing. Historically, we have worked 
within a model where as somebody achieves their sobriety, 
achieves their employment, they are able to get the housing 
benefits, kind of within an intention-to-treat model. It works 
really well for those people who can pass through those 
different steps and processes who do well. But, there is a 
significant drop-off for those people who do not do well.
    We found in the data, both within the VA and outside the 
VA, very, very powerful indicators that within a housing first 
model, more people are going into drug and alcohol treatment, 
more people are succeeding in treatment, and more people are 
staying in housing as a result of that, which is a very 
positive. It is not to say that it always works all the time, 
and it is not to say that there are not individuals who need a 
stronger enticement, where drug courts and other inducers can 
be very effective in pushing that person to a higher level of 
motivation. But, this has been kind of a trend both within the 
VA and outside the VA in really trying to create more effective 
housing programming.
    Senator Cassidy. If you could share that data or at least 
point us in the right direction, because, again, you are right, 
that has broader relevance outside the VA as well as in.
    You have been generous with the time, Mr. Chairman. I 
apologize and I yield back.
    Chairman Isakson. Thank you, Senator Cassidy.
    Senator Murray.

        HON. PATTY MURRAY, U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you very much for 
having this hearing.
    Ms. Pape, last year, the VA put out a new policy that would 
exclude veterans who do not meet certain discharge and length 
of service requirements from being eligible for homeless 
services. The practice that had been followed for decades was 
if a veteran's discharge did not say ``dishonorable,'' we could 
help them. This was a major reversal, and you will remember it, 
that would have put thousands of veterans out on the street. VA 
did the right thing in delaying that policy change, but we have 
got to fix the problem in the law. That is why I actually 
introduced the Homeless Veterans Service Protection Act, to 
make sure homeless providers can continue to help those 
veterans.
    I wanted to ask you, what is the current status of the 
General Counsel opinion that will reinstate the limits on 
eligibility for homeless services?
    Ms. Pape. It is still under review.
    Senator Murray. Any timeline?
    Ms. Pape. In the recent IG report, they said they would 
like to have some kind of response by November.
    Senator Murray. OK. Well, without my legislation, if that 
policy change is enacted, how many people will the VA no longer 
be able to serve, and which agencies actually are going to be 
able to absorb the increase in the homeless population?
    Ms. Pape. There is an estimate that there is between 15 to 
30 percent homeless veterans on the street that are not 
eligible for VHA services----
    Senator Murray. Under the definition that----
    Ms. Pape. Under the definition----
    Senator Murray. That is changed?
    Ms. Pape. Yes, there is. It will be 15 to 30 percent of 
veterans who will not be able to access the programs that they 
are accessing right now.
    Senator Murray. What will happen to those veterans if----
    Ms. Pape. We would rely on our community partners to pick 
up and help us serve those veterans.
    Senator Murray. They are just supposed to do it because 
they are nice, or what? I am very worried about that, Mr. 
Chairman, and I will talk with you more about that, but we need 
to get this legislation passed or we are going to have a huge 
increase in a population that really will not have any 
services.
    Ms. Pape. We hear from community by community what a tool 
they have in the SSVF and the GPD grants to serve this 
particular population, because you are right, Senator, there 
are not a lot of resources to pick up 15 to 30 percent of the 
veterans who may access these kind of services. We are even 
hearing from communities how necessary this----
    Senator Murray. Well, I am hearing from a lot of 
communities out in my State.
    VA's budget request for fiscal year 2016 would cut funding 
for homeless services by $51 million, almost all of that from 
the Grant and Per Diem Program. I still hear frequently from 
providers in my State of Washington that there are not enough 
HUD-VASH vouchers to meet the demand that they have. VA has 
made a lot of good progress on ending veteran homelessness, 
according to the 2014 Point in Time Count. There are still 
50,000 veterans homeless on a given night. So, there is a 
tremendous amount of work to be done before each and every 
homeless veteran is actually housed.
    With so many of our veterans still in need, does that cut 
make any sense to you?
    Ms. Pape. With the numbers decreasing, it is important that 
we right-size all of our programs and ensure that the right 
care is getting to the right people for the right duration of 
time. As we move forward and look at the progress we have made, 
I just think it is important to strategically decide where the 
resources go and where the biggest needs are.
    Senator Murray. Well, we know that it often takes several 
years for a veteran to become homeless once they leave the 
service, so I am really concerned that we are not looking at 
the projections coming to us and we are going to see an 
increasing number of homeless veterans in the coming years. 
Actually, part of that is going to be a growing number of 
women, because we are seeing that increase anyway.
    As you well know, homeless female veterans and homeless 
veterans with children, such as--they need specific things, 
like private rooms. You cannot just put them in a dorm. There 
is not a lot of capacity out there for homeless women veterans 
today. So, tell me, what are your projections for the growth of 
homeless veterans and homeless women veterans with children.
    Dr. O'Toole. Senator, we actually project four populations 
over the next 5 years that raise significant concerns for us 
and the need to have a capacity to serve them. Homeless women, 
absolutely, and we are seeing an increase, in part reflecting 
the larger numbers of active duty women in service.
    Senator Murray. Do we have the capacity to serve them?
    Dr. O'Toole. We will need to grow that capacity, ma'am.
    Senator Murray. But, with budget cuts, how do we grow that 
capacity?
    Dr. O'Toole. OEF/OIF veterans, I think, is another group 
that, again, we see increases to. Our focus for all of these 
is, again, on how do we make sure that we are preventing 
homeless, rapidly re-housing those individuals who do become 
homeless. HUD-VASH serves as a very good vehicle, particularly 
for women and women with their children in that capacity there, 
and that is an area that we need to make sure continues to grow 
and is sustained.
    Ms. Pape. We could not agree with you more. In order to 
sustain the gains we have made, we--and I said this in my 
testimony--we need the continued financial resources to ensure 
that we continue to drive those numbers down.
    Senator Murray. Thank you, and I am out of time. Thank you, 
Mr. Chairman.
    Chairman Isakson. Senator Hirono.

         HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    First, I would like to recognize the progress that has been 
made, and I thank all of you for testifying today.
    According to the Point in Time Count, from 2010 to 2014, we 
have seen a 33 percent decrease in the number of veterans, 
veterans experiencing homelessness nationally, and, of course, 
our Secretary has said that he intends to eliminate 
homelessness in veterans by the end of this year, and the clock 
is ticking. But, I really commend you all for the focus.
    While this is encouraging, there are some areas that have 
experienced more challenges in addressing this issue. My 
homestate in Hawaii has faced some obstacles. From 2010 to 
2014, the number of homeless veterans has steadily increased, 
from 411 to 593 homeless veterans. I am really concerned about 
these trends. In fact, Hawaii has per capita the largest number 
of homelessness in the country. The Governor has recently 
convened a Homelessness Task Force that includes 
representatives from the State, the county, the Federal 
Government, the private sector, because this is a growing 
concern for the State of Hawaii.
    My question to both Ms. Pape and Ms. Ho is: are you 
familiar with Hawaii's situation and its increase in homeless 
veterans, and could you describe the most prevalent 
difficulties in addressing the issue, what coordination efforts 
are happening between VA and HUD, State, county, local 
officials, and if you are not familiar with Hawaii's situation, 
could you provide some best practices that could be applicable 
in Hawaii?
    Ms. Ho. Senator Hirono, mahalo for that question. I had an 
opportunity to be in Hawaii at the end of the year----
    Senator Hirono. Anyone who says ``mahalo,'' I know has 
familiarity with Hawaii. [Laughter.]
    Ms. Ho. My father was born and raised there. When I was in 
Hawaii in January, I had a chance to meet Governor Ige and some 
of his new team. He also has been to HUD twice. I had a chance 
to meet with Mayor Caldwell in Honolulu. I am very excited 
about the new task force, very excited about the mayor and the 
Governor working together. This is an issue where that type of 
local leadership, where you have cities and Governors--I mean, 
the control of the Medicaid resource, but also the VA. I think 
that would be a perfect partnership if the Hawaii Housing 
Authority were also arm-in-arm in all of this.
    It seems to me that there are two challenges that are 
unique there. One is that, as Dr. O'Toole was saying, a lot of 
the progress that we have made has been around housing first, 
yet, there are some policymakers and providers there locally 
who have been slow to embrace housing first.
    The second is just the challenge of adequate supply of 
affordable housing. Where we have invested considerably in HUD-
VASH, thanks to the support of this Committee, there are 563 
HUD-VASH vouchers in Hawaii, but they are underutilized, in 
large part because there are a lot of veterans who have a HUD-
VASH voucher in hand, but they cannot find a landlord to rent. 
Secretary McDonald from the VA was recently in Hawaii and 
actually did an event----
    Senator Hirono. I met with him.
    Ms. Ho [continuing]. An event that you were at----
    Senator Hirono. Yes.
    Ms. Ho [continuing]. To talk about landlord engagement. 
That is an area where we have made the investment in the HUD-
VASH vouchers, but we cannot find an affordable place for the 
veteran to live.
    There is a lot of Hawaii in HUD right now and we are very 
interested in supporting you, the rest of the delegation, the 
Governor, and the mayor in making sure that everybody is at the 
table working in the same direction on the strategies that have 
proven to be impactful in other parts of the country.
    Ms. Pape. One of the things that we think is helpful is to 
engage veteran landlords. They are more likely to rent to a 
fellow veteran, and that is some of the focus of Secretary 
McDonald as he does these landlord engagements.
    Senator Hirono. Have you developed any kind of an outreach 
program that we can use to engage the veteran landlords in 
Hawaii, because this truly is a growing exigency in Hawaii.
    Ms. Ho. Senator, thank you for that question. Working with 
the First Lady's office and the Joining Forces effort, we 
actually have some one-pager, two-pager landlord engagement 
tools. We are also using our platforms at HUD whenever we are 
talking to property managers to really encourage this. We could 
use everything that you and your colleagues can do to help in 
that local engagement. I think that when landlords feel that 
same call to duty, that this is a problem that is unacceptable, 
it is likely that they will help.
    Senator Hirono. Ms. Ho, you have obviously engaged with the 
leaders in Hawaii, and I really want to thank you for that. Our 
continuing collaboration will be really critical to our 
addressing the homelessness in Hawaii in a way that will make a 
difference.
    Ms. Ho. I look forward to working with you on this, ma'am.
    Senator Hirono. Thank you. Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Hirono, and thanks to 
each of our panelists. As you can tell from the interest of the 
Committee--I think every Member of the Committee but one was 
present today and asked questions, which is a testimony to how 
much we believe in veterans' homelessness being solved. We want 
to reach the goal that Secretary McDonald has set, to end 
veterans' homelessness. We appreciate your work very much.
    I welcome the second panel to come forward.
    Ms. Ho. Thank you very much.
    [Pause.]
 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
                  U.S. Department of Veterans Affairs
    Question 1.  Should VA not meet its goal of ending veteran 
homelessness by the end of 2015, how will the goal be adjusted to 
ensure the current momentum behind efforts to reduce and prevent 
homelessness continues?
    Response. The Department of Veterans Affairs (VA) and our Federal 
partners remain focused on driving toward the achievement of the goal, 
but know that success ultimately rests upon the ability of communities 
to achieve the goal at the local level. As a result of the vision 
inspired by this goal, and the focused resources and drive applied 
toward achieving it, tremendous progress is being made community by 
community, with localities across the country on the path to achieving 
this important national priority.
    Since the launch of Opening Doors: Federal Strategic Plan to 
Prevent and End Homelessness, we have significantly reduced the number 
of Veterans and their families experiencing homelessness by connecting 
them to permanent housing and supportive services. At the same time, 
communities are building enduring systems to ensure that homelessness 
among Veterans is prevented whenever possible, and if it cannot be 
prevented, it is a rare, brief, and one-time experience.
    There is still a lot of work left to do. Ending Veteran 
homelessness is not only a Federal goal, it is a national goal. 
Federal, state and local Governments, businesses, nonprofits, and 
citizens need to push hard in order to meet the goal. We have seen 
increased momentum in local communities. Many communities are reporting 
dramatic progress, achieving important milestones, and plan to meet the 
goal of ending Veteran homelessness before the end of this year. We now 
know that the goal is achievable with the right resources and level of 
commitment, and if communities implement the most effective strategies. 
Federal partners will continue to focus on interagency strategies to 
sustain this momentum even if the goal is not fully achieved by the end 
of the year.

    Question 2.  Will VA establish a new timeline for ending veteran 
homelessness? If so, what is the new timeline, and how is it 
determined?
    Response. We know that ending Veteran homelessness is not a one-
time achievement. There is no question it is an ambitious goal--we are 
clear-eyed about that--but we believe that with continued Federal, 
state, local partnership, we can achieve it in community after 
community across the country. Achieving the goal will depend on local 
action by communities leveraging all available resources--including 
Federal, state, local, and philanthropic--in support of the goal as 
well. It will depend on local leadership, particularly through the 
Mayor's Challenge. To date, more than 700 local elected leaders have 
signed on to take action, including working with local VA leadership to 
identify gaps in resources and drive the efforts to fill those gaps. To 
ensure we have the most accurate assessment whether we reached the 
goal, we need every community to conduct unsheltered counts as part of 
their 2016 Point-in-Time (PIT) counts.
    We remain committed to fully achieving the goal. However, if at a 
later time, it is determined by USICH, VA, and HUD that the goal cannot 
be fully achieved, we would consider whether to extend the timeline 
through a collaborative interagency process, grounded in analysis of 
data.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
                 to U.S. Department of Veterans Affairs
    Question 1.  Many communities are working collaboratively to 
address housing instability among veterans and are finding that their 
housing and service delivery models need restructuring in order to 
better address the needs of veterans in their area, especially as they 
get closer to zero. What additional legislative or regulatory changes 
would be required in order to provide communities the flexibility to 
create an outcome-oriented system that meets their needs and 
incentivizes housing stability through permanent housing placements and 
income supports to sustain those placements?
    Response. The goal of ending Veteran homelessness is not just about 
Veterans eligible for VA services, but is inclusive of all who served. 
In its Fiscal Year (FY) 2016 Budget submission, VA published numerous 
proposals to advance its mission to address the needs of homeless 
Veterans. These included proposals to extend numerous expiring 
authorities, as well as ideas for new strategies to end and prevent 
Veteran homelessness. Additionally, the proposals included broadening 
and simplifying eligibility for the Supportive Services for Veteran 
Families program; improving the VA Grant and Per Diem (GPD) program to 
encompass a transition to permanent housing; and providing VA 
assistance for temporary hotel stays in emergency situations.
    The GPD program is a major component of VA's continuum of homeless 
services. The proposed legislative change would fundamentally transform 
the GPD Program by authorizing VA to specifically provide supportive 
service grant awards to eligible entities and to convert current 
transitional housing stock to permanent housing. VA must poise and 
transform the GPD program in order to maintain the progress of the 
Ending Veteran Homelessness Initiative and effectively utilize close to 
20 years of GPD program capital investment. VA is available to discuss 
these proposals with the Committee.

    Question 2.  As VA continues to decrease homelessness among 
veterans, we will be left with a group of veterans who are the hardest 
to reach. This group has been on the streets for the longest, has more 
complex issues, and frankly may be the hardest to engage. Given the 
challenges in engaging this population, how is VA working to find 
creative ways to get these veterans the services that they need?
    Response. VA agrees with, and appreciates the challenges to the 
efforts to end homelessness of all Veterans, some of which are those 
Veterans who are chronically homeless, and most difficult to reach and 
to engage in care. VA's efforts to date have reflected significant 
successes with this subpopulation as reflected in the PIT count-
measured reduction of 43 percent among unsheltered homeless Veterans 
since 2010, which is actually higher than the overall reductions noted 
among all homeless Veterans. This reduction is largely due to the 
implementation of coordinated entry in communities across the country 
which has ensured that Veterans that have long histories of 
homelessness--including those that are ineligible for VA health 
services--are prioritized for assistance. First, in the Department of 
Housing and Urban Development- VA Supportive Housing (HUD-VASH), the 
adoption of Housing First and targeted priority has resulted in 65-70 
percent of vouchers going to chronically homeless Veterans. Similarly, 
the ``no wrong door'' strategy for identifying and engaging homeless 
Veterans has expanded our ``in reach'' within VA to those Veterans 
seeking care through our Clinical Screener and our outreach at Stand 
Downs, Health Care for Homeless Veterans (HCHV) Outreach Teams, the 
development of Community Resource and Referral Centers (CRRCs), and 
with our community partners. This has enhanced VA's capacity and 
ability to reach out to and engage these most vulnerable Veterans in 
our care and programming. Paralleling this, VA has developed several 
initiatives that tailor and enhance care delivery to make sure it is 
getting to those Veterans who might not otherwise receive the care and 
services needed through traditional channels. Two examples of this are 
the Homeless Patient Aligned Care Teams (H-PACT) that provide outreach 
and clinical care to homeless Veterans both within VA facilities and in 
the community, and Assertive Care Teams (ACT) that reach out to those 
Veterans with serious mental illnesses who are resistant to care. VA is 
also developing additional housing options for these Veterans that 
provide lower threshold, noncontingent housing options, including Safe 
Havens and low demand GPD beds. Together, these reflect a comprehensive 
strategy that VA hopes and expects will be effective in reaching and 
serving this hard-to-reach population. It is something that VA closely 
monitors and is continually looking at how it can expand upon and 
improve these efforts.
    In addition, although not under VA's purview, the Department of 
Health and Human Services provides outreach and engages Veterans, 
including individuals who are not eligible for VA services. Examples 
include 1) serving Veterans in HRSA Health Centers and Health Care for 
the Homeless programs; 2) providing outreach, engagement, and referral 
to Veterans through the Projects for Assistance in Transition from 
Homelessness (PATH) and the Cooperative Agreements to Benefit Homeless 
Individuals (CABHI) programs; and 3) increasing access to Medicaid, 
including encouraging states to cover supportive services for Veterans 
experiencing homelessness.

    Question 3.  Housing a homeless veteran is important but helping 
them earn an income is critical to help maintain housing. Employment 
needs to play a more prominent role within VA's existing housing 
programs, which includes improving grantee coordination with employment 
programs like DOL's Homeless Veterans Reintegration Program, and 
others. What guidelines does VA currently enforce to evaluate how well 
any of its grantees is connecting homeless veterans with employment and 
other sources of income to maintain housing placements?
    Response. VA understands the important role employment plays in 
Veterans' efforts to maintain permanent housing. There is approximately 
one Community Employment Coordinator (CEC) at each VA medical center 
and these staff are tasked with:

    <bullet> Working with VA employment services (Compensated Work 
Therapy; Vocational Rehabilitation & Employment) and homeless program 
staff to identify what employment resources are available and where 
there are gaps in order to serve the continuum of homeless and at-risk 
Veterans, including chronically homeless Veterans.
    <bullet> Working collaboratively with community partners (outside 
of VA) to bring in training and support services not available within 
the VA structure to the Veterans.
    <bullet> Engaging employers to develop new job opportunities for 
Veterans who have experienced homelessness.
    <bullet> Ensuring ongoing support services are available to 
Veterans after they return to work. The CECs are also available to 
provide support for the employer in case there are challenges or 
adjustment difficulties.

    CECs are expected to help align and coordinate existing services 
within the community including, but not limited to, Department of Labor 
programs, including the Jobs for Veterans State Grants program, which 
funds Veterans employment counseling and outreach positions at American 
Job Centers.
    VA utilizes performance metrics to track the percentage of Veterans 
discharged with competitive employment for each of its residential 
treatment programs. Currently, 45 percent of Veterans who exit VA 
residential treatment programs report employment.
    The SSVF program, through its grantees, provides a mix of direct 
services and referrals to support efforts to build family income. Where 
needed, SSVF grantees can provide up to $1,500 per household for 
``expenses associated with gaining or keeping employment, such as 
obtaining uniforms, tools, certifications, and licenses'' per 38 CFR 
62.34. These efforts have had demonstrable effect. In FY 2014, Veterans 
with no income (5,266) and those earning $500 or less monthly (3,631) 
at entry still achieved a relatively high rate of success in obtaining 
or remaining in permanent housing at exit: 72 percent and 77 percent 
for each group, respectively. The median monthly income of Veterans 
participating in SSVF increased from entry to exit by 15 percent ($823-
$945). SSVF grantees were highly successful in raising the income of 
Veterans who had no income when they entered the program; 1,728 of 
these 6,945 Veterans (25 percent) were able to exit the program with an 
income source.

    Question 4.  In March 2014, the National Center on Homelessness 
Among Veterans published a white paper detailing a return on investment 
analysis of homeless program funding using various modeling 
assumptions. The study mentioned that in a previous review of health 
care costs for homeless veterans in Baltimore alone, 44 veterans 
utilized over $250,000 in care each and two had costs of care that were 
above $1.4 million each. Dr. O'Toole mentioned that VA was utilizing 
its HOMES registry to identify superutilizers monthly and had realized 
$6.3 Million in savings as a result. Please provide additional 
information around this initiative, to include:

    <bullet> the duration it has been in operation;
    <bullet> the locations in which it operates;
    <bullet> the number of veterans that have been included on 
superutilizer lists;
    <bullet> the number of those veterans who have been engaged; and
    <bullet> the type of additional engagement offered to these 
veterans.

    Response. The Veterans Health Administration (VHA) Homeless Program 
Office ``Hot Spotter'' project was launched in fall 2014. The goal of 
the project is to 1) predict which homeless Veterans will utilize 
extensive amounts of acute health care services; 2) create a field-
based dashboard that allows teams to identify and target their efforts 
toward those individuals; and 3) develop training and intervention 
tools that VHA homeless teams can use to effect outcomes. The program 
has been implemented nationally and operates out of the 57 H-PACTs 
located around the country.
    The predictive analytics algorithm for identifying `super 
utilizers' uses the Homeless Registry as its platform and has been able 
to identify the 10 percent of Veterans who utilize 65-70 percent of all 
acute care service use received by the population.
    Once a Veteran is identified, the team develops a care plan with 
the Veteran which addresses root causes that may be driving their high 
usage. This includes expediting housing placement/moving into a safer 
environment; facilitating access and engagement in needed clinical 
services (substance abuse treatment, mental health care, chronic 
disease management); educating the Veteran to more appropriately access 
care/navigate the system without going to an emergency room for non-
urgent needs; and/or enhancing their follow-up/case management. Several 
trainings and clinical aids have been developed for clinical teams to 
use for this.
    Over the past 12 months, 6,503 Veterans have been identified 
through this process for intervention (approximately 1,500-1,700 per 
quarter). Among those Veterans, 70 percent have stabilized their health 
care use in the subsequent 3 months and were no longer `super 
utilizers'.
    Over the past FY, an estimated $25.3 million in hospitalization-
related cost savings were realized, averaging $6.3 million per quarter. 
Cost savings estimates were generated comparing the admission and 
length of stay rates among homeless Veterans not enrolled in care to 
actual rates among the H-PACT `Hot Spotter' cohort with 2013 Medicare 
cost/day rates applied to the net difference to reflect systems 
savings.

    Question 5.  Access to complete client data has the power to 
accelerate and target efforts around ending veteran homelessness. The 
CCEH written testimony for this hearing mentions that data management 
systems could be improved upon if VA agencies could participate in the 
continuum of care's Homeless Management Information Systems (HMIS) data 
tracking systems. Housing providers in other continuums of care have 
noted that tracking program eligibility can be a challenge when dealing 
with transitory clients who move from continuum to continuum.

    <bullet> Please describe any barriers to VA use of local HMIS 
systems and to data exchange between VA's HOMES system and local HMIS 
systems.
    <bullet> Please provide copies of any guidance issued to VAMCs and 
VA grantees regarding the use of HMIS and HOMES.

    Response. Through close collaboration with HUD, the VHA Homeless 
Program Office continues to pursue and support the integration of VA 
and community data. To assist and support VA's collaborative efforts 
with our community partners, the Homeless Program Office, in 
consultation with VHA's Office of Privacy and the Office of Healthcare 
Security Requirements, issued national guidance to VA medical centers 
(VAMCs) seeking read-only and direct entry access to the Homeless 
Management Information Systems. This guidance was provided by VHA to 
give VAMCs clear direction for addressing local access requests.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Additionally, VA has developed a report in the Homeless Operations 
Management and Evaluation System (HOMES) containing elements consistent 
with HMIS data standards to allow for expedited transfer of data 
between VA and local Continuum of Care HMIS administrators. Currently, 
VAMCs are sharing this data via paper transfer for hand entry into 
HMIS. This report will streamline that process and allow the data to be 
exported from HOMES, transferred electronically and directly uploaded 
to HMIS. VA is currently working with the Office of Healthcare Security 
Requirements to identify a mechanism for secure, electronic transfer. 
Anticipated deadline for obtaining this guidance is September 20, 2015.
    In collaboration with a national a team of Information Technology 
Specialists, Information Security Officers and Privacy Officers, VA has 
shifted focus from integrating VA and community systems to integrating 
data. One significant barrier to integrating our systems is that HMIS 
has many different platforms. These various platforms make it 
challenging to apply one standard approach for systems integration. VA 
is in the early stages of developing a national, bi-directional data 
sharing platform incorporating Veteran-level data from both HOMES and 
the various HMIS systems. The vision for this shared platform is to 
import data from both HOMES and HMIS into a single repository, allowing 
direct access to real-time Veteran-level data for both VA and community 
partners. This platform is in the early stages of development.
    VA is also building the Status Query and Response Exchange System 
(SQUARES). SQUARES is a Web-based look up system which will allow HMIS 
to check a client's Veteran status in real-time. This system is 
currently under development and is expected to be released in 
September 2015. The initial version of SQUARES will allow HMIS users to 
input an individual and get back one of three responses to the question 
whether the individual is a Veteran: yes, no, or unknown. SQUARES will 
continue to be improved over the course of FY 2016, resulting in fewer 
``unknown'' responses, and will also allow HMIS users to submit batches 
of names, rather than only individuals. Online training will be made 
available with the release of SQUARES.

    Question 6.  What actions has VA taken to partner with the 
Substance Abuse and Mental Health Services Administration's SSI/SSDI 
Outreach, Access, and Recovery (SOAR) Technical Assistance Center (TAC) 
to make SOAR training more accessible to its casework staff and to its 
grantees, or to publicize the availability of the SOAR TAC's free 
online training sessions?
    Response. VA has established a collaborative partnership with the 
Social Security Administration (SSA); the Health and Human Services-
Substance Abuse and Mental Health Services Administration (HHS-SAMHSA); 
the SAMHSA Supplemental Security Income (SSI)/Social Security 
Disability Insurance (SSDI) Outreach, Access, and Recovery Technical 
Assistance (SOAR TA) Center; and the U.S. Interagency Council on 
Homelessness (USICH) to increase access to mainstream benefits for 
homeless Veterans and their families. In July 2015, the four Federal 
agencies released a tool for communities, organizations, and 
practitioners in the field on Key Strategies for Connecting Persons 
Experiencing Homelessness to SSI and SSDI Benefits.
    VA has taken a proactive approach to removing system barriers 
related to VA staff supporting SOAR. VHA Acting Deputy Under Secretary 
for Health for Operations Management sent a memorandum to all VHA 
leadership and Network Homeless Coordinators encouraging homeless 
programs' personnel be trained in and utilize the SOAR program. The 
memorandum clarifies the role VHA personnel could play in gathering 
medical records and appropriate documentation for the completion of 
SSI/SSDI applications.
    In February 2015, SSVF included language regarding SOAR in its 
Notice of Funding Availability. Accessing VA and mainstream benefits 
has always been core SSVF services, but this encourages grantees to 
make linkages to existing SOAR programs within their communities and/or 
train staff through the online curriculum so that they can directly 
practice SOAR. Currently, SSVF grantees in 43 states and the District 
of Columbia are involved in SOAR, and 146 grantees have been trained in 
SOAR to help Veterans access SSA benefits.
    Additionally, SSVF and HUD-VASH serve on the national SOAR TA 
Center Expert Panel which meets quarterly to review national SOAR 
strategy in the United States for all populations.

    Question 7.  Domestic violence can negatively impact a veteran's 
housing status. In addition to any statutory changes, what changes 
would be required for VA's homeless programs to make veterans fleeing 
domestic violence eligible for housing assistance? How do VHA homeless 
programs collaborate with VHA's Domestic and Intimate Partner Violence 
Program?
    Response. VHA's Homeless Programs actively collaborate with VHA's 
Domestic and Interpersonal Violence Program. A Homeless Programs staff 
member served on the VHA Domestic Violence Task Force that was 
chartered in 2012, and currently serves as a member of the Domestic 
Violence Steering Committee that is charged with overseeing the Plan 
for Implementation of the Domestic Violence/Intimate Partner Violence 
Assistance Program. In addition to serving on the overall Steering 
Committee, the VHA Homeless Programs representative chairs one of the 
work groups and participates as an active member of a second work 
group.
    Recently modified regulations allow SSVF grantees to provide 
greater support to those fleeing domestic violence. These changes allow 
grantees to provide financial assistance (such as moving costs and 
rental assistance) even when the Veteran's household has otherwise 
reached the limits of such assistance so that those fleeing domestic 
violence are not forced to choose between homelessness and abuse. A 
family may qualify for assistance even if the Veteran is the aggressor 
or perpetrator of the domestic violence.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Sherrod Brown to 
                  U.S. Department of Veterans Affairs
Questions for Ms. Pape
    Question 1.  Homeless Challenges: As the VA continues to make 
progress on helping homeless veterans generally; problems in certain 
specific subpopulations remain. The rise in numbers of female 
servicemembers has corresponded to an increase in the number of 
homeless female veterans. This requires that the VA adapt existing 
programs traditionally used to serve a largely single, male homeless 
veteran population. What is the VA doing to meet the needs specifically 
of homeless female veterans? What policies are in place to help both 
male and female homeless veterans who seek shelter and have children 
with them and thus require special accommodations including unique 
access, security measures, and assistance regarding concerns about the 
effects of military sexual trauma?
    Response. In FY 2014, VA served 36,763 female homeless Veterans, 
approximately 10 percent of all homeless Veterans served. The needs of 
women Veterans are compounded by the fact that many of them are caring 
for dependent children, as well as disproportionately face domestic 
violence and military sexual trauma issues. Several of VA's programs 
and services are specifically well suited to address these needs, 
including SSVF which, in FY 2014, provided assistance to 11,900 women 
and over 27,000 children.
    More than 200 GPD programs serve homeless female Veterans in some 
capacity including 40 that provide women-specific transitional housing 
and 38 that can provide housing for women and their dependent children. 
The HCHV Program provides funding to support 68 contracted residential 
services programs. Of these, 38 programs are dedicated to women, women 
with children, or families. These sites work in collaboration with 
community partners to provide services to the Veteran's family members. 
Currently 12 percent of all HUD-VASH vouchers are allocated to female 
Veterans, 49 percent of whom have dependent children.
    VA's programs work very closely with clinical staff at the medical 
facilities to ensure that female homeless Veterans are getting the care 
they need. Female Veterans in the VA health care system are screened 
for military sexual trauma, depression, anxiety, Post Traumatic Stress 
Disorder and suicide risk. Case managers work closely with the women's 
health program coordinators to ensure these Veterans are getting 
primary and preventative care and are able to navigate the care system 
smoothly and seamlessly.
    VA acknowledges that the number of women Veterans at risk, or who 
become homeless, is likely to grow over the next several years as more 
women leave military service. VA is currently engaged in a strategic 
planning process to ensure that it has the capacity and resources in 
place to address this need over the next 5 years.

    Question 2.  Information Sharing: Information sharing between the 
VA and its partners in the Federal Government like HUD and our 
communities is key. Different criteria and different systems can lead 
to inaccuracies. What guidance is provided to local VA facilities and 
grantees on participation in HUD's Homeless Management Information 
Systems? If there are any barriers to participation, what are they and 
how can the Committee work with you to overcome them?
    Response. In consultation with VHA's Office of Privacy and the 
Office of Healthcare Security Requirements, the VHA Homeless Program 
Office issued national guidance on August 7, 2015, for VAMCs seeking 
read-only and direct entry access to HMIS. This guidance is intended to 
assist and support VA's collaborative efforts with our community 
partners, specifically for those participating in coordinated 
assessment and entry systems. VA and its partners are coordinating a 
synchronized awareness campaign to ensure that this guidance is widely 
distributed.
    The guidance states that VA staff may obtain read-only and direct 
entry access to HMIS as long as the data accessed is being used to 
provide needed services and coordinated care to Veterans. VA staff may 
enter Veteran data directly into HMIS if the Veteran consents and the 
appropriate releases are signed. Additionally, this guidance is 
intended to clarify that there are no VA-related security issues 
preventing VA staff from accessing HMIS from their workstations.

    Question 3.  Working with Cities: Because of the VA's targeted 
Federal investments and aggressive actions by the VA, HUD, non-profit 
partners, and our local communities, it appears that the numbers of our 
homeless veterans is declining. Many Ohio cities specifically are 
participating in the Mayors Challenge. Is there a feedback mechanism 
for participating mayors to register unmet needs for their communities 
on this issue? Is there an ongoing engagement to leverage resources, or 
is each community left to their own plan?
    Response. Federal agencies, along with the White House, have been 
convening regular conference calls open to all communities who have 
joined the Mayors Challenge to share information on key strategies and 
best practices to end Veteran homelessness. These calls have covered 
such topics as mayors' role in fostering cross-sector collaboration, 
strategies for identifying Veterans experiencing homelessness, and 
engaging private landlords. Mayors can also ask questions and request 
information and assistance by emailing <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="701d11091f02031318111c1c151e1715301805145e171f065e">[email&#160;protected]</a> 
Regional staff from VA, HUD, and USICH are also available to support 
the efforts of Mayors and their partners.
    The Web site: http://portal.hud.gov/hudportal/HUD?src=/
program_offices/commplanning/veteran_information/mayors_challenge 
provides resources to help communities work strategically to achieve 
the goal. Pairing with another city, and using the Mayors Challenge as 
an opportunity to learn from one another and spur each other on toward 
achieving the goals, has been very successful in the case of Phoenix 
and Salt Lake City. HUD, USICH, and VA staff will identify and connect 
Mayors with relevant peers for those cities that do not wish to be 
paired with another city, but do wish to be connected to other mayors 
and communities so that they can share ideas and learn.

    Question 4.  The 25 Cities initiative includes most of the major 
cities on both coasts, as well as throughout the southern half of the 
U.S. Given how the homeless veterans population is highly mobile and 
Ohio's role as transportation hub for the country, is there any 
possibility of adding one of Ohio's major cities to the program in the 
near future?
    Response. The 25 Cities Initiative was established to help 
communities with high concentrations of homeless Veterans to intensify 
and integrate their local efforts to end Veteran homelessness. This was 
a joint effort by VA, HUD, the USICH and local community partners (city 
government, housing authorities, community providers) to identify by 
name all of the remaining homeless Veterans in these communities and to 
work together to find permanent housing solutions for these Veterans 
and chronically homeless individuals.
    Unfortunately, the 25 Cities Initiative identified the 
participating cities early in its development so it is not possible to 
add additional cities at this time. However, every community in the 
country was given the opportunity to apply to participate in the Zero: 
2016 initiative, a national effort which focuses on similar strategies 
as the 25 Cities initiative and which includes technical assistance 
funding through HUD to support communities efforts to end veteran 
homelessness and chronic homelessness. The Ohio Balance of State (BOS) 
Continuum of Care is participating in Zero: 2016. Organizations in Ohio 
cities can request other technical assistance from VA, HUD, or other 
Federal partners.
Question for Dr. O'Toole
    Question 1.  At the hearing, you mentioned that there were four 
specific subgroups in the homeless veterans population that the VA 
predicts will increase over time. Two of them are women veterans and 
Operation Iraqi Freedom/ Operation Enduring Freedom veterans. What are 
the other two groups?
    Response. The National Center for Homelessness Among Veterans is 
closely looking at the unique needs of the sub-populations of Veterans 
utilizing homeless services. The four homeless/at risk for homelessness 
subpopulations that are likely to increase over the next 5 years are:

    (1) Female homeless Veterans
    (2) Operations Enduring Freedom, Iraqi Freedom and New Dawn 
Veterans
    (3) Aging/chronically ill Veterans
    (4) Veterans at-risk for returning to homelessness

    VA is currently engaged in a strategic planning process to ensure 
that it has the capacity and resources in place to address these needs.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
  to Jennifer Ho, Senior Advisor to the Secretary, U.S. Department of 
                     Housing and Urban Development
    Question 1. Many communities are working collaboratively to address 
housing instability among veterans and are finding that their housing 
and service delivery models need restructuring in order to better 
address the needs of veterans in their area, especially as they get 
closer to zero. What additional legislative or regulatory changes would 
be required in order to provide communities the flexibility to create 
an outcome-oriented system that meets their needs and incentivizes 
housing stability through permanent housing placements and income 
supports to sustain those placements?
    Response. From HUD's perspective, the HUD-VASH program provides a 
great deal of flexibility in terms of the vouchers in comparison to the 
regular Housing Choice Voucher Program.

    Question 2. HUD and the mainstream housing systems have been 
transforming transitional housing models in order to improve housing 
outcomes for homeless individuals. HUD's written testimony highlights 
the need to provide guidance to communities about the role of 
transitional housing and the need to examine barriers to entry. Are 
there any lessons learned from the transformation of mainstream housing 
systems that can be applied within the continuum of veteran housing 
providers and services?
    Response. HUD has taken many steps in the last few years to push 
communities to closely look at their homelessness assistance portfolios 
and make changes, as needed. Transitional housing funded under the CoC 
Program has dramatically been scaled down in response, in favor of new 
permanent housing options (rapid re-housing and permanent supportive 
housing).

    Question 3. How is HUD determining which communities will receive 
additional technical assistance through its <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ca9cafbeb98a82a5a7af">[email&#160;protected]</a> initiative?
    Response. In July 2015, HUD sent a national listserv message 
announcing <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87d1e2f3f4c7cfe8eae2">[email&#160;protected]</a> TA. Any CoC in the Nation could sign up for the TA 
by submitting a request through the HUD Exchange at 
www.hudexchange.info. CoCs were also targeted for this TA opportunity 
based on rates of Veteran homelessness in the 2015 Point-In-Time count. 
Following either the request or the acceptance of the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c6a59484f7c74535159">[email&#160;protected]</a> TA, HUD 
determined whether or not the CoC would receive remote or on-site TA 
based upon the 2015 data, with those having higher rates of Veteran 
homelessness receiving the more intensive on-site TA.

    Question 4. Finding appropriate housing placements for low income 
individuals has been a challenge in high cost, low vacancy markets, as 
well as housing formerly homeless veterans in these competitive markets 
can be even more challenging. What can VA and community partners do to 
be more successful at finding veterans permanent housing in these 
areas?
    Response. HUD recognizes that a great challenge faced by 
communities as they work to end Veteran homelessness is lack of 
affordable housing. In high cost areas where the market is particularly 
tight, even those Veterans with a voucher have a hard time locating an 
affordable unit. HUD has taken steps throughout its programs to create 
flexibilities wherever possible such as granting waivers to PHAs to 
allow for increased subsidies in high cost areas and publishing a 
proposed rule on Small Area FMRs that would provide voucher payment 
standards that can be higher in high-cost areas and lower in areas with 
lower rental costs. HUD's Continuum of Care Program has also published 
new guidance allowing CoCs to use rental assistance funds in geographic 
areas outside of their respective CoC. Last, the HOME program and the 
National Housing Trust Fund both provide opportunities for communities 
to develop new affordable housing and we encourage participating 
jurisdictions to use funding to develop affordable housing specifically 
for persons experiencing homelessness.
    With respect to recruitment of landlords, HUD, the VA, USICH and 
private non-profit partners have all participated in trainings and 
technical assistance on how to recruit landlords. Key techniques 
include creation of a 24/7 hotline where landlords can get assistance 
if a tenant runs into trouble (the line may or may not get used a lot, 
but the reassurance is key), and creation of ``mitigation funds'' to 
reassure landlords that they will be paid if there are any damages or 
unpaid rent. An example of such a fund is the Portland, Gresham, 
Multnomah County's Veteran risk mitigation pool which, in addition to 
providing an incentive to landlords, also helps to offset other direct 
costs that housing providers often face in tight rental housing 
markets.

    Question 5. Access to complete client data has the power to 
accelerate and target efforts around ending veteran homelessness. The 
CCEH written testimony for this hearing mentions that data management 
systems could be improved upon if VA agencies could participate in the 
continuum of care's Homeless Management Information Systems (HMIS) data 
tracking systems. Housing providers in other continuums of care have 
noted that tracking program eligibility can be a challenge when dealing 
with transitory clients who move from continuum to continuum. How have 
HUD grantees addressed eligibility determinations for homeless 
individuals who transit between continuums of care?
    Response. This continues to be a challenge for CoCs that have a 
high volume of homeless individuals who transit between CoCs, 
particularly where there is not statewide HMIS implementation, which is 
generally the case. That said, this is an issue that HUD and CoCs are 
starting to think more about this as they implement coordinated entry 
and prioritization, develop by-name-lists, and work to increase overall 
data quality. CoCs can explore existing data sharing policies and 
develop processes to work across communities to inquire about specific 
individuals seeking assistance.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Sherrod Brown to 
   Jennifer Ho, Senior Advisor to the Secretary, U.S. Department of 
                     Housing and Urban Development
    Question 1. Availability of Affordable Housing: In your testimony, 
you mentioned that our Nation's affordable housing shortage is 
presenting challenges to addressing homelessness among veterans. Could 
you elaborate on the effect that a lack of affordable housing in our 
communities is having on efforts to prevent and end homelessness among 
veterans and other Americans?
    Response. The lack of affordable housing has a two-pronged impact 
on efforts to prevent and end homelessness among veterans and other 
Americans. First, the lack of affordable housing is a cause of 
homelessness for many. When all other options have been exhausted, 
veterans and others enter the homelessness response system for 
assistance because there are no other options. The second significant 
impact is that the lack of affordable housing means that it is more and 
more difficult for people to exit homelessness. Even for veterans that 
have a HUD-VASH voucher, the opportunity can be lost when a suitable 
and affordable unit cannot be found. This results in vouchers being 
unused, despite significant need.

    Question 2. Federal Investments for FY 2016: You have mentioned 
that Federal investments in housing have been a critical component of 
the progress we've made on homelessness. Could you talk about the 
impact that maintaining sequestration funding levels for appropriated 
programs in FY 2016 might have on the Federal Government's investments 
in housing?
    Response. Fortunately, sequestration funding levels did not 
continue in FY 2016. HUD received $60 million in new HUD-VASH vouchers 
as well as renewal funds to support vouchers previously allocated and 
leased.

    Question 3. Barriers to HUD-VASH Voucher Use: You mentioned in your 
written testimony how important Federal investments in HUD-VASH 
vouchers have been to achieving the goal of ending veterans' 
homelessness. But you note that veterans with VASH vouchers sometimes 
face difficulty in finding housing to rent with their vouchers. Can you 
give us some more background on some of the barriers veterans are 
experiencing in using their vouchers?
    Response. Challenges include:

    (1) Balancing utilization with targeting
          - In 2014, 71% of new HUD-VASH voucher holders experience 
        chronic homelessness
          - It can take significantly more time to locate, engage, and 
        offer housing to Veterans who experience chronic homelessness
          - We believe this is a contributing factor to the decrease in 
        referrals to PHAs and the increase in the amount of time it 
        takes a PHA to lease-up
    (2) Staffing challenges for PHAs
          - As a result of the deep cuts to HCV administrative fees 
        over the last few years, PHAs have reported staffing challenges
    (3) Challenges with the housing search process
          - Veterans who have spent years living in shelters and on the 
        streets face unique challenges when searching for a unit to 
        lease
          - Large cities tend to have tight housing markets with very 
        low vacancy rates and/or a lack of one-bedroom apartments
          - Veterans with criminal histories or poor credit scores 
        often struggle to find landlords willing to rent to them
          - Some solutions: PHAs conducting landlord outreach, VAMCs 
        offering housing search support, and communities hosting 
        housing fairs

    Chairman Isakson. I would like to welcome our second panel 
to this hearing on veterans' homelessness, and I am pleased to 
introduce our five witnesses.
    Lisa Tepper Bates--what a great name--from Connecticut, the 
Ranking Member's home State. He has been bragging about you for 
a week, so we are glad to have you. [Laughter.]
    Michael Blecker, Executive Director of Swords to 
Plowshares, which I am anxious to hear the report from him.
    Baylee Crone, Executive Director, National Coalition for 
Homeless Veterans.
    Edward Powers, the Executive Director of HOPE Atlanta, my 
home town; we are glad to have you here today, Mr. Powers.
    And, Jeff Steele, Assistant Legislative Director of The 
American Legion. Welcome. We are glad to have you.
    We will start with you, Ms. Bates. Please try to keep your 
testimony to 5 minutes.

STATEMENT OF LISA TEPPER BATES, EXECUTIVE DIRECTOR, CONNECTICUT 
                 COALITION TO END HOMELESSNESS

    Ms. Bates. Thank you. Good afternoon, Chairman Isakson, 
Ranking Member Blumenthal, and distinguished Members of the 
Committee. Thank you for inviting me here today to testify on 
Connecticut's efforts to end veteran homelessness.
    Together with President Obama and Governor of Connecticut 
Dannel Malloy, homeless service providers and our colleagues 
who serve veterans have proudly embraced the goal of ending 
veteran homelessness by the end of 2015. We know this ambitious 
goal is achievable in Connecticut and we hope it is achievable 
across the Nation.
    Our confidence that we can end veteran homelessness in 
Connecticut is rooted in the productive cross-sector 
collaboration that powers our efforts. Our State team includes 
the VA Connecticut health care system, Connecticut's VA-funded 
Supportive Services for Veteran Families Programs, the Hartford 
office of the Department of Housing and Urban Development, and 
our State agency partners, including the Departments of 
Housing, Mental Health, and Addiction Services, and Veterans 
Affairs. These partners are working in close cooperation with 
mainstream homeless providers represented by my organization, 
the Connecticut Coalition to End Homelessness.
    At the time of our 2015 Point in Time Count, only 80 
veterans were found in homeless shelters in Connecticut, and 
only nine veterans identified as unsheltered and homeless. A 
hundred-and-sixty-one additional veterans were in VA-funded 
transitional housing or Grant and Per Diem, GPD, Programs.
    I would like to highlight for you some of the most 
important aspects of our collaboration that are moving these 
numbers of homeless veterans down toward zero.
    First, we are knitting together the mainstream homeless and 
veteran-specific resources. Veterans experiencing homelessness 
may seek assistance at a VA facility and then appear later at a 
non-veteran-specific homeless shelter, or vice-versa. It should 
not matter where a veteran in need seeks help first. He or she 
should have access without delay to the full range of resources 
available for veterans to end their homelessness.
    We have worked diligently to eliminate gaps between 
mainstream providers and VA-funded sources. One good example of 
this, a homeless shelter in New London, Connecticut, has an 
SSVF Program on-site. As soon as a veteran is identified at the 
shelter, the veteran is walked directly to the SSVF offices on-
site to begin the housing process.
    At the same time, mainstream providers are working closely 
with our state-funded housing resources to ensure that we can 
end the homelessness of every veteran, regardless of an 
individual's discharge status.
    Second, we are bringing together the data. Our approach to 
ending veteran homelessness is person-centered, but fueled by 
the power of data to accelerate and track our efforts. We have 
created a single shared list of veterans in our State 
experiencing homelessness by combining information from the 
Homeless Management Information System used by mainstream 
providers with information collected by the VA. This 
information is shared between systems only with full consent of 
clients. By pulling together this one shared list, we can 
advance efforts to ensure that no veteran in need of housing 
assistance disappears between systems. By reporting housing 
outcomes against the numbers of veterans indicated as homeless 
on the shared list, we are tracking and sharing widely our 
progress on a monthly basis.
    Third, we are addressing our challenges to reach the goal 
and hold our ground. Our VA and HUD partners have worked hard 
to push down and reduce the time it takes to lease a housing 
unit for a veteran who is then approved for a HUD-VA supportive 
housing unit. Due to their good work, lease up time in 
Connecticut has dropped from 90 to under 60 days. However, we 
have an ongoing challenge with regard to the availability of 
rental properties, as you have heard from others today.
    To build a system in Connecticut and across the Nation that 
allows us to end current veteran homelessness and is poised to 
quickly assist future veterans who fall into homelessness, it 
is critical that VA resources are allocated as effectively as 
possible. You may be aware of the recent research into the 
transitional housing model, which suggests that many clients 
are best served in a housing first rapid re-housing approach to 
resolving homelessness, which may be most effective for clients 
and uses scarce resources to best effect. VA Connecticut is 
working to help the GPD Programs in our State focus their 
efforts on permanent housing planning and shorter lengths of 
stay with a target of 60 days or less in our GPD Programs.
    No veteran should be without a place to call home. We can 
and must end veteran homelessness in our country. With your 
support, Connecticut is poised to achieve this goal.
    Thank you for the opportunity to testify. I would be glad 
to have any questions that you may offer.
    [The prepared statement of Ms. Bates follows:]
     Prepared Statement of Lisa Tepper Bates, Executive Director, 
               Connecticut Coalition to End Homelessness
    Good morning Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee. Thank you for inviting me here 
today to testify on Connecticut's efforts to end veteran homelessness.
    Together with President Obama and Governor of Connecticut Dannel 
Malloy, homeless service providers and our colleagues who serve 
veterans have proudly embraced the goal of ending veteran homelessness 
by the end of 2015. We know this ambitious goal is achievable in 
Connecticut, and we hope it is achievable across the Nation.
    Our confidence that we can end veteran homelessness in Connecticut 
is rooted in the productive, cross-sector collaboration that powers our 
efforts. Our state team includes the VA Connecticut Healthcare System, 
Connecticut's VA-funded Supportive Services for Veteran Families (SSVF) 
programs, the Hartford office of the Department of Housing and Urban 
Development, and our state agency partners--including the Departments 
of Housing, Mental Health and Addiction Services, and Veterans Affairs. 
These partners are working in close cooperation with mainstream 
homeless providers, represented by my organization, the Connecticut 
Coalition to End Homelessness.
    At the policy level, this group of partners works closely with our 
state coordinator of our Opening Doors process to end homelessness 
(which mirrors the Federal process of the same name), the Partnership 
for Strong Communities, and with colleagues from the CT Heroes' 
Project, a campaign to end veteran homelessness efforts in our state.
    At the time of our 2015 Point-in-Time count, only 80 veterans were 
found in homeless shelters in Connecticut, and only nine veterans 
identified as unsheltered and homeless; 161 additional veterans were in 
VA-funded transitional housing, or Grant Per Diem (GPD) programs. I 
would like to highlight for you some of our most important aspects of 
our collaboration that is moving these numbers of homeless veterans 
down toward zero.
    Knitting together the mainstream homeless and veteran-specific 
resources: Veterans experiencing homelessness may seek assistance at a 
VA facility and then appear later at a non-veteran specific homeless 
shelter, or vice versa. It should not matter where a veteran in need 
seeks help first: he or she should have access without delay to the 
full range of resources available for veterans to end their 
homelessness. We have worked diligently to eliminate gaps between 
mainstream homeless providers and VA-funded resources. One good example 
of this: a homeless shelter in New London, Connecticut sublets space to 
the local SSVF program. As soon as a veteran is identified at the 
shelter, that veteran is walked directly to the SSVF office on site to 
begin the housing process. At the same time, mainstream providers are 
working closely with our state-funded housing resources to ensure that 
we can end the homelessness of every veteran--regardless of an 
individual's discharge status.
    Bringing together the data: Our approach to ending veteran 
homelessness is person-centered, but fueled by the power of data to 
accelerate and track our efforts. Consistent with national best 
practices, we have created a single, shared list of veterans in our 
state experiencing homelessness by combining information from the 
Homeless Management Information System (HMIS) used by mainstream 
providers with information collected by the VA. This information is 
shared between systems only with full consent of veteran clients. By 
pulling together this one, shared list, we can advance efforts to 
ensure that no veteran in need of housing assistance disappears between 
systems. By reporting housing outcomes against the numbers of veterans 
indicated as homeless on the shared list, we are tracking and sharing 
widely our progress on a monthly basis. This system could be improved 
still further if it was possible for VA agencies to participate on 
HMIS.
    Challenges to Reach the Goal, and Hold the Ground: Our VA and HUD 
partners have worked hard to push down and reduce the time it takes to 
lease a housing unit for a veteran who has been approved for a HUD-VA 
Supportive Housing (HUD-VASH) unit. Due to their good work, lease-up 
time in Connecticut has dropped from 90 to under 60 days. However, we 
have an ongoing challenge with regard to the availability of rental 
properties. New Haven, Connecticut--just next door to VA Connecticut--
has held one of the lowest national vacancy rates for rental properties 
for some time.
    To build a system in Connecticut and across the Nation that allows 
us to end current veteran homelessness, and is poised to quickly assist 
future veterans who may fall into homelessness, it is critical that VA 
resources are allocated as effectively as possible. In the sphere of 
non-veteran specific homeless services, there has been considerable 
research into the model of housing assistance known as ``transitional 
housing,'' similar to the VA's Grant Per Diem (GPD) model. This 
research suggests that many clients are best served in a housing-first, 
rapid re-housing approach to resolving homelessness, which may be most 
effective for clients and in terms of using scarce resources to best 
effect.
    In Connecticut, our VA Connecticut is working to help GPD programs 
focus their efforts on permanent housing planning and shorter lengths 
of stay (with a target of 60 days or less) in GPD programs--an 
important start in serving veterans as best we can with the resources 
we have.
    In order to better use the resources currently dedicated to GPD, 
Congress needs to make a legislative change to move this program away 
from the per diem payment structure to a competitive grant program or 
performance-based contract. This would encourage providers to embrace a 
more holistic approach to addressing veterans' housing needs while 
ensuring the programs are outcome-oriented--that is, focused on 
permanent housing placements with shorter lengths of stay, rather than 
on bed occupancy. The current per diem payment structure may serve as a 
disincentive for providers to move veterans quickly out of the beds, as 
a crisis model demands. There are providers who are willing to move to 
a short-stay GPD model (so-called ``bridge housing''), but the majority 
of GPD programs are not operating in this way. The statutorily defined, 
allowable two-year lengths of stay and per diem payment structure 
creates a disincentive for this type of program re-orientation, and 
instead encourages the continued operation of traditional long-term 
transitional housing programs.
    In this same vein, it is critical that VA provide overarching 
guidance regarding Housing First and on GPD's role in facilitating 
rapid exits to permanent housing. VA, non-VA, and veteran services 
organizations need to have shared definitions: VA needs to make it 
clear that veterans in GPD programs are still considered homeless by 
both HUD and the VA, and that those veterans in GPD must have a 
permanent housing plan and be in GPD for a very short period, when 
possible (60 days or less).
    No Veteran should be without a place to call home. We can--we 
must--end the homelessness of veterans who have served our country. 
With your support, Connecticut is poised to achieve this goal.
                                closing
    Mr. Chairman, thank you for the opportunity to testify before you 
today and I welcome any questions you or other Members of the Committee 
may have.

    Chairman Isakson. Thank you very much.
    Mr. Blecker.

  STATEMENT OF MICHAEL BLECKER, EXECUTIVE DIRECTOR, SWORDS TO 
                           PLOWSHARES

    Mr. Blecker. My name is Michael Blecker. I am the Director 
of Swords to Plowshares, and I will resist the temptation to 
spend all my time on talking about how great we are and our 
history. It is not easy.
    So, the first couple pages talked about that. But, I wanted 
just to say that we have been around for 40 years. I have been 
the Director there since--I have been involved since 1976, 
Director since 1982. When we started as a community-based 
organization, we provided the crucial things--outreach, jobs, 
school. We had a drop-in program. We also had a very unique VA 
legal program. We were helping vets get comp and pen, and also 
helping veterans with, quote, ``bad paper.'' You have heard 
reference to that, about vets who are not eligible because of 
administrative separations where they are declared ``other than 
honorable.'' So, that was an important issue for us from the 
very beginning days.
    Let me get right to the VA's program. We presently house 
about 476 veterans in various ways, from transition 
stabilization beds to permanent supportive housing, and the VA 
programs have been crucial for us to allow us to do that. 
Initially, the VA's 5-year plan, we were lucky. We were in one 
of the 25 Cities Campaign, the Mayor's Challenge, et cetera. 
They have talked about that very aggressive approach to 
actually create a veterans registry and to try to prioritize 
veterans' needs, that is, who is the most vulnerable. Which 
chronically homeless vets do we have to address first?
    What we have discovered, that in warm weather climates, 
like San Francisco, even as we house veterans, there is an 
inflow of veterans, right. That is just the reality of what we 
are seeing. Maybe the total numbers drop down, but for the warm 
weather climates like San Francisco, the number has dropped 
down much slower. So, even if we reduce the number, there has 
been an inflow of veterans that we have to take account for. 
So, whether the functional zero--whatever that is--I am not 
sure if it takes in consideration veterans who are moving into 
those areas. There is an inflow; do not forget about that. That 
is really crucial.
    The Grant and Per Diem Program is a really important 
program that provides your beds, et cetera, and care for 
veterans. The thing to keep in mind is veterans, especially who 
are homeless, have greater levels of acuity. They are sicker. 
They are older. They are frailer. They have issues with their 
primary health care. They have things like diabetes, 
neuropathy. They have primary health care issues, respiratory 
problems. The years have not been kind to veterans on the 
street.
    In addition, we have already mentioned about other issues 
like PTSD, for the newer veterans, Traumatic Brain Injury, but 
also let us not forget depression, anxiety, let us not forget 
drug use and substance abuse. You are dealing with very 
chronically impaired veterans, especially those who remain 
unhoused at the moment, and that is really our population. That 
is our mission, to serve those who remain homeless, and the 
Grant and Per Diem Program can be very important for that.
    However, we need a much more ``do it'' attitude, you know, 
an attitude from the VA that can actually get these things 
done. For instance, the case management in the Grant and Per 
Diem Program is limited to 90 days. There is no reason it 
should be limited. You have to have a Grant and Per Diem, and 
when people leave that program, there has to be a warm handoff. 
You cannot just cutoff case management. That is really crucial.
    The other thing is Grant and Per Diem would not even 
survive in high-cost areas but for the Special Needs Contract. 
The Special Needs Contract is crucial because it augments your 
staffing. It also gives you access to VA staffing, especially 
nursing care. As I mentioned, there are a lot of primary health 
care issues, and if you do not have access to primary health 
care professionals, you are not going to be successful serving 
that population. So, Special Needs are really crucial.
    The Grant and Per Diem rate must be higher. It must be 
aligned with what their true costs are. When the program 
started, it was $19 a day--$19. That is why there are few 
operators in high-cost areas. Now, it has gone up to $43 a day, 
but that is still--does that really--does that align with the 
true cost? That is what we have to look at. The program--the 
rate should be aligned to what your true cost is.
    I want to talk a little bit about the VASH Program. If 
there is a magic bullet, believe me, it is the VASH permanent 
subsidy. That is the magic bullet to relieving homelessness 
among veterans. Even in high-cost area, if you have a VASH, if 
you have rental subsidy that is permanent, boy, that is so 
important. So, we have to keep that VASH Program, those 
permanent rental subsidies, we have to keep a way to--if we 
want to end homelessness for the 50,000 veterans that remain, 
that is going to be crucial. That is the magic bullet.
    But, I also say the case management piece of the VA is 
where the problem is. The VA case managers, they are not geared 
to serving areas where you have--you need 24/7 coverage. You 
cannot have banker hours if you are a social worker. Problems 
erupt on weekends; they erupt in evenings. You have to have 
access to care, crisis care. That is really, really important.
    Also, you cannot graduate folks who are in your caseload 
because they are doing better. I think a lot of this is 
attributed to the VA's difficulty in hiring and keeping social 
workers. For every social worker they are hiring, they are 
losing certain social workers. There is a real problem with 
this shortage of professional social workers within the VA. We 
need to address that.
    In my final 17 seconds, I will talk about the SSVF Program, 
which is another rental subsidy program, but it is a temporary 
subsidy, and the key there is to be able to work with your 
landlord. You have to have incentives for the landlord. You 
have to have staff who is trained to negotiate with landlords. 
It is a landlord market, folks, and if you want to use that 
program and get vets off the street, you have to create 
incentives, because these vets are not ideal tenants. You have 
to be able to, you know, just incentivize the landlord.
    The final part is the issue with OTH, other than honorable. 
I urge you to read my written testimony. It is very nuanced and 
it is a very important issue. During the Vietnam War, there are 
over 500,000 veterans who ended up with other than honorable 
discharges--500,000 that were declared other than honorable. 
They had no G.I. Bill, no access to care, and it is no surprise 
that they became a big part of the homeless population.
    That is all I will say for now. Thank you.
    [The prepared statement of Mr. Blecker follows:]
      Prepared Statement of Michael Blecker, Executive Director, 
                          Swords to Plowshares
                              introduction
    Good afternoon Chairman Isakson and all of the Committee members. 
Thank you for holding this hearing and for the concern it demonstrates 
regarding homelessness among our Nation's veterans.
    My name is Michael Blecker and I am Executive Director of Swords to 
Plowshares, a veterans service organization based in San Francisco. I 
have been with Swords to Plowshares since 1976 and I am a veteran 
myself having served as a combat infantryman in Vietnam. Swords to 
Plowshares is in its 40th year of service providing wrap-around care to 
veterans in the San Francisco Bay Area. In our dual role as a 
community-based service provider and advocacy organization, we are 
acknowledged by many, including yourselves, as a national model of 
care. I am here before this commission today to discuss the successes 
and challenges we have experienced carrying out the mission of VA's 
homeless programs throughout the years and today. I am here to 
recommend improvements to VA's homeless programs that will better equip 
communities like San Francisco and experienced providers like Swords to 
Plowshares with the tools they need to prevent and significantly reduce 
veteran homelessness.
    Swords to Plowshares has been at the forefront of providing 
residential services and an array of ancillary support services to 
homeless and extremely low-income veterans for 40 years. Our 
organization has extensive experience with supportive housing programs 
for veterans--including chronically homeless veterans and those with 
severe mental illness. We engage in homelessness prevention, permanent 
housing placement and other programs that support at-risk and homeless 
veterans and their families. Our model of care is based on the 
philosophy that the obstacles veterans face--including homelessness, 
unemployment and disability--are interrelated and require an integrated 
network of support within the community and continuum of care.

    <bullet>  Since our inception in 1974, Swords to Plowshares has 
helped veterans, including homeless veterans, overcome barriers to 
employment and help them translate their skills learned in the military 
to civilian careers. Additionally, we have been an operator of the 
Department of Labor's Homeless Veterans Reintegration Program since the 
1990s.
    <bullet>  In 1976, Swords to Plowshares became the first 
organization in 32 years to become certified to represent veterans with 
disabilities with VA disability claims and military discharge upgrades. 
We have successfully helped thousands of veterans--primarily homeless 
and low-income veterans--access the VA benefits and medical care they 
have rightfully earned, but also turn their lives around. It is a 
result of our model in which our benefits advocacy services are nested 
within a continuum of care to stabilize at-risk and homeless veterans, 
address their basic needs and keep them involved while we help them 
through the legal process.
    <bullet>  Since 1986, we have operated a Drop-in Center that 
provides critical care to help homeless and low-income veterans improve 
their health, wellness and long-term stability. The Drop-in Center is 
the main point of entry to our continuum of care for many of the 
homeless veterans we serve.
    <bullet>  Swords to Plowshares has continuously provided needed 
services in a housing setting since 1987. Our transitional and 
permanent residential programs, combined with a continuum of care, have 
provided thousands of homeless veterans with the stability and support 
they need to rebuild their lives. We continually expand supportive 
housing to meet the needs of veteran families, aging veterans and those 
with disabilities. We currently operate four Permanent Supportive 
Housing programs and three Transitional/Stabilization Housing Programs 
for 476 veterans at any given time.

          Transitional & Stabilization Housing: Swords to Plowshares 
        began its first transitional housing program in San Francisco 
        in 1987. Initially serving homeless veterans exiting the VA 
        Medical Center and funded by an HCMI contract, Swords to 
        Plowshares has been operating an array of successful 
        transitional housing modalities for homeless veterans since 
        that time. Currently we provide transitional housing to 130 
        veterans at a time with nearly 80% achieving successful 
        outcomes (i.e. moving obtaining permanent housing). This 
        outcome is 15 percent greater than the national average.

         - Since 2004, we have operated a 6-month stabilization program 
        for veterans with serious mental illness being discharged from 
        impatient psychiatric settings, providing residential support 
        for 22 veterans at a time
         - Since 2008, we have operated a Special Needs--Chronically 
        Mentally Ill program at our Treasure Island facility for 20 
        Chronically Mentally Ill veterans at a time.
         - In 2014, we opened a 19-bed Safe Haven program in San 
        Francisco, serving `treatment resistant' homeless veterans.

          Permanent Supportive Housing: As an early adopter of the 
        Housing First strategies, Swords to Plowshares opened the first 
        site-based Permanent Supportive Housing program for veterans in 
        the Nation in 2000. Currently we operate 346 Permanent 
        Supportive Housing units at four sites. Through these years of 
        experience as a community-based organization, Swords to 
        Plowshares fully understands the challenges that veterans with 
        significant barriers face in obtaining and maintaining housing.

         - Since 2012, we have operated 12 units of Permanent 
        Supportive Housing for veteran families on Treasure Island.
         - In 2012, we collaborated with City partners to opens 75 
        units of Permanent Supportive Housing for homeless veterans 
        with disabilities at Veterans Commons, a historical site 
        located at 150 Otis Street in San Francisco.
         - In 2014, the San Francisco Mayor's Office of Housing 
        contracted with us to operate a new Permanent Supportive 
        Housing site for 130 chronically homeless veterans.
                progress achieving the va's 5-year plan:
    We know that helping homeless veterans is not a one-size fits all 
approach. For more than two decades the only program to meet the needs 
of homeless veterans was Grant & Per Diem. But we know that residential 
treatment is not the right fit for every veteran. In 2009, when the VA 
pledged to end veteran homelessness by 2015 we wondered if it would 
ever be possible. Signature programs that were greatly expanded or 
newly created for this effort, the HUD-VASH and Support Services for 
Veteran Families (SSVF) programs, have helped to make significant 
strides and need to continue. HUD-VASH addresses the long-standing need 
to house and support chronically homeless veterans while SSVF is 
preemptively addressing homelessness instances--that we know from the 
experiences of Vietnam veterans--can snowball into long-term struggles 
including chronic homelessness.
    We have made great progress toward ending veteran homelessness 
since the beginning of the five-year plan to end veteran homelessness. 
Some cities, particularly those with sufficient affordable housing 
stock, are reaching what has been termed as a `functional zero' or 
`operational zero' in homeless veterans. Yet many more communities are 
not there yet, and many will likely be unable to meet this goal by the 
end of this year. Based on our experience, warm weather climates like 
San Francisco will never truly get to zero. This is not for a lack of 
effort. In San Francisco, unprecedented cooperation between the 
nonprofit sector, the City & County, and Federal partners has been 
ongoing since 2011. We are seeing significant progress, even with the 
highest housing costs and lowest housing stock in the Nation. Following 
best practices, we have created a Homeless Veteran Registry, which 
prioritizes those with the greatest vulnerability and those at risk of 
dying on our streets, for the permanent supportive housing resources 
that the City has allocated or created. It is notable that the in-flow 
of homeless veterans into San Francisco, indicated by new names being 
added to the list, results in two new names of homeless veterans being 
added for every three to four veterans that we are able to get housed. 
We assume that this is the case in other areas with warmer climates, 
scant housing availability, and high ongoing homeless census. To 
further illustrate this, San Francisco's January 2015 Point in Time 
count indicated a net reduction in homeless veterans to 118 individuals 
from the January 2013 count. Our agency alone has permanently housed 
many times that number over the 24-month period. However, this process 
is two steps forward, one step back.
    Each VA homeless program plays an important part of our Nation's 
strategy to prevent and end homelessness, but there are challenges that 
remain.
                            grant & per diem
    Successes: For more than 20 years, GPD has helped many homeless 
veterans gain the stability they need to overcome addiction, 
homelessness and gain self-sufficiency. The program allows providers 
like Swords to Plowshares to help veterans from further de-compensating 
and it gives us the time needed to help them stabilize and to identify 
permanent housing options for their future. Before SSVF and HUD VASH 
the challenge was how to address permanent housing for those veterans 
approaching the maximum length of stay in the program. Thankfully, 
those programs have not only significantly reduced the average length 
of stay and provided an avenue for program participants to exit to 
permanent housing versus continue to be marginally housed or worse.
    Additionally, the Special Needs program not only provides a life 
line for many severely compromised veterans and those who are the 
hardest-to-house, but has also provides a lifeline for nonprofits. The 
Special Needs grant provides significantly more funding to cover 
staffing needs which is currently inadequate under GPD. The Special 
Needs program has provided VA staff on-site to help provide support for 
those veterans with the highest level of need.
    Challenges: In our experience we have seen a higher level of acuity 
and veteran program participants with more severe physical and 
psychological conditions. There are more Vietnam-era veterans suffering 
from age-related illness and compounded health conditions from years of 
homelessness and poverty. Additionally, current-era veterans are often 
struggling with multiple disabilities such as Traumatic Brain Injury, 
PTSD and other service-connected physical and psychological injuries. 
For these reasons, we need adequate services staff on-site to ensure 
transitional housing program participants are provided with an 
appropriate level of care.
    Yet, despite the acuity of GPD and Special Needs program 
participants increasing, VA staff coverage on-site has been 
increasingly unreliable and inadequate. It is critical to have access 
VA staff on-site who can access VA medical records and coordinate care 
for the severely compromised veteran residents we serve.
    If not for the Special Needs contract, GPD would not provide 
adequate funding to cover the costs of service delivery. We would not 
be able to serve our veteran clients and have 24-hour staff coverage 
which is currently funded under the Special Needs contract. 
Additionally, Swords to Plowshares acquired free property to operate 
our Transitional Housing Program, which is a major factor that allows 
us to operate the program.
    Recommendations: The VA should continue funding the GPD and Special 
Needs programs and negotiate GPD rates based on actual operating costs 
for providers to ensure programs have adequate services staff and 
funding to pay for rental or other property and operational costs, 
particularly in communities with high rental costs. Additionally, VA 
needs to ensure that adequate VA staff are on-site and ensure they fill 
vacant positions.
    Many veterans exiting GPD programs into permanent housing are doing 
so with assistance from the HUD VASH and/or SSVF program. Many of these 
veterans need on-going case management services following their exit 
from GPD. Rule changes within the SSVF program to allow for a `warm 
hand-off' and for ongoing case management to continue as long as they 
are needed for the individual veteran would significantly help in 
preventing recidivism. However, for those veterans exiting GPD programs 
without the support of VA Homeless Programs, flexibility to continue 
case management after the veteran has exited would significantly help 
in keeping high-need veterans housed. The length of case management 
after veterans exit GPD programs should be determined on a case-by-case 
basis.
                                hud vash
    Successes: Over recent years, the VASH program has housed tens of 
thousands of homeless veterans and the program should continue its 
expansion until we have sufficient slots for all chronically homeless 
veterans still residing on our streets.
    Challenges: While HUD VASH has been successful in housing thousands 
of veterans, many of those remaining are the harder to house, 
chronically homeless with entrenched mental health, substance abuse, 
and physical health challenges. This is the crux of the job left before 
us.
    In San Francisco and elsewhere where there is a limited stock of 
affordable housing and heated rental markets, the only way that we can 
house many of those veterans with the highest needs is to do so in 
larger, congregate settings, which we need to create. Swords to 
Plowshares has been operating this type of congregate permanent 
supportive housing program for over 15 years, prior to VASH 
availability.
    VA medical centers across the country are having difficulty on-
boarding and retaining sufficient numbers of social workers to provide 
services to veterans with VASH vouchers. In addition to general VA 
staff retention, in these settings that rely on HUD VASH subsidies and 
staffing, we have seen that VASH staff have a very difficult time in 
providing the needed coverage. These facilities require for the safe 
operation of that housing, which include the need to schedule shifts 
into the evening and on weekends. Many emergency situations happen 
after normal business hours, so staffing patterns need to reflect this 
reality. With the VA unable to provide this broad clinical coverage, it 
leaves the operators like Swords to Plowshares struggling to meet the 
need, and often without any funding to do so. In addition to clinical 
staff being available during non-business hours, the VA practice of 
`graduating' VASH clients from case management, thereby reducing 
staffing levels, is very problematic in these settings. Given the 
acuity of veterans living in these communities, as a whole, ongoing on-
site clinical staffing is needed throughout the life of the project. We 
have heard identical stories from permanent supportive housing 
providers in Los Angeles, Houston, and New York City.
    Recommendations: We recommend that VA mandate case management to be 
contracted out with the community-based system of care. Community-based 
providers delivering the case management portion would save in costs, 
improve flexibility with scheduling and other service delivery 
components, be better integrated with community-based housing operators 
wrap-around services, and leverage the expertise of community 
providers.
    Future allocations of HUD VASH is critical. We recommend increasing 
HUD VASH subsidies in order to sustain our progress housing veterans.
                supportive services for veteran families
    Successes: The Supportive Services for Veteran Families program is 
doing tremendous work helping to shut the front door of veteran 
homelessness through Rapid Re-Housing for those recently homeless and 
Eviction Prevention for those most at risk of becoming homeless.
    Swords to Plowshares has developed the necessary infrastructure 
that quickly and efficiently houses veterans. Organizationally, we have 
learned from the challenges we faced in the early days of the program 
and have established roles, responsibilities and processes that have 
been tested and now operate efficiently and effectively. Our community 
partnerships are robust and productive.
    Challenges: While the SSVF Program has been very successful in 
housing veterans, guidelines have changed multiple times since the 
inception of the program including mid-year changes which dramatically 
impact community providers. Additionally, SSVF limitations regarding 
pre-paying rent, providing limited case management and slim allocations 
for delivery continue to pose challenges.
    In heated rental markets like San Francisco, rent is too expensive 
for most veterans to afford. In fact, 45% of homeless veteran 
households in San Francisco needed to move out of the county in order 
to secure permanent housing that was somewhat affordable. Many of those 
veterans who were able to remain in San Francisco, moved into one of 
Swords to Plowshares' Permanent Supportive Housing sites, had a housing 
subsidy or moved into Single Room Occupancy units within their budget.
    The stock of affordable housing is dismally low in the San 
Francisco Bay Area. Therefore, it is incumbent upon us to forge lasting 
and meaningful relationships with property owners and managers. A 
considerable amount of staff time is allocated to finding suitable and 
affordable rental units. However, case managers and social workers are 
not skilled in real estate and negotiating with landlords. However, we 
are typically asking landlords to accept Below Market Rates for a 
population that is difficult to house and present certain predictable 
risks. In markets such as ours, we need the ability to reduce the 
financial risk to property owners. We need continue the current 
eviction prevention allowances and enhance rental assistance guidelines 
at move-in to incentivize landlords to take on this risk. We also need 
to provide some level of financial support when evictions cannot be 
prevented.
    Recommendations: Funding for the SSVF program must continue beyond 
2015 in adequate proportion if we are to maintain the progress that 
this Nation has made in reducing veteran homelessness. Otherwise, we 
will certainly see the numbers change trajectory and increases in 
veteran homelessness will surely re-occur. With the force reduction 
currently underway, and the tens of thousands of veterans separating 
from the military every year under normal circumstances, the SSVF 
program can be the preventative lynch pin needed to assure their 
successful transitions to civilian life.

    <bullet>  Program flexibility to improve outreach and engagement 
with landlords: Many landlords are hesitant to rent to veteran clients, 
particularly when many veterans utilizing SSVF have poor credit, 
extremely low-income, histories of homelessness, drug and alcohol 
abuse, mental illness, incarceration and often evictions. They are not 
ideal tenants in many cases and it is incumbent upon service providers 
to cultivate relationships with landlords and provide incentives for 
them to rent to veterans. For example, paying for up to three months 
rent in advance would help to attract more landlords. SSVF staff need 
adequate training on engaging with landlords or outside expertise from 
a realtor. Community partners operating SSVF need more flexibility to 
incentivize landlords to rent to veterans and need funding to hire or 
contract with realtors who can broker relationships and negotiate lease 
agreements.
    <bullet>  Increase funding for Rep Payee services. SSVF provides 
funding for staff to provide money management services to clients for 
up to 12 months. In addition to extending the 12-month period for those 
veterans who need the ongoing service in order to remain housed, many 
providers like Swords to Plowshares also provide Representative Payee 
services to SSVF clients, despite a lack of dedicated funds to provide 
these services which these veterans are mandated to utilize. In fact, 
we currently have more veterans enrolled in Representative Payee 
services than those enrolled in temporary money management under SSVF.
    <bullet>  Increase allocation of Eviction Prevention funds and/or 
allow for more flexibility. We have experienced an increase in the 
number of requests for Eviction Prevention support. Certainly and 
rightly, the focus up to this point has been on Rapid Re-housing more 
so than Eviction Prevention. However, the longer-term goal is to ensure 
that episodes of homelessness among veterans are infrequent and short-
lived. That means that Eviction Prevention will play a larger role in 
sustaining the gains we have made and preventing recidivism. Moving 
forward, VA needs to allocate a larger percentage of Eviction 
Prevention dollars/enrollments to address homeless prevention among 
those who were assisted with Rapid Re-Housing services.
    <bullet>  Flexibility for length of case management period: SSVF 
currently requires that operators discharge veterans after 90 days. 
Support and case management for 90 days is not sufficient for many 
veterans--particularly those who have minimal income, long histories of 
homelessness, drug and alcohol abuse and mental illness. Limiting the 
length of time community-based operators can provide case management 
increases the risk for recidivism. The length of case management should 
be extended to up to 12 months or as needed for veterans with high 
acuity.
    <bullet>  Flexibility for use of service dollars: Many homeless 
veterans need on-site supportive services in order to remain in 
permanent housing, but there are limited Permanent Supportive Housing 
sites and units. The California Association of Veteran Service Agencies 
championed Prop 41, the California Veterans Housing and Homeless 
Prevention Bond Act, to authorize $600 million in bonds to fund 
supportive housing for homeless veterans. Prop 41 funds will go a long 
way in the physical development of housing units, however, community-
based service providers like Swords to Plowshares need to identify 
funding to cover the cost of on-site services staff, as well as 
identify housing subsidies for veteran residents. If the VA changed 
regulations under the SSVF program to extend the case management period 
for those veterans who are at higher risk for recidivism--those 
veterans who need to live a supportive housing community--it would go a 
long way in covering the operational cost to have services staff on-
site.

    In addition to these recommendations, an effective response to the 
problem of veteran homelessness will require that we make all VA 
homeless programs available to the veterans who need it most. On both 
counts, the VA has made great progress but has not yet done all it can 
do.
                 reaching the most vulnerable veterans
    The VA has placed some of the most vulnerable veterans beyond its 
reach. It has done this by creating eligibility rules that exclude a 
large number of former servicemembers, including some who are most at 
risk of homelessness. We will not solve the problem of veteran 
homelessness until all veterans benefit from the care and support that 
they deserve and require.
    How servicemembers are excluded from VA services: Not all 
servicemembers are eligible for VA care and services. Some are excluded 
by rules Congress enacted in 1977 that prohibit the VA from assisting 
servicemembers discharged for certain kinds of conduct.\1\ This 
includes veterans discharged by General Court-Martial, essentially a 
felony-level conviction, and some veterans discharged because of 
prolonged periods of unauthorized absence.
---------------------------------------------------------------------------
    \1\ 38 U.S.C. 5303(a); 38 CFR 3.12(c).
---------------------------------------------------------------------------
    Others are excluded because of additional rules that the VA created 
itself.\2\ The VA's rules presumptively exclude all veterans with a 
punitive discharge--those that were discharged by a court-martial--as 
well as all veterans who receive non-punitive administrative discharges 
for misconduct.\3\ If these veterans correctly apply for an eligibility 
review, the VA will evaluate their service according to a series of 
criteria that the VA itself created.\4\ If the VA decides that the 
veteran failed on of its eligibility tests, then the VA may withhold 
housing services, in addition to health care, compensation for 
disabilities that arose during service, and low-income pension. In 
fact, the VA will not even address that person as a ``veteran.''
---------------------------------------------------------------------------
    \2\ Most VA benefits are provided only to ``veterans'' and their 
spouses or dependents. Congress defined ``veteran'' to include only 
those servicemembers who were discharged ``under conditions other than 
dishonorable.'' 38 U.S.C. 101(2). Congress did not define what 
conditions would count as ``dishonorable.'' Therefore the VA has been 
free to make its own standards, 38 CFR 3.12(a, c).
    \3\ There are two kinds of punitive discharges, which can only be 
issued by courts martial: Dishonorable and Bad Conduct. There are three 
kinds of Administrative discharges, which are not issued by courts 
martial: Honorable, General Under Honorable Conditions, and Other Than 
Honorable (formerly called Undesirable). The VA has decided that it 
will treat Honorable and General discharges as presumptively eligible 
for ``veteran'' status. However servicemembers with any of the other 
characterizations, including the Other Than Honorable characterization 
that does not require any court martial, are ineligible unless the VA 
includes them based on its individual review. 38 C.F.R 3.12(a).
    \4\ 38 CFR 3.12(b, c).
---------------------------------------------------------------------------
    All of these veterans signed up or were drafted and served at a 
time in our history when most people don't do so, and the VA should 
withhold care and services only in the most severe cases of truly 
dishonorable service. The Congressional rules honor this by 
disqualifying eligibility in limited, specific circumstances. Unlike 
the rules make by Congress, however, the VA's rules are vague and end 
up excluding large numbers of veterans.\5\
---------------------------------------------------------------------------
    \5\ For servicemembers discharged in FY 2011, about 1,400 are 
excluded based on Congressional standards, based on DOD discharge data 
and court martial records. However, the VA's presumptive exclusion 
criteria exclude 8,686 people discharged that fiscal year. Although 
about 4.5% of those people have since been found eligible based on a VA 
review, the VA's rules still exclude significantly more people than 
required by statute.
---------------------------------------------------------------------------
The VA's standards fail to consider several common-sense issues:
    <bullet>  Mental health. We know that PTSD, TBI, and other mental 
health conditions can lead to behavior problems that look like 
misconduct to military commanders: for example, lack of impulse 
control, suicidality, or self-medication through drugs or alcohol.\6\ 
But if this behavior results in misconduct discharge, the VA will only 
grant eligibility if the person was fully ``insane'' \7\ or if they 
were so impaired that they did not comprehend their own actions.\8\ In 
practice, this does not typically address PTSD and TBI, the most common 
mental health injuries from service.
---------------------------------------------------------------------------
    \6\ Milliken CS, Auchterlonie JL, Hoge CW. Longitudinal Assessment 
of Mental Health Problems Among Active and Reserve Component Soldiers 
Returning From the Iraq War. JAMA. 2007;298(18):2141-2148. doi:10.1001/
jama.298.18.2141; Highfill-McRoy RM, Larson GE, Booth-Kewley S, Garland 
CF. Psychiatric diagnoses and punishment for misconduct: the effects of 
PTSD in combat-deployed Marines. BMC Psychiatry. 2010 Oct 25;10:88. 
doi: 10.1186/1471-244X-10-88. PubMed PMID: 20974004; PubMed Central 
PMCID: PMC3020681.
    \7\ 38 CFR 3.12(b).
    \8\ One of the VA's bases for exclusion is when misconduct was 
``willful and persistent.'' 38 CFR 3.12(d)(4). And misconduct was 
``willful'' unless the person lacked the mental capacity to make an 
intentional act. 38 CFR 3.1(n)(1).
---------------------------------------------------------------------------
    <bullet>  The length and quality of prior service. The VA's rules 
consider the quality of service only if the discipline issue leading to 
discharge was a single ``minor'' event.\9\ In that case, the VA has a 
very high standard for how good the prior service must be: the VA has 
said that even a combat deployment is not inherently ``meritorious'' 
because that was the basic duty expected of the servicemember.\10\ Its 
rules do not consider the duration of prior service.

    \9\ One of the bases for inclusion is when misconduct was 
``willfull and persistent,'' however the VA will overlook that 
misconduct if the misconduct was ``a minor offense'' and service was 
``otherwise honest, faithful and meritorious.'' 38 CFR 3.12(d)(4).
    \10\ See e.g., Title Redacted by Agency, 03-09 368, Bd. Vet. App. 
(June 19, 2009).
---------------------------------------------------------------------------
    <bullet>  Mitigating factors. The rules do not consider whether 
there are family, financial, of other personal circumstances that might 
explain the behavior that led to discharge.\11\
---------------------------------------------------------------------------
    \11\ The Court of Appeals for Veterans Claims has held that the VA 
is prohibited from taking these factors into account, because there is 
no provision in the regulation permitting it. Winter v. Principi, 4 
Vet. App. 29 (1993). Individual adjudicators do sometimes take these 
factors into account anyway, on their own initiative.

    We routinely see veterans who have served in combat, sometimes on 
multiple tours, who have severe mental health problems form service, 
and who are turned away from care by the VA because of its 
discretionary exclusion rules. The VA has denied eligibility to 78% of 
the servicememebrs who it treats as presumptively ineligible and who 
applied for benefits. We believe that this is too high. Every one of 
them served, and every one of them went to the VA for help. Turning 
them away should be done rarely and deliberately.
    Who is affected: These rules exclude a large number of veterans. 
Since 2001, over 135,000 servicemembers were discharged in a way that 
made them presumptively ineligible for VA benefits upon discharge, 
according to the VA's eligibility rules.\12\ For those that discharged 
recently, approximately 50% had deployed to a contingency operation, 
but were ineligible for VA services upon discharge.\13\
---------------------------------------------------------------------------
    \12\ Servicemembers with Other Than Honorable, Bad Conduct, and 
Dishonorable discharges are presumptively ineligible for VA benefits. 
38 CFR 3.12(a). Discharge data from Department of Defense FOIA release.
    \13\ Deployment and discharge data from Department of Defense FOIA 
release.
---------------------------------------------------------------------------
    The large majority of them--about 85%--were discharged for conduct 
that was less severe than the Congressional eligibility rules.\14\ This 
means that they may or may not be eligible, depending on how the VA 
applies its own criteria. However, the VA has conducted its eligibility 
review for only 10% of these servicemembers.\15\ The remaining 90% will 
be turned away if they ask the VA for help today, simply because the VA 
has not yet completed its eligibility review.
---------------------------------------------------------------------------
    \14\ Based on FY 2011 data. There were 8,686 misconduct discharges 
in FY 2011. In that period, there were 726 discharges by General Court-
Martial. This corresponds to the statutory bar at 38 CFR 3.12(c)(1) 
(discharge by General Court-Martial). There were 548 discharges for 
Interservice Separation Code 1075, ``AWOL or Desertion.'' This 
corresponds to the statutory bars at 38 CFR 3.12(c)(4) (discharge for 
desertion) and 38 CFR 3.12(c)(6) (discharge for AWOL more than 180 
days). It is overinclusive because the statutory bar includes an 
exception for ``compelling circumstances,'' as discussed infra. The 
remaining statutory prohibitions are relatively uncommon. Because the 
second figure is overinclusive, and because the remaining categories of 
prohibition are rare, it is safe to conclude that the total number of 
people encompassed by the statutory bars in FY 2011 is approximately 
1,274, or 15% of all misconduct discharges. This data was obtained from 
the Annual Report of the Code Committee on Military Justice FY 2011 and 
from a DOD FOIA response.
    \15\ Data provided by VBA analyst.
---------------------------------------------------------------------------
    These are some of the most vulnerable of all veterans. The same 
mental health trauma that may have led to discipline issues in service 
will stay with them after service. And because they are turned away 
from VA care, those conditions are untreated. This is not speculation: 
Marines who deployed to combat and who received a PTSD diagnosis were 
seven times more likely to get a misconduct discharge than Marines who 
did not have a PTSD diagnosis;\16\ and the suicide rate for veterans 
excluded by the VA is twice as high as the suicide rate for other 
veterans.\17\ If we needed a red flag, this is it.
---------------------------------------------------------------------------
    \16\ Highfill-McRoy RM, Larson GE, Booth-Kewley S, Garland CF. 
Psychiatric diagnoses and punishment for misconduct: the effects of 
PTSD in combat-deployed Marines. BMC Psychiatry. 2010 Oct 25;10:88. 
doi: 10.1186/1471-244X-10-88. PubMed PMID: 20974004; PubMed Central 
PMCID: PMC3020681.
    \17\ Kang et. Al., Suicide risk among 1.3 million veterans who were 
on active duty during the Iraq and Afghanistan wars, Annals of 
Epidemiology (Feb, 2015).
---------------------------------------------------------------------------
    We know where this leads, because we saw the same thing happen to 
veterans of prior eras. Vietnam-era veterans who were excluded from VA 
care have spent their entire lives dealing with mental health trauma 
without VA medical treatment. If they have been too disabled to work, 
they got by without income support from the VA. This is unfair and 
unwise.
    The impact on veteran homelessness: These exclusion rules hit 
homeless veterans the hardest. In our housing programs, about 15% of 
homeless veterans are excluded from VA services. Informally, other 
housing providers and VA personnel report similar numbers. This tells 
us two things.
    First, it means that veterans excluded from VA services are at 
elevated risk of homelessness. Only nine percent of servicememebrs are 
presumptively ineligible for VA services,\18\ yet 15% of homeless 
veterans are ineligible. This means that veterans excluded from the VA 
are about 50% more likely to be homeless. We know some of the reasons 
why this happens: their disabilities are not adequately treated, and 
they can't receive VA income support if they are too disabled to work. 
We shouldn't be surprised that when we turn away veterans in need that 
they end up on the street.
---------------------------------------------------------------------------
    \18\ Discharge data from Department of Defense FOIA release.
---------------------------------------------------------------------------
    Second, it means that we will not solve the homeless veteran 
problem until we include these veterans. That 15% will be the last and 
the hardest group to assist. Many are chronically homeless, as they 
have lived for decades on their own without heath care or income 
support from the VA. Helping them off the street will require all the 
resources that the VA can mobilize. We can't afford to be holding back.
    What the VA is doing well, and what can be done better: The VA has 
long recognized the importance of this part of the homeless veteran 
problem. Since the 1990s it has extended its GPD emergency and 
transitional housing program to all veterans with administrative 
discharges, even if they are not otherwise eligible for VA benefits. 
Beginning last year it expanded eligibility to include veterans with 
anything but a fully Dishonorable discharge, even if they are not 
eligible for other VA benefits. It applies the same policy to its SSVF 
Rapid Re-housing program. This is the right thing to do.
    However, last month the VA OIG raised questions as to the legality 
of this policy and the VA has committed to obtaining a legal 
review.\19\ We are very concerned that the VA will limit eligibility 
based on that review. This would make it very difficult to meet the 
Government's goal of ending veteran homelessness.
---------------------------------------------------------------------------
    \19\ Department of Veterans Affairs Office of Inspector General, 
``Veterans Health Administration, Audit of the Homeless Providers Grant 
and Per Diem Program Management Oversight'' (June 29, 2015) available 
at http://www.va.gov/oig/pubs/VAOIG-14-01991-387.pdf.
---------------------------------------------------------------------------
    Moreover, the VA had never extended this eligibility to its HUD-
VASH program. A permanent solution to veteran homelessness will require 
permanent housing options. Homeless veterans will need to have access 
to long-term housing, including income support if they are too disabled 
to work.
    There are two ways to address this. One is for the VA to change its 
discretionary eligibility rules. Of the people excluded from VA 
services, only about 15% are excluded based on Congressional standards. 
The remaining 85% are excluded based on the VA's own rules. It can 
change these, and we believe that it should do so.\20\
---------------------------------------------------------------------------
    \20\ Because Congress has provided the VA with no guidance on how 
to define a discharge ``under conditions other than dishonorable,'' the 
VA has wide authority under the Administrative Procedure Act to define 
this term in its regulations. This includes wide authority to repeal or 
modify the definition it has already adopted.
---------------------------------------------------------------------------
    The second way to address this gap is for Congress to mandate a 
change to the VA's rules. Senator Murray has introduced Senate Bill 
1731 this term, a bill that would waive the VA's discretionary 
exclusion rules for the purposes of GPD program eligibility. We 
strongly support this bill. But we will not end veteran homelessness 
through the GPD program alone. We will need the preventative resources 
of the SSVF program, the long-term resources of the HUD-VASH program, 
and the comprehensive health care and disability assistance that only 
the VA can provide. This requires that that the VA's exclusion rules be 
brought more closely in line with the Congressional rules. If the VA is 
unwilling to change its rules on its own, then Congress should rewrite 
those rules itself.
                                closing:
    Homelessness became an inescapable byproduct of the Vietnam War and 
our failure as a nation and a community to provide strong support. 
While Vietnam veterans remain a significant portion of the homeless 
veteran population, we have a lingering and constant reminder of how we 
failed them. The hard lessons of Vietnam, and perhaps the legacy of 
Vietnam veterans, are the homeless fallout and our ability as a nation 
to make meaningful strides to end homelessness, for those veterans as 
well as our newer generations whose trauma has manifested at a much 
quicker pace. Yet it remains that Iraq and Afghanistan veterans, some 
home for several years, find their troubles mounting and slip into the 
shadows that the veil of homelessness so easily provides.
    At the end of the day, we must end up with a system of housing-
related services and supports that will allow each locality to promptly 
and effectively address those veterans that are at risk or who become 
homeless, thereby ending the phenomena of chronic homelessness. This 
system includes adequate Permanent Supportive Housing resources for the 
most vulnerable, senior housing supports for the large number of very 
low income Vietnam-era veterans aging into the need for senior 
services, Transitional and Stabilization housing supports such as the 
Grant & Per Diem and Health Care for Homeless Veterans programs, and 
maintaining safety net SSVF programs to close that front door to 
homeless, which is where the most cost-efficient intervention can be 
made.
    We were invited to testify based on our expertise and experience in 
providing these services. I urge you to listen to those of us who have 
been on the front lines of providing services. We are providing the 
services needed based on our experience operating within our veteran 
community.

    Chairman Isakson. Thank you very much for your testimony.
    Baylee Crone.

    STATEMENT OF BAYLEE CRONE, EXECUTIVE DIRECTOR, NATIONAL 
                COALITION FOR HOMELESS VETERANS

    Ms. Crone. Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee, thank you so much for 
having me here today. My name is Baylee Crone and I get the 
pleasure of being the representative from the National 
Coalition for Homeless Veterans.
    In this role, I have the opportunity to work with hundreds 
of community agencies all across the country that are actively 
ending homelessness for thousands of veterans and their family 
members every year. The organizations NCHV represents are 
transforming the lives of individual veterans and, importantly, 
which we have heard a lot about today, they are transforming 
the systems that respond to those changing needs.
    I am here, in part, to offer thanks for the change which 
has already occurred in the lives of tens of thousands of 
homeless veterans who used to walk our Nation's streets and 
call them home. This change is a testament to your dedication 
and hard work and to the dedication of partners within the VA, 
HUD, and Department of Labor, and to the commitment of hundreds 
of community agencies like those on the panel today.
    Veterans are moving off the streets into permanent housing 
in higher numbers. They are doing so faster and with more 
appropriate interventions than ever before. Our service systems 
have improved dramatically. The difference between chance 
change and sustained success, between a complicated web of 
programs and a coordinated net of service is these integrated 
systems.
    Although we can see much progress, our work is far from 
finished. I am here with the charge, really an urgent plea, to 
help us do more, better, and faster to serve veterans who are 
homeless and at high risk.
    Before national attention focusing on veteran homelessness, 
the community we represent stepped in to offer a hand up to all 
who wore the uniform. They pulled veterans in and opened that 
door to recovery. They screened in to maximize impact and have 
done so for over 20 years. With the national spotlight on their 
work, this community network has done what you have asked. They 
have served more veterans, more efficiently, more effectively, 
without screening veterans needing care out of services. They 
have continued to serve the hardest to serve.
    To promote the stability of this system, we need you to 
clarify the intent of Congress in authorizing the GPD Program 
that homeless veterans with a discharge status other than 
dishonorable be eligible for services through the VA grant 
programs, GPD and SSVF. They alone have the expertise and 
ability to reach out and engage these veterans. Please help us 
to ensure that no veteran is screened out of needed services 
because of a legal interpretation that is divorced from the 
reality of our daily work and in opposition to the intent of 
this body.
    We also do need more efficient HUD-VASH case management. To 
improve case management, we encourage VA to rapidly increase 
the number of HUD-VASH case managers, both through hiring and 
through contracting out to community agencies.
    To ensure stability for the long-term, client choice cannot 
mean hands off. Housing first cannot be housing only. 
Maintaining function zero is as critical as getting there in 
the first place, and this requires long-term investment to 
ensure longevity. If cuts to GPD happen in 2016, current GPD 
Programs will either have to pull beds out from under veterans 
in need or VA will be forced to reduce per diem rates across 
the board to unsustainable levels that would severely restrict 
providers' ability to deliver quality services.
    Finally, we know that connection to employers and income 
enhances long-term housing stability for persons with a history 
of homelessness. For veterans who are leaving the streets, this 
connection to employment is the difference between 
reinstitutionalization and rehabilitation.
    The world of work encapsulated by the programs of DOL-VETS 
makes the connection between employers seeking laborers, the 
untapped unemployed, and the training that binds the two in a 
mutually beneficial relationship. Veterans who return to 
employment open up limited resources for the next veterans who 
need them.
    As we make progress, resources need to be redeployed, not 
withdrawn. This means that discharge status should not screen 
veterans out of GPD and SSVF. HUD-VASH should be effectively 
deployed and supported by better case management. GPD and SSVF 
must be robustly funded to be a critical component of the rapid 
re-housing continuum in every community. We have to better 
connect efforts to end homelessness to the world of work, and 
we could start with full funding of the HVRP Program.
    Veterans will, unfortunately, experience homelessness in 
the future, but what matters is how we invest now to ensure 
that homelessness is brief, rare, and non-recurring.
    I appreciate the opportunity to share these insights that 
we hear bubbling up from local communities. We at the National 
Coalition for Homeless Veterans and the agencies and veterans 
across the country that we represent thank you for your 
dedication to serving our Nation's homeless veterans. I am 
looking forward to your questions.
    [The prepared statement of Ms. Crone follows:]
        Prepared Statement of Baylee Crone, Executive Director, 
                National Coalition for Homeless Veterans
    Chairman Isakson, Ranking Member Blumenthal, and distinguished 
members of the Senate Committee on Veteran Affairs: Thank you for this 
opportunity to speak with you today. As the representative from the 
National Coalition for Homeless Veterans, I have the humbling 
opportunity to represent hundreds of community agencies across the 
country that are actively ending homelessness for thousands of veterans 
and their families each year. The organizations NCHV represents are 
transforming the lives of individual veterans, and importantly they are 
also transforming the systems that respond to the changing needs of 
homeless and at risk veterans in every community.
    I am here in part to offer praise and thanks for the blessings of 
change which have already occurred in the lives of tens of thousands of 
homeless veterans who used to walk our Nation's streets and call them 
home. This change is a testament to your dedication and hard work, to 
the dedication of partners within the Departments of Veterans Affairs 
(VA), Housing and Urban Development (HUD), and Labor (DOL), and to the 
commitment of the hundreds of community agencies they fund to provide 
services. But I also come with a charge, an urgent plea, to help us do 
more, better and faster, to serve homeless and at risk veterans.
    While much is working to soothe the wound of veteran homelessness, 
our work remains unfinished. To make progress toward our mission, we 
must see drops in the Point in Time (PIT) count, but that is not the 
only aspect of change we must see. We must see immediate engagement of 
services when a need arises and rapid response to those on the streets. 
We must empower community agencies to meet specific needs of individual 
veterans using targeted services through data-driven programs. The 
challenges remain daunting, but they are surmountable with close 
coordination of complementary programs on the local level. What we hear 
from the ground level gives us a better idea of what is working, and 
what remains left to be done.
                            what is working
    Across the country, our community organizations and VA partners are 
stepping in with a safety net and a hand up to self-sufficiency and 
independence. When we look at what is working, we see that more total 
veterans are being served, they are being served faster and more 
efficiently, and the interventions they are accessing are better able 
to meet their needs.
More Veterans Leaving Homelessness
    Looking at the 2014 PIT count shows us that on a single night in 
January, 49,933 veterans were homeless. This 33 percent decline since 
2010 is more than a statistic--it represents a real, measurable, 
downward trend in homelessness among veterans.
    This measure improves every year. Veteran homelessness dropped 10 
percent in one year, representing the steepest decline since veteran 
homelessness dropped 12 percent from 2010 to 2011. Homelessness among 
unsheltered veterans dropped 14 percent in one year, a greater than 40 
percent decline since 2009.
    While the PIT count presents a useful benchmark for tracking 
progress, it only shows part of the picture of who experiences 
homelessness throughout the year and who receives services from VA and 
other community programs.
    The VA's Supportive Service for Veteran Families (SSVF) program has 
served 138,538 veterans since it began, doubling its impact every year. 
This program has responded to the expanded need for services across the 
country by serving 34 percent of the Nation's homeless veterans in FY 
2014. The HUD-VA Supportive Housing (HUD-VASH) program has served over 
90,000 veterans since the program's inception, ensuring housing and 
services for the most vulnerable, chronically homeless veterans. Over 
90 percent have resulted in successful permanent housing. In 2014, GPD 
providers served 45,185 unique veterans. Another 45,000 homeless 
veterans will receive services in GPD in 2015, providing a critical 
connection point between the streets and sustainable housing stability.
Veterans are Served Faster and More Efficiently
    Since 2010, major programs ending veteran homelessness are moving 
faster to get veterans into housing. The momentum is on the side of 
change. For veterans identified by VA grantees, 80 percent moved out of 
unsheltered status in an average of 30 days.
    Of veterans exiting SSVF who received prevention assistance, 88 
percent exited to permanent housing in an average of 84 days. Those 
veterans who were homeless stayed in the program only slightly longer, 
at 102 days on average. This average continues to decline, with FY 2014 
length of stay averaging 91 days, even as the system targets those who 
are the most difficult to serve. Resources reach deeper into 
communities, with SSVF grantees serving 96 percent of the Nation's 
Continuums of Care and 67 percent serving at least one rural area. This 
sets in place a coordinated network of service that can serve as a 
safety net for retuning servicemembers who find themselves at risk in 
the years to come.
    Veterans in housing through HUD-VASH, especially those over 55, 
reduced their use of costly VA health care by 37 percent. In 
communities with DOL-VETS Homeless Veterans Reintegration Program 
(HVRP) grantees, homeless veterans are rapidly connected to gainful 
employment with a low per-veteran cost of under $3,000, proving 
programs can be effective and cost efficient.
Interventions Better Match Veteran Needs
    These significant drops and rapid changes are happening as 
community organizations and VA medical centers (VAMCs) have improved 
outreach and targeted services for those with the most significant 
barriers and special populations.
    Of those exited from the SSVF program in FY 2014, 80 percent 
achieve successful permanent housing. This program is serving those 
with high needs and low income, including target populations needing 
specific interventions. Fifty-five percent reported having a disabling 
condition and four in five had less than 30 percent of AMI when they 
came into the program. Fifteen percent were women veterans, and more 
than half were over 45 years of age. Importantly, 67 percent of 
veterans who exited to permanent housing went to housing with no 
subsidy.
    The Grant and Per Diem (GPD) program has improved connection to 
permanent housing and targeting of special populations. Reaching the 
VA's goal of 65 percent permanent housing placements, this program will 
continue to adapt to be part of the rapid re-housing continuum through 
a focus on bridge housing and transition in place models. Over seven 
percent of veterans served through GPD are women, a higher percentage 
than VA domiciliary programs or HCHV.
    The HUD-VASH program has also improved targeting. Over 11 percent 
of HUD-VASH vouchers went to women veterans in FY 2014, and 71 percent 
of veterans served were chronically homeless. At the Department of 
Labor, refocusing guidance for the Jobs for Veterans State Grants 
(JVSG) Disabled Veterans Outreach Program Specialists means that more 
veterans who are homeless have direct access to the Nation's large 
network of American Job Centers. Implementation of Job-Driven Training 
means that employment is informed by the local labor market and 
connected to marketable skills to build a career, not just a job.
    These numbers show us veterans are moving off the streets into 
permanent housing faster, in higher numbers, and with more appropriate 
interventions than ever before. However, the measure of our long-term 
success is truly the functionality of our service systems. The 
difference between chance change and sustained success, between a 
complicated web of programs and a coordinated net of service, is 
integrated systems. On this front, we have also made progress.
Systems are Changing
    For many years, limited resources and an overwhelming challenge 
created a structural disconnect between our message and our mission. 
Our message was a call for services to help veterans on the streets, 
while our mission called for a system that ended homelessness 
altogether. Basic human rights and meeting basic needs came first. Now, 
having a real end to veteran homelessness on the horizon has both 
expanded and consolidated the service system. Our message can stand up 
to the charge in our mission. We will end veteran homelessness through 
a crisis-response services system that focuses on rapid progression 
away from homelessness and toward long-term stability.
    As a community, we have developed a services spectrum that matches 
the needs of veterans in our care. On one end of the spectrum, veterans 
needing housing stability and community connectivity access light-
touch, short-term interventions. Prevention services offered through 
SSVF fit these veterans. On the other end, veterans with serious 
disabling conditions and chronic homelessness access intensive, longer 
term support. Housing subsidies with comprehensive case management from 
a multi-disciplinary team of care professionals fit these veterans. 
Appropriate interventions are often HUD-VASH or other permanent 
supportive housing.
    Between these two poles, we find many of the veterans who we will 
house in the remainder of 2015. These are the homeless veterans with 
moderate to intense service needs, who have challenges identifying 
appropriate and affordable housing, and who do not qualify for HUD-
VASH. They fall into a need category built around rapid rehousing. 
Serving them requires close coordination of local programs. They need 
help and the process to ensure sustained stability progresses along the 
spectrum between light-touch and high-intensity interventions. GPD 
often provides the bridge back into one's community, especially when it 
can follow a transition in place (TIP) model where the intensity of 
services fade as the need for those services decreases, resulting in 
permanent housing when the veteran can take over responsibility for 
that independent housing. SSVF can also factor into this middle section 
of the spectrum, providing short-term financial assistance for needed 
items like moving costs, security deposits, or child care services so a 
veteran can go back to work. HVRP steps into this section, providing a 
hand up to gainful employment and income stability to promote housing 
stability. We know from our work serving veterans who are homeless that 
each one of these programs provides a necessary and unique string in 
the fabric of stability. The programs do not duplicate, they 
coordinate.
Best Practices are Emerging
    We know that Housing First, when done correctly, works. It must 
include housing access, access to a broad spectrum of supportive 
services, and mandatory case management to be effective. We know that 
hosting master lists where we can see every veteran by name helps 
communities expedite and target services to those most in need. We know 
that including specialists, like Housing Specialists and Peer 
Navigators, deepens the impact of every staff member on a team. We know 
that a team approach and coordinated case management meetings improve 
outcomes.
    In many ways, future efforts to end all homeless will benefit from 
the challenges and failures we have encountered in our work to end 
veteran homelessness, but we are learning what works and doing our best 
to magnify that impact in all communities where veterans find 
themselves in need. The message is changing from homeless maintenance 
to a crisis response system. Some communities are getting there, 
proving it can be done. Many more are on target, and able to track 
their progress. Others are slightly behind but learning aggressively 
and leaning heavily on their community partners.
                        what still must be done
    Although we can see much progress, our work is far from finished. 
As a community, we must dedicate ourselves to fostering housing 
stability for those who move off the streets, supporting the longevity 
of programs to meet future need, and ensuring self-sufficiency through 
connection to the world of work.
Fostering Stability
    Fostering long-term stability requires that we stabilize the 
eligibility requirements for GPD and SSVF and improve both the reach 
and case management of the HUD-VASH program.
    Before national attention focused in on veteran homelessness, the 
community we represent stepped in to offer a hand up to all who wore 
the uniform of this country, They pulled veterans in and opened a door 
to recovery, irrespective of race, creed, age, period of service, 
sexual orientation, gender, or discharge status. They screened in to 
maximize impact, and have done so for over 20 years. With a national 
spotlight on their work, this community network has done what you have 
asked: they've served more veterans, more efficiently and effectively, 
without screening out veterans needing care. They have continued to 
serve the hardest to serve.
    To promote the stability of this system, to let these agencies 
continue to do what you've asked them to do, we need you to clarify the 
intent of Congress in authorizing the GPD program that homeless 
veterans with a discharge status other than dishonorable be eligible 
for services through the VA grant programs GPD and SSVF. These programs 
have always served these veterans; they alone have the expertise and 
ability to reach and engage them. Help us ensure no veteran is screened 
out of needed programs because of a legal interpretation divorced from 
the reality of our daily work and in opposition to the intent of this 
legislative body.
    A veteran who moves into a home is only successful if he can remain 
stable in that home for the long-term. This means we still need 
additional HUD-VASH vouchers. While the President's budget alludes to 
national saturation of this resource, national saturation does not mean 
local distribution has been perfect. Additionally, these vouchers can 
be leveraged to develop new affordable housing in areas of high need 
with low vacancy rates. However, some communities with chronically 
homeless veterans do not have access to the resource intended to serve 
them.
    We also need more effective HUD-VASH case management. VAMCs cycle 
quickly through VASH case managers who are inexperienced and rarely 
stay in the job for more than a few months before leaving for other 
opportunities. These chronic vacancies lead to high case loads for the 
case managers who remain, leading to burnout and disengagement with the 
welfare of veterans they serve. To improve case management, NCHV 
encourages VA to rapidly increase the number of HUD-VASH case managers 
through contracting out to community agencies and expediting hiring of 
permanent VA positions. This case management must provide continuity of 
care, be a well-paid job, be filled with candidates qualified through 
experience as much as through degrees, and include smaller caseloads so 
no veteran is left behind.
    To ensure stability for the long term, client choice cannot mean 
hands off. Housing First cannot be Housing Only. We need to assess time 
in housing but also perceived quality of life as measured through 
access to preventive medical care and social connectivity. HUD-VASH is 
not re-institutionalization for the sake of cleaner streets, this is 
reintegration for the cause of human dignity.
Promoting the Longevity of Service Systems
    The evolving landscape of veteran needs demands that the work does 
not end, especially for community agencies on the front lines. In rural 
areas where aging veterans on fixed incomes are at high risk, our 
agencies are there to fix roofs and fill out Medicaid applications. In 
urban cities where young veterans move between multiple deployments, 
instability is thwarted by job clubs and ``Battle Buddies.'' In towns 
and cities across the country where transitioning servicemembers find 
themselves jobless, hopeless, and without support, our community 
agencies will be there with a hand up for years to come. In the coming 
years, over 40,000 veterans will transition back to civilian world 
every year. Some of these veterans will be low income and will need our 
care and support. The longevity of our impact requires a continued 
investment in the community, through and beyond 2015.
    Maintaining these local support structures requires long-term 
investment in peer-based outreach systems, transition points to bring 
veterans off the streets, and landlord liaisons to help open up 
affordable housing access. The GPD program provides these critical 
elements and much more in local communities across the country. 
Unfortunately, the President's budget institutes a premature 
disinvestment in resources when they are needed most. If these cuts 
happen in 2016, current GPD programs will either have to pull beds out 
from under veterans in need, or VA will be forced to reduce per diem 
rates to unsustainable levels that would severely restrict providers' 
ability to deliver quality services. Flat-lining of the SSVF program's 
funding will hamper this program's ability to reach deep into areas of 
need in the years to come. Without the needed $500 million investment 
for the long term, community agencies will be unable to stymie the wave 
of homeless risk surging into communities as servicemembers demobilize. 
These organizations are flexible and responsive, but they already do 
much with little.
    If these cuts happen, an increased demand for care will meet 
decreased community referral options. Next year, by VA estimates, 
demand for VHA health care services by all veterans will increase by 10 
percent and demand for mental health services by homeless veterans will 
increase 37 percent. As the numbers accessing VAMC medical care 
continue to grow, we will see increased, not decreased, need for local 
community referrals for homelessness prevention and rapid re-housing 
services. The connection point between the VAMC providing medical care 
and the community agencies providing homeless and prevention services 
is the safety net that will prevent homelessness after 2015.
    Some veterans suffering from Traumatic Brain Injury, military 
sexual trauma, and other compounding, disabling conditions will 
inevitably fall into homelessness after 2015. Reinstating GPD funding 
at 2015 levels and pushing SSVF funding to $500 million ensures brick-
and-mortar bridges out of homelessness. By pushing these reinstated 
funds back into the community, VA can fund bridge housing in 
communities with a high need for transitional housing or allow for 
facility upgrades to meet the safety and security needs of women 
veterans, veterans with chronic mental health issues, and aging and 
disabled veterans--all rapidly growing populations. Redeploying these 
resource to high-need areas and allowing flexibility in program 
structure to encourage the creativity systemic to these agencies will 
ensure that GPD programs capitalize on expertise in outreach, case 
management, and landlord engagement to make homelessness brief and non-
recurring.
    In communities that have reached functional zero, social service 
workers have not slowed down. Maintaining functional zero is as 
critical as getting there in the first place, and it requires long-term 
investment to ensure longevity. VA's investment in VA employees and 
structures is promising, but the long-term investment in the community 
agencies on the front lines is an investment in a promise that has been 
fulfilled every day for over 20 years.
Enhancing Self-Sufficiency
    Recent research has shown us that connection to employment and 
income enhances long-term housing stability for persons with a history 
of homelessness. Stability and longevity are tied to self-sufficiency, 
and self-sufficiency through employment is the hand up to community 
connectivity and purpose. For veterans who are leaving the streets, 
this connection to employment is the difference between re-
institutionalization and rehabilitation.
    Luckily, we know what works. Veterans who are homeless or at risk 
must be connected to the employment system of the Department of Labor. 
The Department of Labor is the only agency that utilizes community 
agencies to successfully connect homeless veterans to gainful, 
competitive employment. Each year, the 153 HVRP grantees work with over 
15,000 homeless veterans to connect them to training, employment, and 
the supportive services that set them up for long-term self-
sufficiency. Incredibly, this program promises at least a 65 percent 
placement rate with a cost per placement under $3,000 per veteran and 
is tied directly into the Nation's workforce system through connection 
to the American Job Centers (AJCs). Veterans who are homeless, 
especially those with disabilities, face considerable personal, 
institutional, and relationship barriers to competitive employment. The 
HVRP program helps veterans overcome these barriers and succeed in the 
competitive labor force.
    Unfortunately, this pivotal program is chronically underfunded. If 
fully funded to match the surge of other community-based homeless 
programs like SSVF, we would open the door to self-sufficiency for tens 
of thousands of homeless veterans right now. Addressing unemployment 
while addressing homelessness can magnify positive outcomes and address 
risk factors precipitating homelessness.
    Disabled individuals are often the last hired and the first fired 
when the economy expands and contracts, a reality with devastating 
consequences for the high percentage of homeless veterans with a 
disability. Minority homeless veterans face compounded challenges; 
African Americans are overrepresented in both the homeless veteran 
population and the ranks of the long-term unemployed. Some homeless 
veterans fall out of focus because they have been unemployed for so 
long. Too many veterans over 55 are homeless and are statistically 
outside of the active labor force due to chronic unemployment.
    The world of work encapsulated by the programs of DOL-VETS makes 
the connection between employers seeking laborers, the untapped 
unemployed, and the training that binds the two in a mutually 
beneficial relationship. Veterans who return to employment open up our 
limited resources for the next veterans who need them. They become 
tomorrow's managers, mentors, and peers. They prevent recidivism into 
homelessness. They help decrease incarceration. If we want stable and 
long-lasting change for veterans who are homeless or at risk, we must 
aggressively open up the world of work. Every person, including 
homeless and at risk veterans, including veterans of any age, race, 
disability status, or gender deserves an opportunity to seek out self-
sufficiency.
                         where we go from here
    The national decline in veteran homelessness since 2009 is without 
precedent. The success we have seen to date, and our future success 
relies on the strengths of VA's front lines--the community providers 
that fight the daily battle to do more, better and faster. The momentum 
is on the side of rapid change, and we are closer than ever to 
achieving our mission of effectively ending veteran homelessness. 
However, ending veteran homelessness is not a moment; it is a moving 
target.
    As the number of veterans on the street and in temporary shelter 
goes down, we will need to be more, not less, diligent in ensuring that 
we provide a hand up to those who remain on the street and find 
themselves at high risk. We will end veteran homelessness, but reaching 
that benchmark happens when the systems in place are ready and able to 
immediately meet a veteran's needs should he fall into homelessness or 
be at high risk. As we make progress, resources will need to be 
redeployed, not withdrawn.
    If we truly want a sustained end to veteran homelessness, we need 
to fully utilize all of the resources we have as efficiently as 
possible. This means that discharge status should not screen veterans 
out of GPD and SSVF. HUD-VASH should be effectively deployed and 
supported by better case management services. GPD and SSVF must be 
robustly funded to be a critical component of the rapid rehousing 
continuum in every community blessed with these vital resources. We 
have to better connect efforts to end homelessness to the world of 
work, and we can start with full funding of the HVRP program. Given the 
flexibility to evolve, these tools will continue to offer a bridge to 
stability for tens of thousands of vulnerable veterans moving forward. 
Veterans will unfortunately experience homeless in the future; what 
matters is how we invest now to make sure homelessness is brief, rare, 
and nonrecurring.
S. 1731, the ``Homeless Veterans Services Protection Act of 2015''
    Since the creation of the Grant and Per Diem program in 1992, the 
homeless veterans' services that the Department of Veteran's Affairs 
has provided have not been tied to healthcare eligibility. This 
includes the Special Needs grants, and Supportive Services for Veteran 
Families programs that were added to the continuum of care in later 
years. It has been VA policy for nearly 25 years to serve those most in 
need, regardless of their discharge status--as long as the 
servicemember was not given a dishonorable discharge. This was the 
intent of Congress at the time, and was further based on a 1994 ruling 
by the VA's Office of General Counsel.
    In 2014, this policy was thrown into confusion during a routine 
review of a program handbook, and led to a moratorium, and then 
subsequently to a rescission of that moratorium, on serving veterans 
with an ``Other Than Honorable'' discharge. This policy is still under 
review by the VA. Following a recent Office of the Inspector General 
report, it was brought to light that there was still confusion in the 
field among GPD providers, and a new legal opinion has been promised by 
November of this year.
    S. 1731 would maintain the status quo, reaffirm the original intent 
of Congress, and protect the eligibility for homeless services of those 
veterans with other than Dishonorable discharges who desperately need 
assistance. Furthermore, S. 1731 removes the requirement that a veteran 
serve in the military for two years in order to be eligible for these 
three VA homeless programs, and would direct the VA to properly train 
the field on serving these veterans.
    Significantly, this legislation would not extend eligibility for 
these programs to those who received dishonorable discharges, nor to 
those who were discharged following courts-martial. Neither would this 
legislation extend any benefits (including healthcare, pensions, or any 
other veteran's benefits) to these veterans, other than access to the 
GPD, Special Needs, and SSVF programs.
    As we reach the end of the Five-Year Plan to End Veteran 
Homelessness, it is increasingly important that we retain the ability 
to serve homeless veterans with ``Other Than Honorable'' discharges. 
Despite the relative infrequency with which veterans receive this 
discharge type, those who do receive one make up 15% of the homeless 
veteran population across the country. In some urban locales, that 
number can be as high as 30% of the area's population of homeless 
veterans. The loss of the ability to serve these veterans would 
constitute an unnecessary roadblock on our charge to end veteran 
homelessness.
    This legislation is needed to ensure that we can end veteran 
homelessness across the country, it codifies nearly 25 years of best 
practices, and it does not change the cost of the VA homeless programs. 
NCHV expresses the strongest support for S. 1731, and urges the Senate 
to pass this crucial legislation to ensure that we meet our goal.
The ``Veteran Housing Stability Act of 2015''
    This bill, while not yet introduced at the time of writing, would 
address a number of concerns that face homeless veteran service 
providers, either through head-on fixes or through exploratory pilot 
programs. These problems include outdated definitions, a lack of 
resources to ensure the permanent housing stability of some veterans, 
ease of identifying landlords who will rent to formerly homeless 
veterans, and heavy administrative burdens to change.
    Likewise, the VA faces its own issues as it pushes to end veteran 
homelessness. It is saddled with an out dated grant structure that is 
resistant to changing circumstances, an impermanent think tank on 
veteran homelessness, and a heavy cost burden by certain homeless 
veteran ``healthcare super-utilizers.''
    Homeless veteran service providers are often faced with 
definitional issues that decide who they can and cannot help off the 
streets because the McKinney-Vento definition of homelessness was 
updated several years ago, without the VA definition being updated 
alongside it. As such, veterans fleeing domestic violence are being 
turned away from certain programs that are not authorized to help them. 
This legislation would update the definition.
    Service providers who operate transitional housing are limited in 
what they can do for veterans after they leave their facilities by the 
method in which VA funds those programs. Because GPD programs are 
reimbursed on a per diem system, the VA cannot fund activities called 
``follow up case management'' that support the veteran after s/he has 
transitioned to permanent housing. This can have an effect on the 
success of the veteran, and always hampers the tracking of that 
success. This bill would create a grant program to fill this gap.
    The VA has provided millions of dollars in grant funds to create 
physical spaces where service providers can provide homeless veterans 
with transitional housing services. The VA also believes that in some 
of these communities, the need for these services is dwindling as we 
approach the end of the Five-Year Plan. In all communities, the need 
for permanent housing is acute. Therefore, some GPD providers would 
like to turn their transitional housing beds into permanent housing for 
formerly homeless veterans. However, because of grant obligations and 
real estate re-capture provisions they are simply unable to make that 
change. This legislation provides a pathway for service providers to 
make that change, and continue to serve veterans in need in a new 
environment.
    The National Center for Homelessness Among Veterans (NCHAV) has 
been undeniably critical to the successes that we have seen in the 
movement to end veteran homelessness. Working with their academic 
partners the NCHAV has been conducting research and using the resulting 
data to drive VA policy changes since the Center's inception in 2009. 
The National Center ensures that our policies are effective at ending 
veteran homelessness, as well as cost-effective; their work helps to 
ensure that every dollar spent is used to the fullest, to save veterans 
from living on the streets. Currently, the NCHAV is not specifically 
authorized and is funded at the discretion of the Secretary of the 
Department of Veterans Affairs. This legislation would ensure that this 
think tank exists into the future, so that the Federal Government never 
allows an epidemic of veteran homelessness to occur, ever again.
    One of the other large issues facing the VA today is the heavy 
burden of certain homeless veteran ``healthcare super-utilizers.'' This 
legislation proposes a pilot program to provide intensive case-
management to these veterans--assisting them with housing stability, 
healthcare utilization, and benefits--that is designed to help the VA 
lower their overall cost of care. Should it prove effective, this would 
benefit not only the VA's bottom line, but the health and quality of 
life of many chronically ill homeless veterans.
    NCHV strongly supports the Veteran Housing Stability Act, both for 
its provisions and for the important issues it brings to the forefront 
of discussion. We urge the Senate pass this legislation.
                               conclusion
    A few weeks ago, we celebrated the 25th Anniversary of the passage 
of the Americans with Disabilities Act. That pivotal piece of 
bipartisan legislation told persons with disabilities you have value in 
the workforce, you have a voice in this democracy, and you have a 
responsibility to be visible, vocal, and engaged in your community. The 
epochal shift of that tide for persons with disabilities was 
unprecedented. A social change movement pushed up from local 
communities, and national partners were brave enough to act.
    Here, 25 years later, we face a different yet comparable 
opportunity. Twenty five years from now, will we look back on this year 
as the time when we said to the least of these, our Nation's homeless 
veterans: you no longer need to hide in the shadows, sleeping in 
doorways? Those who served this great national deserve to be part of 
her economy and her communities. Will we push ourselves to do what is 
right by saying that hidden is not forgotten, housed out of the public 
view is not reintegrated, functional zero is not final zero? We must 
continue to act with vigilance, with a nearly frantic ferocity and 
obsessive dedication to nothing short of perfection.

    Thank you for the opportunity to share the insights I have seen 
bubbling up from local communities. We at the National Coalition for 
Homeless Veterans and the agencies and veterans across the country we 
represent thank you for your dedication to bravery and social change 
for our Nation's veterans.

    Chairman Isakson. Thank you for your testimony, Ms. Crone.
    Mr. Powers.

  STATEMENT OF EDWARD POWERS, EXECUTIVE DIRECTOR, HOPE ATLANTA

    Mr. Powers. Thank you, sir. Let me start by thanking 
Senator Isakson for the opportunity to address the Committee 
today. As a service provider, CEO, and as a Vietnam veteran, I 
am grateful for the SSVF funding that allows HOPE Atlanta to 
help my fellow veterans in ways we could not otherwise afford.
    Because Georgia has the fifth-highest percentage of 
unsheltered homeless veterans in the country, these funds are 
incredibly helpful to those of us working with the VA to get 
our former warriors stably housed. There are four social 
service agencies in the Metro Atlanta area currently receiving 
SSVF funds. Of these providers, HOPE Atlanta receives the most 
funding, covers the largest geographic area, and services the 
most homeless veterans.
    Since the SSVF Program began, we have learned a lot and 
have had some great successes, but challenges remain. I will 
start by telling you about the challenges, some of which can be 
fixed with funding. Others are more complicated and time 
consuming to fix, even with additional funding.
    First, the numbers are large and the solutions are 
individual and often complicated. As we implement the program, 
HOPE Atlanta faces the following regional challenges: A lack of 
affordable housing, a lack of adequate public transportation, a 
lack of appropriate employment opportunities that pay a living 
wage. For the chronically homeless segment of the veterans' 
population, there are the added challenges of PTSD and other 
mental health and/or addiction issues.
    As we have heard today, by HUD's own estimates, almost 
50,000 veterans are at any time homeless in our Nation, and HUD 
also estimates that an additional 1.4 million veterans and 
their families are considered at risk of homelessness. No SSVF 
Program, including HOPE Atlanta, has the resources to address 
this potential volume of sustained and long-term demand for our 
services without the continued and increased commitment by this 
and future administrations in support of veterans and their 
families.
    Finally, in order to help the VA reach their functional 
zero goal by the end of this year, we need an employment 
specialist. You have heard about that from others, both on the 
first panel and on this panel. We also need to add a staff 
person who is trained through the SSI-SSDI Outreach Access and 
Recover Program, known as SOAR, to work specifically with our 
disabled veterans. SOAR-trained benefits specialists have a far 
higher success rate than those without this training, 65 
percent versus 27 percent. They also have a significantly 
faster decision rate than non-SOAR-trained staff do.
    Currently, there is no funding for these positions, and 
with more than 2,000 unduplicated calls each year from veterans 
in the Atlanta area requesting HOPE's help through the SSVF 
Program, there is no way to meet their needs as current funding 
stands.
    Successes: One-third of HOPE Atlanta's SSVF team are 
veterans. They have been great assets to the program and have 
fundamentally contributed to our successes.
    We are pleased to say that the VA holds regional meetings 
and national conference calls to facilitate training and 
exchanges for what does work for all SSVF providers. This has 
resulted in greater flexibility in providing program services.
    In Atlanta, the VA's Community Resource and Referral Center 
(CRRC) at Fort McPherson provides a one-stop shop for homeless 
veterans. Having staff there 5 days a week has been critical to 
our success. Since 2012, 80 percent of the veterans in our SSVF 
Program have exited to permanent housing.
    Our PATH outreach team, the most successful one in the 
metro area, engages and builds relationships with chronically 
homeless veterans on the streets and under the bridges and 
connects them to housing, medical, and mental health services. 
Besides our three full-time staff at the CRRC, HOPE Atlanta has 
established and staffed six other office sites to provide SSVF 
services to veterans in 15 counties across our region.
    We are also pleased to report that we have a strong 
relationship with the Atlanta VA, which has reached out to us 
for assistance to place homeless veterans with large families, 
veterans with serious criminal background problems, etc., and 
we have been able to place and case manage them. We have also 
been pivotal in doing presentations in the community, making 
the community at large aware of the services provided by SSVF.
    HOPE Atlanta is part of five of the nine continuum of care 
groups in Georgia, which is an asset in assisting the VA in 
reaching hard to serve homeless veterans in rural conditions.
    SSVF is a program for veterans, and veterans are, after 
all, individuals. Let us talk for a moment about a particular 
veteran and his family who are in a far different place today 
than they were when we first met them.
    Joe is a Vietnam-era veteran in his late 50s. He was 
injured while serving for 3 years in the Army and received a 
medical discharge. After the Army, he got married, raised a 
family, and worked many different jobs, never letting the loss 
of one job keeping him from finding another, until he was laid 
off in 2014 and simply could not find another one. With no 
income, he, his wife, and the granddaughter they were raising 
lost their home. The three of them lived in their car while Joe 
continued to seek employment.
    Because of his veteran status, the Department of Labor 
referred him to us and things began to turn around. We found an 
apartment for the family and provided 5 months of rental 
assistance while he continued to look for work every day. He 
never gave up, never lost hope, while submitting more than 300 
job applications. This sort of rejection takes a toll on a man, 
and he persevered, and along with our staff case manager at his 
side, he finally was offered a great job with a gas company and 
is proudly supporting his family on his own.
    It is such stories as Joe's that keep us in the trenches, 
helping as many veterans as we can. It is SSVF funding that 
supports this important work. Thank you for continuing to 
support this program and the U.S. veterans who need us, and 
thank you for all you do for people in Georgia, Senator 
Isakson.
    [The prepared statement of Mr. Powers follows:]
 Prepared Statement of Edward Powers, Executive Director, HOPE Atlanta
    Let me start by thanking Sen. Isakson for the opportunity to 
address the Committee today. As a service provider, CEO, and as a 
Vietnam Veteran, I am grateful for the SSVF funding that allows HOPE 
Atlanta to help my fellow veterans in ways we could otherwise not 
afford. Because Georgia has the 5th highest percentage of unsheltered 
homeless veterans in the country, these funds are incredibly helpful to 
those of us working with the VA to get our former warriors stably 
housed.
    There are 4 social service agencies in the Metro Atlanta area 
currently receiving SSVF funds. Of these providers, HOPE Atlanta 
receives the most funding, covers the largest geographic area and 
services the most homeless veterans. Since the SSVF program began, we 
have learned a lot and had some great successes, but challenges remain.
    I'll start by telling you about the challenges, some of which could 
be fixed with more funding while others are more complicated and time 
consuming to fix even with more funding.
    First, the numbers are large and the solutions are individual and 
often complicated. As we implement the program, HOPE Atlanta faces the 
following regional challenges:

    <bullet> A lack of affordable housing
    <bullet> A lack of adequate public transportation
    <bullet> A lack of appropriate employment opportunities that pay a 
living wage

    For the chronically homeless segment of the veteran's population 
there are the added challenges of PTSD and other mental health and/or 
addiction issues.
    Second, according to a report in US News, in 2014 there were 21.8 
million veterans in the US. By HUD's own estimates, almost 50,000 at 
any one time are homeless in our Nation. HUD estimates that another 1.4 
million veterans and their families are considered at risk of 
homelessness. No SSVF program, including HOPE Atlanta's, has the 
resources to address this potential volume of sustained and long term 
demand for our services without the continued and increased commitment 
by this and future administrations in support of veterans and their 
families.
    Finally, in order to help the VA reach their functional zero goal 
by the end of this year, HOPE should add an employment specialist. We 
can't change the lack of employment opportunities that pay a living 
wage, but an employment specialist would help us find some of the jobs 
there are and connect the veterans to them. We also need to add an 
employee who is trained through the SSI/SSDI Outreach, Access and 
Recover Program (SOAR) to work specifically with our disabled veterans. 
SOAR trained benefits specialists have a far higher success rate than 
those without this training (65% versus 27%). They also have a 
significantly faster decision rate than non-SOAR trained staff do. We 
can't change the lack of affordable housing but a dedicated SOAR 
specialist could help us get more stable SSI/SSDI benefits for our 
veterans which would help keep them stably housed.
    Currently there is no funding for these positions and with more 
than 2000 unduplicated calls each year from veterans requesting HOPE's 
help through the SSVF Program, there is no way to meet their needs as 
current funding stands.
    So much for the challenges. Let's move on to our SSVF Program 
successes! One third of HOPE Atlanta's SSVF team are veterans. They 
have been great assets and have contributed to our success enormously. 
Also contributing to our success:

    <bullet> The VA regional meetings and national conference calls to 
facilitate training and exchanges for what's working for all the SSCF 
providers that resulted in greater flexibility in providing program 
services.
    <bullet> The VA's Community Resource and Referral center at Fort 
McPherson (CRRC) which provides a one stop shop for veterans. Having 
staff there 5 days a week has been very helpful to our success.

    Some specific successes include the following:

    <bullet> Since October 2012 through July 13, 2015, 80% of the 
veterans in our SSVF program exited into permanent housing.
    <bullet> HOPE Atlanta's PATH Outreach team, the most successful 
PATH team in the Metro region, has reached, engaged and built 
relationships with chronically homeless veterans on the streets and 
under the bridges and connected them to housing, medical and mental 
health services.
    <bullet> Besides our three full time staff at the CRRC located at 
Fort McPherson, HOPE Atlanta has established and staffed 6 other sites 
to provide SSVF services to veterans in 15 counties across our region. 
These have contributed greatly to our success.

    I've now regaled you with the challenges and successes of HOPE 
Atlanta's SSVF program. What I've focused on has necessarily been a 
broad overview. But SSVF is a program for veterans, and veterans are, 
of course, individuals. So let's talk for a moment about a particular 
veteran and his family who are in a far different place today than they 
were when we first met them. This is the sort of story that keeps those 
of us at HOPE Atlanta going, day in and day out, working with difficult 
clients in difficult situations and wondering if all our hard work 
really matters, wondering how much longer we can keep on slogging away 
in these particular trenches * * * and then getting up the next day to 
do it all over again.
    Joe is a Vietnam era veteran in his mid-fifties. He was injured 
after serving for three years in the Army and received a medical 
discharge. After leaving the Army, he married, raised a family and 
worked many different jobs, never letting the loss of one job keep him 
from finding another, until he was laid off in 2014 and simply couldn't 
find another one. With no income, he and his wife and the granddaughter 
they were raising, lost their home. The three of them lived in their 
car while Joe continued to seek employment. Because of his veteran 
status, the Department of Labor referred him to HOPE Atlanta and things 
finally began to turn around. We found an apartment for the family and 
provided 5 months of rental assistance while he continued to look for 
work every day. He never gave up, never lost hope while submitting more 
than 300 applications for work. This sort of rejection takes a toll on 
a man, but Joe persevered, with his HOPE Atlanta case manager at his 
side, until finally--FINALLY!--he was offered a great job with a gas 
company. He's now proudly supporting his family on his own.
    It's stories such as Joe's that keep us in the trenches, helping as 
many as veterans as we can. It's SSVF funding that supports this 
important work. Thank you for continuing to support this program and 
the US veterans who need us.

    Chairman Isakson. Thank you, Mr. Powers, very much.
    Mr. Steele.

 STATEMENT OF JEFF STEELE, ASSISTANT LEGISLATIVE DIRECTOR, THE 
                        AMERICAN LEGION

    Mr. Steele. Chairman Isakson, Ranking Member Blumenthal, 
and distinguished Members of the Committee, on behalf of 
Commander Helm and the over two million members of The American 
Legion, we thank you and your colleagues for conducting this 
hearing and recognizing the importance of dealing with the 
struggles of homeless veterans.
    At The American Legion's 2009 national convention, then-
Secretary of Veterans Affairs Eric Shinseki laid out one of the 
most ambitious aspirational goals in the history of this 
Nation's campaigns to care for veterans. Not merely content to 
reduce the number of homeless veterans, Secretary Shinseki 
called for an end to veterans' homelessness by 2015. Shinseki 
told the crowd, quote, ``No one who has served this Nation 
should ever find themselves living without care and without 
hope.'' Later that year, the Department rolled out an ambitious 
5-year plan to end homelessness among veterans.
    It is now 2015, the target year, and important strides have 
been made. For those numbers to continue to fall, we must 
continue on the path VA has set and continue to utilize the 
resources of the entire community.
    At the Federal level, Congress maintains the power of the 
purse and, therefore, is critical to ensuring the success of 
the programs they are responsible for funding, such as the 
Grant and Per Diem Program, the Supportive Services for Veteran 
Families Program, HUD-DASH vouchers, and the Homeless Veterans 
Reintegration Program.
    With regard to the latter, the Senate also needs to take up 
and pass S. 425, the Homeless Veterans Reintegration Programs 
Reauthorization Act, the companion bill, which passed in the 
House in May. This legislation reauthorizes for five additional 
years, through 2020, this critical program within the 
Department of Labor's Veterans Employment and Training 
Services.
    Solving veterans' homelessness is not something the Federal 
Government can do alone, though, and we recognize that. The 
American Legion has taken a leadership role within local 
communities by volunteering, fundraising, and advocating for 
programs and funding for homeless veterans. Additionally, The 
American Legion provides housing for homeless veterans and 
their families in some areas, such as Connecticut and 
Pennsylvania.
    One of the goals of The American Legion is to help bring 
Federal agencies, nonprofit, and faith-based organizations and 
other stakeholders to the table to discuss best practices along 
with funding opportunities so homeless veterans and their 
families can obtain the necessary care and help in order for 
them to properly transition from the streets and/or shelters 
into gainful employment and/or independent living.
    Sometimes, it does not take much. A local shelter for 
homeless veterans in Pittsburgh, Pennsylvania, for example, 
noted that their entire budget for mattresses each year comes 
out of small donations made by the local post of The American 
Legion. This is not a large-scale program with hundreds of 
thousands of dollars in operating costs, but this is just one 
example of how, on a local level, even small donations can make 
a tremendous impact. Through thousands of small interactions in 
every community across this country, stakeholders can build on 
each other's efforts.
    VA has done a tremendous job on a national level providing 
leadership, but much of the work at the local level will depend 
on the interaction of these community partnerships. Due to our 
work with homeless veterans and their families, The American 
Legion understands that homeless veterans need a sustained, 
coordinated effort that provides secure housing, nutritious 
meals, essential physical health care, substance abuse after-
care, and mental health counseling, as well as personal 
development and empowerment. Veterans also need job assessment, 
training, and placement assistance. The American Legion 
believes all programs to assist homeless veterans must focus on 
helping veterans reach their highest level of self-management.
    In conclusion, The American Legion strongly believes that 
Congress, VA, and other stakeholders must continue to invest in 
the progress that has been made and remove any barriers 
remaining to housing for veterans. By helping to provide the 
necessary resources, this Nation can finally end this scourge 
of veterans' homelessness.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Steele follows:]
  Prepared Statement of Jeff Steele, Assistant Director, Legislative 
                     Division, The American Legion
    At The American Legion's 2009 National Convention, then Secretary 
of Veterans Affairs Eric Shinseki laid out one of the most ambitious 
aspirational goals in the history of this Nation's campaign to care for 
veterans. Not merely content to reduce the number of homeless veterans, 
Secretary Shinseki called for an end to veteran homelessness by 2015, 
completely eliminating the scourge. Shinseki told the crowd ``No one 
who has served this Nation should ever find themselves living without 
care--and without hope.'' By November of that year the Department of 
Veterans Affairs had rolled out their ambitious ``Five Year Plan to End 
Homelessness Among Veterans.''
    In the midst of 2015, the target year, amazing strides have been 
made. According to last year's assessment, the numbers have dropped 
substantially. On a single night in January 49,933 veterans experienced 
homelessness.\1\ That number is nearly 15 percent below the previous 
year, and a full 33 percent lower than statistics in 2010, and the 
numbers are going to drop lower.
---------------------------------------------------------------------------
    \1\ VA 2014 Point-In-Time Count
---------------------------------------------------------------------------
    While it remains possible, even probable, that from time to time 
there will be veterans who fall in and out of homelessness, a state 
where veteran homelessness achieves ``functional zero,'' an equilibrium 
state where the number of veterans experiencing homelessness is no 
greater than the currently monthly housing placement rate for veterans, 
is still possible in the near future, provided we continue on the path 
VA has begun, and continue to utilize the resources of the entire 
community.
    Chairman Isakson, Ranking Member Blumenthal and distinguished 
Members of the Committee, on behalf of Commander Helm and over two 
million members of The American Legion, we thank you and your 
colleagues for conducting this hearing and recognizing the importance 
of dealing with the struggles of homeless veterans.
    The American Legion believes we can reach functional zero by 
continuing the path VA has embarked upon with their Five Year Plan, 
ensuring funding levels are not diminished as progress is being made, 
and by increasing the work done to build partnerships by all 
stakeholders in the community.
                          va's five year plan
    VA developed a five-year plan to assist every homeless veteran 
willing to accept services retain or acquire: safe housing; needed 
treatment services; opportunities to retain or return to employment; 
and benefits assistance. Additionally, VA started a prevention 
initiative--the Supportive Services for Veterans and Families (SSVF) 
Program, which is designed to help veterans and their families rapidly 
exit homelessness, or avoid entering homelessness. SSVF is the only 
national, veteran-specific program designed to help at risk veterans 
avoid becoming homeless. The SSVF program provides grants to community-
based non-profit organizations and is helping connect very low-income 
veterans and their families with services in the community.
    This is a critical program because it focuses on ``at risk'' 
veterans, a cohort ten times the size of the actual homeless veteran 
population. This is critical because it has the ability to serve 
veterans before they are forced to the streets. The work of SSVF as a 
component of VA's Five Year Plan has been highly successful, ensuring 
the number of homeless veterans has continued to drop as homeless and 
at-risk veterans have been directed to housing solutions.
                        maintaining the funding
    Tremendous progress has been made in reducing the numbers of 
homeless veterans, but that progress could be lost if funding is 
reduced as the focus fades away from the mission at hand. One of the 
most critical tools has been the use of Housing and Urban Development--
Veterans Affairs Supportive Housing (HUD-VASH) vouchers. Through FY 
2015, HUD has awarded more than 78,000 HUD-VASH vouchers. Nationwide, 
more than 300 Public Housing Authorities (PHAs) have participated in 
the program. Recently, Congress created a set-aside pilot program to 
encourage HUD-VASH vouchers to be used on tribal lands, thereby filling 
an important gap in our service delivery system. It's essential that 
funding for these vouchers continue as VA continues its work to get 
veterans off the streets. The Grant and Per Diem Program (GPD) provides 
``Capital'' and ``Per Diem'' grants and the Capital grants provide up 
to 65 percent of the costs to acquire, renovate and construct 
facilities for homeless veterans. These grants also see use for 
transportation needs, providing community vans and other aids to 
outreach functions.
    The Homeless Veterans Reintegration Program (HVRP) within the 
Department of Labor's Veterans Employment and Training Services (DOL-
VETS) addresses one of the challenges homeless veterans face--finding 
and maintaining gainful employment. This program requires relatively 
small investment, but potentially provides great dividends, by 
increasing the ability of homeless veterans to integrate back into 
society and provide meaningful impact in their communities. Although 
unemployment has fallen somewhat among veterans in recent years, it 
remains a concern. Keeping veterans in meaningful employment is a 
critical step toward keeping veterans off the streets.
    Congress maintains the power of the purse, and therefore is 
critical to ensuring the success of these programs. The American Legion 
urges Congress to maintain the funding levels for these critical 
programs:

    <bullet> Continue to fund the Grant and Per Diem (GPD) Program at 
$250 million and SSVF at no less than $500 million through the maturity 
of the five-year plan (FY 2015).\2\
---------------------------------------------------------------------------
    \2\ Resolution No. 306 (AUG 2014)
---------------------------------------------------------------------------
    <bullet> Fund $75 million in new HUD-VASH vouchers, while 
allocating more project-based vouchers to high concentration cities of 
chronically homeless veterans.\3\
---------------------------------------------------------------------------
    \3\ Resolution No. 330 (AUG 2014)
---------------------------------------------------------------------------
    <bullet> Fund the Homeless Veterans Reintegration Program (HVRP) 
within the Department of Labor's Veterans Employment and Training 
Services (DOL-VETS) at the authorized level of $50 million--current 
funding at $38 million.\4\
---------------------------------------------------------------------------
    \4\ Resolution No. 306 (AUG 2014)
---------------------------------------------------------------------------
                    build on community partnerships
    The American Legion has taken a leadership role within local 
communities by volunteering, fundraising, and advocating for programs 
and funding for homeless veterans. Additionally, The American Legion 
provides housing for homeless veterans and their families in some 
areas, such as the Departments of Connecticut and Pennsylvania. One of 
the goals of The American Legion is to help bring Federal agencies, 
Non-Profit and Faith-Based organizations, and other stakeholders to the 
table to discuss best practices, along with funding opportunities, so 
homeless veterans and their families can obtain the necessary care and 
help in order for them to properly transition from the streets and/or 
shelters into gainful employment and/or independent living.
    Sometimes, it doesn't take much. A local shelter for homeless 
veterans in Pittsburgh, PA noted that their entire budget for 
mattresses each year comes out of the small donations made by a local 
Post of The American Legion. This is not a large scale program with 
hundreds of thousands of dollars in operating costs. This is an example 
of how on a local level, even small donations can make a tremendous 
impact.
    A delivery of $5,000 in clothing and personal items in Shreveport, 
LA through The American Legion's Operation Comfort Warrior prompted a 
VA Occupational Therapist to note: ``Sometimes our veterans come in and 
don't have appropriate clothing to leave the hospital. They now have 
access to that appropriate clothing.''
    Through thousands of small interactions in every community across 
the country, the stakeholders can build on each other's efforts. VA has 
done a tremendous job on a national level providing leadership, but 
much of the work at the local level will depend on the interaction of 
these community partnerships.
    Due to our work with homeless veterans and their families, The 
American Legion understands that homeless veterans need a sustained 
coordinated effort that provides secure housing and nutritious meals; 
essential physical healthcare, substance abuse aftercare and mental 
health counseling; as well as personal development and empowerment. 
Veterans also need job assessment, training and placement assistance. 
The American Legion believes all programs to assist homeless veterans 
must focus on helping veterans reach their highest level of self-
management.
                               conclusion
    The American Legion strongly believes that Congress, VA and other 
stakeholders must continue to invest in the progress that has been made 
and remove any remaining barriers to housing for veterans. The VA's 
Five-Year Plan to eliminate veteran homelessness by 2015 is roughly 
150+ days away. By helping to provide the necessary resources and 
changes to reach this obtainable, and worthy, goal, this Nation can 
finally end the scourge of veteran homelessness.
    The American Legion thanks this Committee for their diligence and 
commitment to examining this critical issue facing veterans as they 
struggle to access care across the country. Questions concerning this 
testimony can be directed to The American Legion Legislative Division.

    Chairman Isakson. Thank you very much, Mr. Steele. Thanks 
to all of you for your testimony.
    Let me start out by thanking Mr. Powers for his kind words. 
I appreciate it very much, and your reputation for what you do 
in our community precedes you here today and we appreciate it. 
I am going to ask you a question in a second.
    But, Mr. Blecker and Ms. Crone, both of you made a direct 
reference to other than honorable discharges in terms of 
eligibility for benefits, VA benefits. I think, Ms. Crone, you 
mentioned--maybe Mr. Blecker--that there were half-a-million 
veterans who received a less than honorable discharge from the 
military during the Vietnam era, is that correct?
    Mr. Blecker. That is correct, yes.
    Chairman Isakson. What is it you are asking?
    Mr. Blecker. Well, the idea is that folks should be 
eligible for that kind of health care. The VA actually has the 
ability and is given the ability to actually grant--determine 
whether someone was dishonorable or not honorable under--it is 
kind of confusing. But, if they determine, as Congress said, 
that they served other than dishonorable, that is, they were 
placed in harm's way and it is not--the dishonorable discharge 
is administered through a court-martial proceeding or a 
punitive discharge, considered a punitive discharge. In the 
middle are other than honorables. They are not necessarily 
punitive discharge, but they still--you lose eligibility for VA 
health care if you have an other than honorable.
    The idea is, especially with this remaining unsheltered 
veterans 15 percent as high as 30 percent, that they cannot be 
cutoff of that kind of health care, because they are the ones 
who are over-represented in the remaining unsheltered veterans.
    So, we are saying the VA should make some determinations, 
and we outline them in my written testimony. If someone was 
deployed or placed in harm's way, if the misconduct was 
related, for instance, to stress or trauma, those things should 
be considered, because that is what Congress intended. They did 
not intend to have those other than honorable be excluded 
entirely from benefits. So, the VA is empowered to do that, but 
they just do not do that.
    Chairman Isakson. Ms. Crone.
    Ms. Crone. From the National Coalition for Homeless 
Veterans' perspective, it is a slightly different nuance. What 
we are asking for is really maintenance of the status quo. For 
veterans who have an other than honorable discharge status who 
are currently being served by GPD and SSVF Program, those two 
programs in particular, there would be the potential for 
veterans with an other than honorable discharge status to no 
longer be able to access those two resources. We are asking for 
maintenance, so veterans with an other than honorable discharge 
status would still be able to access GPD and SSVF.
    Chairman Isakson. Thank you very much.
    Mr. Powers, your explanation of Joe, I have known some real 
Joes that had situations exactly like the one you described, 
living in an automobile, trying their best to find a job, a 
husband and a wife and a child. When they got to you, they came 
to you on a Department of Labor referral, is that right?
    Mr. Powers. That is correct.
    Chairman Isakson. Did they go to the Labor pool offices in 
Atlanta? Is that how they were referred to you?
    Mr. Powers. They did, absolutely.
    Chairman Isakson. What funds did you use? You housed them 
for 5 months, got them rental assistance for 5 months, helped 
them with their family situation. Was it SSVF funds?
    Mr. Powers. Yes, sir, it was.
    Chairman Isakson. How much is available to you to do that? 
Is it a case-by-case basis?
    Mr. Powers. Pretty much a case-by-case basis. We try to 
keep an eye on the amount of money that is available throughout 
the year and not spend it as quickly as sometimes the 
situations call for. But, we were able to, in this case, be 
able to stretch them out over a 5-month period to house them 
adequately until they were able to move on.
    Chairman Isakson. Does Georgia get a certain grant from the 
Federal Government on SSVF funds and then the Georgia 
Department of Veterans Affairs contracts with people like 
yourself to utilize them? Is that how it works?
    Mr. Powers. That is correct, Senator.
    Chairman Isakson. How are we doing with Pete Wheeler having 
just passed away? Are we doing OK?
    Mr. Powers. We are doing OK. You know, these are good 
dollars and they are dollars that we want to see continuing to 
be distributed. We are trying to be good stewards with the 
funds that we do have. But, as you have alluded to earlier, 
this is not money that is for everyone; you have to have a good 
discharge in order to participate, which leaves a significant 
number of individuals unable to participate. So, we are 
struggling with what to do with those who do not qualify.
    Chairman Isakson. When I read your testimony, I think I 
remember correctly, and I thought I brought it with me, but I 
did not, but I think I remember correctly, you said you were 
one of four agencies that use SSVF funds?
    Mr. Powers. That is correct, yes.
    Chairman Isakson. Who are the other three?
    Mr. Powers. Action Ministries, the Decatur Cooperative 
Ministries, and PCCI.
    Chairman Isakson. Well, thank you very much for all you do, 
and thanks to all of you for what you do. Ms. Bates, you are 
well represented by Senator Blumenthal, and I am going to turn 
it over to him.
    Senator Blumenthal. Thank you, Mr. Chairman, and Mr. 
Powers, your State is well represented by Senator Isakson, as 
well.
    Mr. Powers. Absolutely.
    Senator Blumenthal. As you know, he is a strong and 
steadfast advocate of the causes that you have espoused.
    I want to make sure that I understand the point that Ms. 
Crone and Mr. Blecker were making about veterans who have 
received a less than honorable discharge, not necessarily a 
dishonorable discharge, but a less than honorable discharge. I 
understand Senator Murray is seeking to correct this legal 
issue. But, the point that you are making is that they are 
ineligible currently under the law for these kinds of housing 
benefits, but that you want--or there may be some question 
about eligibility, but you want the VA to continue its present 
practice of treating them, in effect, as eligible. Is that 
correct, Ms. Crone?
    Ms. Crone. I am happy to follow up with your team more on 
this----
    Senator Blumenthal. Great.
    Ms. Crone [continuing]. There is further outline in the 
testimony, but in a nutshell--and thank you for the question to 
provide that additional clarification--in a nutshell, 
currently, and for over 20 years, the Grant and Per Diem 
Program and later the SSVF Programs have both been serving that 
population. About 18 months or so ago, VA's Office of General 
Counsel came to those programs and said, you can no longer 
serve those veterans, just with GPD and SSVF. You can no longer 
serve those veterans.
    Of course, there was quite an uproar, because you are 
talking service to 15 to 30 percent of the veterans who they 
are trying to help. There was a stay put on that, and my 
understanding is that it is currently being discussed within VA 
Legal. I am not a lawyer, so we are waiting on their 
determination, but my understanding is that the legislation 
that was put forward would clarify the intent of Congress that 
veterans with other than honorable discharge status would be 
able to be served by the SSVF and the Grant and Per Diem 
Program. That does not expand to VA health care. We are just 
focused on Grant and Per Diem and SSVF.
    Senator Blumenthal. I understand, but the same principle, 
perhaps, could be applied to VA health care. In fact, the 
change in practice that has been adopted by the Department of 
Defense at my request, but also as a result of the work of the 
Yale Law School Legal Services Clinic and other advocates, has 
prompted a review, or at least a different access to review, 
among the veterans who have less than honorable discharges.
    One of the points that I think is important to follow up 
here is whether all of you and other organizations that deal 
with veterans are urging those veterans who have less than 
honorable discharges to avail themselves of the possibility of 
review based on the fact that they may have suffered from Post 
Traumatic Stress or Traumatic Brain Injury. They were 
undiagnosed then, in fact, unrecognized as a medical condition, 
but now are and could be, in effect, diagnosed as the reason, 
or one of the contributing reasons, that they received a less 
than honorable discharge.
    I hope that you will continue to work with my staff on ways 
that we can use housing as well as health care as an outreach 
mechanism, housing maybe more than health care because many of 
them are ineligible for the health care and so they are never 
reached by this system.
    That is a long-winded way of saying that this issue may be 
an opportunity as well as an obstacle. We need to overcome the 
obstacle, but it may be an opportunity for us to raise this 
issue.
    In the short time that I have left, I want to ask Ms. 
Tepper Bates, first of all, thanks for the great work that you 
are doing. I hope that you will convey my thanks to all of your 
team and all who are working in Connecticut on this very, very 
important issue and making tremendous progress toward driving 
the number of homeless veterans toward zero, which is really a 
goal now within sight. As you say, there were 80 homeless 
veterans at last count in Connecticut, which is tremendous 
progress.
    I was very, very interested in the point that you made 
about changing the per diem system to, in effect, a more 
incentive--a system that removes the incentive to keep people, 
but to make sure that the housing and the program is used to 
promote different solutions. Maybe you could expand on that a 
little bit. I think that is a very, very promising idea.
    Ms. Bates. Well, thank you very much for that question. I 
can tell you that in Connecticut, where, again, we do have a 
substantial stock of these so-called GPD beds, as I noted, we 
actually had at the time of our Point in Time Count, double the 
number of veterans in those beds as we did in emergency 
shelters. Under the definitions of HUD, those are homeless 
veterans and, of course, we would like to see as much coherence 
as possible between the VA and the HUD definitions of homeless.
    The issue that we have tried to address in Connecticut is 
the fact that the current GPD structure serves as something, 
frankly, of a disincentive to those programs to focus on 
quickly exiting veterans out of homelessness to permanent 
housing. GPD housing is not permanent, and our goal in ending 
homelessness, whether of veterans or others, is to move people 
out of homelessness to permanent housing.
    In Connecticut, the VA medical center is trying to work 
with those programs to squeeze down the amount of time veterans 
are homeless in them to 60 days. That is the target. Right now 
in Connecticut, veterans in GPD housing are homeless more than 
three times that amount in those programs. So, there is a 
challenge there, but we are trying to move that direction.
    There are legislative changes that could be made, with your 
leadership, to look at either introducing a different payment 
structure or a competitive grant that would be performance-
based, and that would help incentivize the GPD Programs across 
the Nation to look at that real focus on permanent housing and 
quickly moving veterans to permanent housing.
    Senator Blumenthal. I think that is a very, very promising 
idea and I would like to work with you on the legislative 
changes and enlist the VA. I notice that Ms. Pape is still with 
us. Perhaps we can form a kind of team that will consider that 
approach, how much of it can be done administratively and how 
much requires legislation, which we can pursue.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Ms. Crone, I had one question, actually, on terminology, 
because I have heard a few things described here. Is ``less 
than honorable,'' the appropriate way to--is that how VA refers 
to veterans--``less than honorable,'' ``other than 
dishonorable,'' I am just trying to get the terminology right.
    Ms. Crone. Yes, and we are happy to sit down and walk 
through the various discharge statuses with you.
    Senator Tillis. Yes. Well, the question I had is I went out 
to your Web site. It was very helpful. When we are talking 
about a homeless population of 49,000, does that include the 
veterans that are in that status, as well?
    Mr. Blecker. I believe so, yes.
    Ms. Crone. Yes, it is----
    Mr. Blecker. Yes. That is among the unsheltered veterans.
    Senator Tillis. All of them, OK. And, right now, if they 
are determined by the VA to be in this status, OTH, where they 
do not receive care, then how many out there right now, based 
on the current VA policy, are really not in a position to 
receive support?
    Ms. Crone. The current VA policy is allowing programs with 
GPD and SSVF to serve that population. If the change is made 
without the legislative fix being in place, we are talking 
between 15 and 30 percent of that 49,000, and my mental math is 
pretty bad, so----
    Senator Tillis. The reason I was asking that question, I 
was assuming it was a significant number. Then, if we do not 
make the changes, how can we actually achieve the goal of zero 
homeless veterans? So, without that policy change, the goal by 
the end of this year is impossible.
    Mr. Blecker. I think you could reach that conclusion, yes.
    Senator Tillis. OK. Well, it seems to me that time is a-
wastin'. We are in July right now, so we have got to move 
pretty quickly if we have any hope of hitting that trajectory.
    I probably sound like a broken record on this Committee 
already--I have only been here 7 months. The main thing I am 
trying to do--I mean, that is clearly something that we can 
work with the VA and work with our colleagues in the House and 
Senate to try to address. I, for one, think that we should.
    The question that I always ask, though, for you all and 
what you do--and Mr. Blecker, you made me decide I was going to 
ask the question again--is what kinds of things do we need to 
do to streamline and make more efficient the relationship 
between the VA and organizations like yours to get rid of the 
red tape and compress the time between the time a need is 
identified and that need is being fulfilled. What general 
area--and, by the way, I happen to think that the Secretary and 
a number of people in the VA are absolutely committed to it. 
Sometimes, we have so many things on our plate that we have to 
just be crystal clear in specific interactions that need to be 
changed.
    Can you give me some insight, if you were to list your top 
four or five, or Mr. Blecker, your top ten----
    [Laughter.]
    Mr. Blecker. Top 35? [Laughter.]
    No, they are contained in my recommendations, but I think 
in each of those three major initiatives, starting with the 
Grant and Per Diem Program, we talked about making those costs 
align with the true costs; we talked about extending a warm 
hand; and, do not cut off the case management when the vet 
still needs it, even if they leave the program.
    What I meant about the VA--and they have to sort of take on 
the ``can do'' attitude and not think of how the programs 
cannot be applied, but how they could be applied. Let us be 
creative about it. The SSVF Program is a remarkable investment 
in the community, hundreds of millions of dollars.
    In California, they passed a bill, a proposition called 
Prop 41, that would take $600 million that was in the Farm and 
Home Aid Cal Vet Loan and make it available to build vet-
specific housing for formerly homeless vets. But, everyone is 
struggling, where are we going to get the service side of it? 
Well, the SSVF could provide the services with a few rule 
changes. Again, that is being flexible. Why do you not take 
this major State investment and provide some of the services 
that would allow these programs to function, to operate? That 
is an example of how the VA could be creative and flexible with 
the programs that they have.
    I talk about the VASH Grant and Per Diem. Do more case 
management contracting out if you have a partner there. Do not 
try to do it yourself and try to have all the FTEs. It is a 
real culture, I think, within the VA medical centers that they 
are really committed to having as many full-time equivalents, 
FTEs, staff, and not look at how you can take that money and 
best serve the veteran population. Sometimes, you do not need 
all clinical folks. You can hire peer specialists, and that 
will go a long way to providing homeless care.
    There are creative ways to do these programs working with 
their partners.
    Senator Tillis. Well, I know that both the Chair and the 
Ranking Member have been great advocates for trying to do more 
to improve the relationship with the VA and the relationship 
with many organizations like yours.
    I would sincerely appreciate your giving some thought to a 
punch list of things. They could be minor things. They could be 
things you already know about. Or, they could be things that 
you will run into over the next couple of months as we try to 
get to zero homelessness. Please reach out to this Committee 
and reach out to my office. Help me find those things that we 
can do to remove the impediments so you can continue to do the 
great work you are all doing.
    Thank you.
    Chairman Isakson. I would never accept the accusation that 
you are a broken record. In fact, I think, to the contrary, you 
hit the nail on the head.
    For the benefit of the VA, let me say this to Mr. Blecker 
and everyone there. The VA is kind of like a managed care 
provider of health insurance. They have 606,500,000 veterans 
who are eligible for health care. They have a plethora of 
programs that are available. They do not know when those 
veterans are going to get sick, get PTSD, get TBI, or whatever. 
We appropriate a fixed amount of money to veterans health care. 
So, there are times--they are like an insurance company--they 
are managing benefits based on how much money they have got 
left.
    The better the communication between organizations like 
yourself and the VA in ways to not only provide benefits, but 
also manage the cost of benefits and manage services, will be 
extremely helpful. I am convinced that one of the biggest 
problems that we have in Washington, and I think it is true 
with the entire Federal Government, is we do not have the best 
communication we should between ourselves. We are either 
governing or providing benefits. There are a lot of times we 
are counterproductive because we do not talk to each other as 
much.
    One of the things we are going to try to do, which Senator 
Blumenthal and I have done, is we have gone twice to the VA and 
had town hall meetings in the VA with their providers of health 
care services just to talk about problems. We want to help and 
we want them to be helpful to the veterans; because in the end, 
we are all in this for the same reason and that is to provide 
those services to veterans.
    Your testimony today is very helpful to us to go back and 
find those areas where we can work. For example, on the other 
than honorable discharge, you have got to really be careful on 
that. I mean, on the one hand, you want to make sure you are 
providing the benefits. On the other hand, you do not want to 
take a veteran who served meritoriously, retired from the 
service, is eligible for benefits, and have somebody who did 
not leave meritoriously getting benefits out of the pot of 
money from which the meritorious service veteran did.
    So, you were pointing out that problem. Our communication 
about that problem can help us to refine those definitions and 
in the end provide a better service to the veterans and, 
hopefully, better manage the cost of the VA.
    With that said, unless there are other comments anybody 
has, I think we stand adjourned, unless you want to say 
something.
    Senator Blumenthal. Just to thank our witnesses for your 
being here today and for your service to our Nation. Thank you.
    Chairman Isakson. The Committee is adjourned.
    [Whereupon, at 4:41 p.m., the Committee was adjourned.]
                                ------                                

Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
to Lisa Tepper Bates, Executive Director, Connecticut Coalition to End 
                              Homelessness
    Access to complete client data has the power to accelerate and 
target efforts around ending veteran homelessness. The CCEH written 
testimony for this hearing mentions that data management systems could 
be improved upon if VA agencies could participate in the continuum of 
care's data tracking systems. Housing providers in other continuums of 
care have noted that tracking program eligibility can be a challenge 
when dealing with clients who are transitory and move from continuum to 
continuum.

    Question 1.  What challenges manifest at an operational level due 
to VA's inability to utilize HMIS?
    Response. The entire system of coordinated access to homeless 
resources in the state of Connecticut is built around the CT Homeless 
Management Information System (HMIS)--the HUD-mandated database used by 
all HUD-funded (and most state funded) programs that address 
homelessness. This system allows real-time tracking of clients who are 
accessing services at CT HMIS participating agencies including 
emergency shelters and housing programs specific to homelessness.
    In Connecticut, several GPD providers and all SSVF providers are 
already participating in HMIS, and use the data in the system to better 
inform their outreach and engagement efforts as well as to track their 
placements. The VAMC, however, is not currently allowed by internal VA 
regulations to access CT HMIS. This hampers the cooperation between the 
VAMC and other homeless resources to coordinate, and makes it more 
difficult and time-consuming for the non-VA providers to make immediate 
referrals to the VA for a veteran experiencing homelessness who 
presents at a non-VA facility. Additionally, veterans who may present 
at the VA for services but do not qualify for services there may be 
eligible for services elsewhere--and cannot now be easily tracked and 
referred.
    The only recourse that we have at present to create a single, 
comprehensive database of veterans experiencing homelessness in 
Connecticut is to double-enter veterans experiencing homelessness into 
both the VA HOMES system (by the VA) and separately into HMIS (by my 
agency, CCEH, and always based on client consent for this data entry). 
This is an inefficient use of time and resources, and hinders progress 
on referring quickly each veteran experiencing homelessness to the 
resources he or she needs; it also complicates the process of tracking 
the effectiveness and completeness of our efforts to reach, shelter, 
and re-house appropriately each and every veteran in need.

    Question 2.  What would the optimal data sharing model look like 
with regard to tracking information on shared clients between VA and 
its Continuum of Care partners?
    Response. Optimal data sharing would allow for tracking in the HMIS 
system of comprehensive history of each veteran experiencing 
homelessness, so that there is a single record of the homeless history, 
supports, and housing services in process for each veteran experiencing 
homelessness--whether that individual has touched a VA-funded entity or 
a non-veteran-specific service provider. A veteran may be in emergency 
shelter in a non-veteran-specific facility, but seeking medical 
assistance from the VAMC: a comprehensive, shared view of that person's 
needs and supports is critical in helping that individual to move from 
homeless to housed with the right supports in place. CT-HMIS could be 
used as a single, definitive database for tracking all veterans 
experiencing homelessness in the State of Connecticut. The CT HMIS 
platform is a statewide open data sharing system that allows providers 
to easily and responsibly share information to achieve the best 
possible outcome for every individual served. We believe this would be 
equally helpful to other states' efforts to end veteran homelessness.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
      to Michael Blecker, Executive Director, Swords to Plowshares
    Question 1.  Swords to Plowshares provides a number of services to 
homeless veterans in a high cost, low vacancy housing market. Finding 
appropriate housing placements for low income individuals has been a 
challenge in these areas, and housing formerly homeless veterans in 
these competitive markets can be even more challenging. What can VA and 
community partners do to be more successful at finding veterans 
permanent housing in these areas?
    Response. The VA can contribute to community successes with regard 
to finding permanent housing for veterans in challenged rental markets 
such as San Francisco first and foremost by continuing to fund the SSVF 
program and continuing the expansion of HUD-VASH to ensure we have 
sufficient slots for all chronically homeless veterans still living on 
our streets. Additionally, VA can apply lessons learned from 
experienced community-providers like Swords to Plowshares and make 
adjustments to both the SSVF and HUD-VASH programs that will help to 
reduce barriers to finding housing for the hardest-to-house veterans in 
high cost, low vacancy markets.
                        hud-vash recommendations
    Increase HUD Fair Market Rent standards for HUD-VASH: The City and 
County of San Francisco, its Mayor, and the San Francisco Housing 
Authority have submitted a waiver request to HUD that would allow 
veterans with VASH vouchers to be competitive in the rental market. 
Without increases in the amount of funds available per voucher, many 
veterans will not be able to find housing with a VASH voucher.
    A regional approach is needed: The VA should promote regional 
cooperation in the HUD-VASH program, making it easier for veterans with 
vouchers issued in high cost areas, such as San Francisco, to readily 
seek housing in outlying communities. Existing voucher portability 
issues that rest at the Housing Authority (utilization and 
administrative payments) and VA Medical Center (acceptance onto 
caseloads) level make this very difficult.
    Contract out HUD-VASH case management with community-based 
providers: VA is having difficulty on-boarding and retaining sufficient 
numbers of social workers to provide services to veterans with VASH 
vouchers. In addition to general VA staff retention, in congregant 
living settings that rely on HUD-VASH subsidies and staffing, we have 
seen that VASH staff have a very difficult time in providing the needed 
coverage. We recommend that VA mandate case management to be contracted 
out with the community-based system of care. Community-based providers 
delivering the case management portion would save in costs, improve 
flexibility with scheduling and other service delivery components, be 
better integrated with community-based housing operators wrap-around 
services, and leverage the expertise of community providers.
                          ssvf recommendations
    Program flexibility to improve outreach and engagement with 
landlords: Many landlords are hesitant to rent to veteran clients, 
particularly when many veterans utilizing SSVF have poor credit, 
extremely low-income, histories of homelessness, drug and alcohol 
abuse, mental illness, incarceration and often evictions. They are not 
ideal tenants in many cases and it is incumbent upon service providers 
to cultivate relationships with landlords and provide incentives for 
them to rent to veterans. For example, paying for up to three months 
rent in advance would help to attract more landlords. SSVF staff need 
adequate training on engaging with landlords or outside expertise from 
a realtor. Community partners operating SSVF need more flexibility to 
incentivize landlords to rent to veterans and need funding to hire or 
contract with realtors who can broker relationships and negotiate lease 
agreements.
    Flexibility for length of case management period: SSVF currently 
requires that operators discharge veterans after 90 days. Support and 
case management for 90 days is not sufficient for many veterans--
particularly those who have minimal income, long histories of 
homelessness, drug and alcohol abuse and mental illness. Limiting the 
length of time community-based operators can provide case management 
increases the risk for recidivism. The length of case management should 
be extended to up to 12 months or as needed for veterans with high 
acuity.
    Increase funding for Representative Payee services and extend Money 
Management period as needed. Providing Rep Payee services to veteran 
clients reduces the revolving door. SSVF provides funding for staff to 
provide money management services to clients for up to 12 months. In 
addition to extending the 12-month period for those veterans who need 
the ongoing service in order to remain housed, many providers like 
Swords to Plowshares also provide Representative Payee services to SSVF 
clients, despite a lack of dedicated funds to provide these services 
which these veterans are mandated to utilize. In fact, we currently 
have more veterans enrolled in Representative Payee services than those 
enrolled in temporary money management under SSVF.
    Increase allocation of Eviction Prevention funds and/or allow for 
more flexibility. We have experienced an increase in the number of 
requests for Eviction Prevention support. Certainly and rightly, the 
focus up to this point has been on Rapid Re-housing more so than 
Eviction Prevention. However, the longer-term goal is to ensure that 
episodes of homelessness among veterans are infrequent and short-lived. 
That means that Eviction Prevention will play a larger role in 
sustaining the gains we have made and preventing recidivism. Moving 
forward, VA needs to allocate a larger percentage of Eviction 
Prevention dollars/enrollments to address homeless prevention among 
those who were assisted with Rapid Re-Housing services.
    The following veteran client story illustrates the value of 
allowing flexibility to pre-pay rent and/or offer financial security 
incentives to landlords when trying to house veterans with issues 
common to those with histories of homelessness--poor credit, criminal 
justice involvement, and a lack of rental history:

          Mr. Smith (name changed) is a 65 year-old Army veteran with a 
        credit score in the low/mid 500s, lack of rental history, 
        multiple items in collections, and a felony record. He lived in 
        the home of an elderly woman rent free in exchange for caring 
        for the property while she was in a nursing home. When she 
        passed away last year, the landlord decided that he wanted to 
        sell the property. Mr. Smith at that point became homeless and 
        was ``squatting'' in the building at the time of his enrollment 
        in the SSVF program. He completed several applications for 
        market-rate and tax-credit properties. His application was 
        pulled for a tax-credit apartment building in the East Bay. 
        Swords' staff went to Mr. Smith's appointment with the Property 
        Manager to qualify him for a studio unit. Because he is 100% 
        service-connected with the VA, he qualified for the income 
        requirements. When they ran his credit report, however, it 
        generated a denial of his application. Mr. Smith had brought a 
        friend with him that had offered to co-sign for his lease if 
        necessary. At that point, the Mr. Smith's friend and a case 
        manager from Swords to Plowshares stepped in offering to co-
        sign (his part) and double the deposit (SSVF). The Property 
        Manager agreed to approve his application on the condition of a 
        double deposit. They deemed that a co-signer was not necessary 
        since he had enough income to cover 2.5x the monthly rental 
        price. Mr. Smith will move-in to his new apartment on 9/1/15.

    The following veteran client story illustrates the need not only 
for experienced community-based providers to provide case management 
directly to HUD-VASH recipients, but also the need for flexibility 
regarding the length of time SSVF grantees are permitted to provide 
money management services:

          Mr. Johnson, a Vietnam era veteran with a monthly income of 
        $1,920 monthly via VA benefits and Social Security was facing 
        eviction due to being behind on his portion of rent for 
        multiple months in a row and was in danger of losing his HUD-
        VASH voucher. Swords to Plowshares' housing placement 
        specialist negotiated with Mr. Johnson's landlord over a period 
        of a few weeks and was able to keep him housed after agreeing 
        to pay for the overdue water bill and help with Mr. Johnson's 
        stability. Swords staff were able to convince the landlord that 
        using Swords to Plowshares' money management program would help 
        Mr. Johnson stay in his unit and help the landlord avoid costs 
        associated with an eviction. Money management is 100% 
        responsible for keeping Mr. Johnson housed. Mr. Johnson is 
        still in money management and is learning how to live within 
        his means, however, staff are confident that the landlord will 
        not keep Mr. Johnson as a tenant once he is no longer enrolled 
        in money management.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
to Baylee Crone, Executive Director and Joshua L. Stewart, Director of 
            Policy, National Coalition for Homeless Veterans
    Question 1.  What more can be done to improve coordination between 
HUD and VA during the voucher allocation process in order to make the 
hiring or contracting process move more quickly?
    Response. NCHV does not believe that the challenges with the HUD-
VASH program are a result of a lack of coordination efforts between HUD 
and VA. Both departments have made history with their excellent cross-
departmental efforts to integrate data for improved targeting of 
chronically homeless veterans, maintain continuous communications on 
several levels within both agencies to improve voucher distribution, 
and support service for the hardest to serve on the local level. NCHV 
applauds them for that work. In fact, if anything NCHV believes that 
the two departments should continue and expand on their current joint 
efforts and joint area of focus. For instance, HUD-VASH should continue 
to be targeted to the chronically homeless population. As we near the 
end of the Five-Year-Plan, this population continues to be the hardest 
to serve, and the population with the highest acuity of need. Targeting 
through tested data analytics currently in use by the departments have 
proven to be sufficient to the task, and additional vouchers should be 
targeted to the areas with the highest remaining need. The main point 
relating to HUD-VASH in our written testimony, that of contracting 
case-management, is an internal VA issue and not part of the HUD--VA 
relationship. While VA hiring efforts have improved, the agency's 
contracting process continues to be slow, convoluted, and burdensome to 
qualified agencies.

    Question 2.  Beyond staffing improvements, are there other 
improvements VA might consider to ensure HUD-VASH participants are 
receiving high-quality case management in this program?
    Response. While we focused on the need for contracting of HUD-VASH 
case management as a high priority in our written testimony, other non-
staffing oriented adjustments should be addressed immediately. One of 
these adjustments is ensuring veterans leased up through HUD-VASH can 
access HVRP to promote a return to the world of work. Currently, being 
leased up in an apartment through the HUD-VASH program makes a veteran 
ineligible for the crucial employment training and job placement 
offered through the Department of Labor's HVRP. The benefits of co-
enrollment to the veteran are manifold. Divisions of case management 
duties between employment (HVRP) and supportive service (SSVF) adds 
depth to the quality of care; employed veterans in HUD-VASH obtain 
better community connectivity and support. Employment increases the 
income of the veteran (lessening the cost of the HUD-VASH voucher), and 
employment increases the successful graduation rate of veterans out of 
the HUD-VASH program, thereby freeing the voucher up for the next 
veteran in need. This fix would be accomplished by a bill currently 
before the Senate, S. 425, the ``Homeless Veterans' Reintegration 
Program Reauthorization Act of 2015.''
    Other improvements to the case-management for veterans could be 
achieved by a recapture and re-deployment of unused or turned-over HUD-
VASH vouchers into project-based vouchers (PBV) for areas with high 
need and saturated rental markets. Vouchers should not be taken from 
communities with demonstrated need, but need shifts over time. PBV's 
would stimulate the creation of new affordable housing in which to 
place high-need veterans. Benefits of this model include 24/7, on-site 
case management to ensure stability and safety. This is critically 
important especially for programs implementing the low-barrier Housing 
First model. High impact, high frequency case management is an 
excellent way to improve care. This model is tailor made for project-
based vouchers.

    Question 3.  Are there specific parameters VA should consider when 
determining to provide case management in-house or by contract?
    Response. VA's recent work on speeding hiring has been laudable, 
and has directly impacted the wellbeing of homeless veterans across the 
country. NCHV would however urge VA to mirror this momentum in the area 
of contracting. The same focus on urgency and streamlining has been 
absent from the contracting process. Both of these areas should receive 
focus and a sense of urgency. VA should be firing on all cylinders to 
get to the goal of ending veteran homelessness. The procurement process 
should be encouraged as a way to speed hiring and bring expertise in 
house and streamlined as a process itself to increase the speed of 
these agreements.
    A focus on contracting would allow VA to leverage the considerable 
network of qualified community agencies. Veteran service providers 
across the country are experts on the Housing First model, educated on 
it in theory and practitioners of it in their daily work. In places 
where this same pre-existing expertise does not exist in a VAMC, local 
service providers are ready to step in and take on the case management 
responsibilities. These agencies have long-standing relationships with 
landlords, and are connected to other community agencies to ensure 
wrap-around services and continuity of care. Importantly, in rural 
areas, these local expert agencies can fill a case management gap when 
the VAMC housing HUD-VASH case managers are far away.
    Time with the veteran is irreplaceable. In rural areas where 
distances between veterans and the VAMC may be large, the time 
necessary for the counselor to travel between VAMC and housing sites 
can be burdensome. Local providers can provide far more effective and 
efficient case management by taking some of that travel burden off of 
VAMC staff. To this end, geographic distance covered by VAMC case 
managers should be a factor in the awarding of contracts to homeless 
veteran service providers. The caseload ratio of VA HUD-VASH case 
managers to veterans is of perennial concern. One of the most important 
things we can do to ensure high-quality case management is to keep 
caseloads of individual counselors' reasonably low. Especially in surge 
communities where there exists high lease-up pressures to keep pace 
with local planning, contracted case management to established 
community agencies can cut down on the case management ratio for 
individual case managers. This is a critical short-term strategy, and a 
smart long-term one to allow VA to capitalize on the dedicated local 
resources it has available.''
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
           to Edward Powers, Executive Director, HOPE Atlanta
    Question 1.  Many communities are working collaboratively to 
address housing instability among veterans and are finding that their 
housing and service delivery models need to be restructured in order to 
better address the needs of veterans in their area, especially as they 
get closer to zero. What additional legislative or regulatory changes 
would be required in order to give communities more flexibility to 
create an outcome-oriented system that meets their needs and 
incentivizes housing stability through permanent housing placements and 
income supports to sustain those placements?
    Response. HOPE Atlanta suggests the following to address the 
challenges of housing homeless veterans:

    A. Offer tax credits to landlords who rent to veterans.
    B. Give preference to veterans in local HUD funded programs and 
projects.
    C. Help Public Housing Authorities develop, and then adhere to, 
uniform policies. Currently policies vary from one housing authority to 
another, with some being far more restrictive than others.
    D. Offer the SSVF/HUD VASH program to veterans who were less than 
honorably discharged from their service. They are the ones who are the 
most in need.
    E. Create a fast track for VA benefits such as SOAR with SSI/SSDI. 
Homeless veterans should be a top priority in the VA's disability 
screening process.
    F. Create funding for SSVF Housing Specialists who act as advocates 
for the veterans in the program. They also interact with local 
landlords to educate them on veterans in the area and their housing 
needs.

    Question 2. HOPE Atlanta's testimony highlighted the benefits of 
having their staff complete SSI/SSDI Outreach, Access, and Recovery 
(SOAR) training to improve the likelihood of, and speed at which 
veterans obtain social security benefits. What actions has VA taken to 
promote, to its grantees, free online training courses through the 
Substance Abuse and Mental Health Services Administration's SOAR 
Technical Assistance Center that might increase the availability of 
income supports to veterans eligible for those benefits?
    Response.
    A. The VA promotes SOAR as a best practice and has recently 
collaborated with the US Interagency Council on Homelessness and other 
Federal organizations to create a report that outlines key strategies 
for connecting people experiencing homelessness to SSI/SSDI. Here's the 
link for the report: http://usich.gov/usich--resources/key-strategies-
for-connecting-people-experiencing-homelessness-to-ssi-ssdi. The 
primary issue, however, isn't access to training, but the lack of 
dedicated staff time to implement SOAR once SSVF staff receive the 
training. There is a need for dedicated SOAR staff to be a part of the 
SSVF grants. As the VA reaches functional zero, more SSVF staff could 
be trained if needed to do SOAR. HOPE Atlanta is taking the first steps 
to change an SSVF outreach worker position to a SSVF SOAR position. We 
are only able to do this, however, because of overlapping outreach 
services provided by the agency.
    B. The State of Georgia's Dept. of Behavioral Health and 
Developmental Disabilities (DBHDD) is placing a SOAR worker in the 
regional Community Resources and Referral Center (CRRC) two days a week 
to assist veterans in obtaining SSI/SSDI through SOAR. This appears to 
be a collaboration between the VA and the State of Georgia. We find 
this to be a very positive step.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
  to Jeff Steele, Assistant Legislative Director, The American Legion
    Question 1.  The Legion is not only a strong advocate for veterans 
across the country, but also a direct service provider to homeless 
veterans in the State of Connecticut. The 18-bed facility built by Post 
15 in Jewett City, CT operates at capacity for the majority of the 
year. It is critical that veterans service organizations take a hands-
on role in ending veteran homelessness across the country. What can VA 
and others do to engage more mainstream VSO groups to play a more 
significant role in this arena?
    Response. VA and other stakeholders can reach out to the VSO 
community to explain their plans to combat (and ultimately end) veteran 
homelessness in their catchment area as well as provide opportunities 
for them to engage in meetings/activities/events that deal with 
assisting homeless veterans and their families. In addition, VA can 
reach out to the VSO community to create opportunities to participate 
in their conferences, state conventions or important meetings to 
discuss challenges and `best practices' in helping at-risk and homeless 
veterans. There are many dots to connect in order to assist a homeless 
veteran from the street to transitional and/or permanent housing. If 
VSOs understood these steps--it would be easier for these organizations 
to find the best way to assist and/or unite with other local resources 
to bring about the necessary changes for this vulnerable demographic.
    VSOs are distinctly associated to the veteran community all across 
the country--which can lead them to being a tremendous resource for 
such a meaningful endeavor of ending veteran homelessness. Listed below 
are some activities and/or functions that the VSO community can 
potentially provide:

    <bullet> Assistance with disability claims, discharge review and VA 
benefits
    <bullet> Job Fairs & Resume/Interviewing Workshops--hosted by 
Legion Posts
    <bullet> Networking--employment and training opportunities with the 
public and private sectors
    <bullet> Fundraising--rental assistance, utilities, moving costs, 
etc.
    <bullet> Welcome Kits--for those veterans who are moving in 
apartments with HUD-VASH vouchers
    <bullet> Volunteer--at VA medical centers, Community Service 
Providers and Food Banks
    <bullet> Advocacy--Both State and Federal Level
    <bullet> Grantee for transitional and/or permanent housing


                            A P P E N D I X

                              ----------                              


Prepared Statement of Teresa W. Gerton, Acting Assistant Secretary For 
  Veterans' Employment and Training Service, U.S. Department of Labor
                              introduction
    Chairman Isakson, Ranking Member Blumenthal, and distinguished 
Members of the Committee, thank you for the opportunity to provide a 
statement for today's hearing on veterans' homelessness. I commend you 
all for your tireless efforts to ensure that America fulfills its 
obligations to our current servicemembers, veterans, and their 
families. The Department of Labor (DOL, or The Department) also works 
hard every day to ensure all veterans are prepared to meet their 
employment objectives.
    Secretary Perez and I believe that one of the most important ways 
to prevent and end veteran homelessness is through a good job. However, 
employment is not the only factor in overcoming homelessness among 
veterans. Long-term stability requires a coordinated level of care 
between many Federal partners, including the Departments of Veteran 
Affairs (VA) and the Department of Housing and Urban Development (HUD), 
state and local organizations, non-profits, and the private sector to 
ensure veterans are successful in overcoming the myriad of challenges 
to homelessness. To that end, the Department is committed to helping 
the Administration meet its goal of ending homelessness among veterans 
in 2015, as guided by Opening Doors: The Federal Strategic Plan to 
Prevent and End Homelessness. In leading this effort, the U.S. 
Interagency Council on Homelessness (USICH) has generated powerful 
national partnerships at every level to work toward ending homelessness 
across the Nation. Currently, Secretary Perez serves as the Council 
Chair.
    Through these interagency efforts and many others, the 
Administration has achieved historic progress. According to the HUD's 
2014 Annual Homeless Assessment Report to Congress, homelessness among 
veterans has declined by 33 percent from January 2010 to January 2014. 
Yet, on a single night in January 2014, there were still 49,933 
homeless veterans. That is why the Department looks forward to working 
with the Committee in providing these brave men and women who serve our 
Nation with the employment support, assistance and opportunities they 
need and deserve to succeed in the civilian workforce.
    We also note that our partnerships throughout DOL extend VETS' 
ability to achieve its mission, and bring all of DOL's resources to 
bear for America's veterans, separating servicemembers, and their 
families. VETS' mission is focused on four key areas: (1) preparing 
veterans for meaningful careers; (2) providing them with employment 
resources and expertise; (3) protecting their employment rights; and, 
(4) promoting their employment and related training opportunities to 
employers across the country.
    VETS administers the Homeless Veterans' Reintegration Program 
(HVRP) to help homeless veterans reenter the labor force. The agency 
provides grants to state and local Workforce Investment Boards, tribal 
governments and organizations, public agencies, for-profit/commercial 
entities, and non-profit organizations to administer services to assist 
in reintegrating homeless veterans into meaningful employment and to 
stimulate the development of effective service delivery systems that 
will address the complex problems facing homeless veterans. The HVRP 
program succeeds, not only because of the hard work and local 
connections of our grantees, but also because of the collaborative 
efforts of our government partners at the Federal and State levels. 
These efforts help ensure that homeless veterans receive a robust, 
comprehensive network of support.
    HVRP's client-centric, hands-on approach has helped place thousands 
of previously-homeless veterans, some of whom were chronically 
homeless, on a path to self-sufficiency. Historically, the Department 
also has utilized HVRP funding for other grants designed to address 
difficult-to-serve subpopulations of homeless veterans: the Homeless 
Female Veterans and Veterans with Families Program (HFVVWF) and the 
Incarcerated Veterans' Transition Program (IVTP). In addition, the 
Department supports ``Stand Down'' events (described below) and 
technical assistance grants.
                                  hvrp
    HVRP is one of the few nationwide Federal programs focusing 
exclusively on helping homeless veterans to reintegrate into the 
workforce. HVRP is employment-focused; each participant receives 
customized services to address his or her specific barriers to 
employment. Services may include, but are not limited to, occupational, 
classroom, and on-the-job training, as well as job search, placement 
assistance, and post-placement follow-up services. Grantees under this 
program are competitively selected for a one-year award, with up to two 
additional option years, contingent on the availability of 
appropriations and grantees' compliance with the terms of their grant.
    Grants like HVRP have helped homeless veterans like Edwin Sostre, a 
Marine veteran, in Pittsburgh, PA. Edwin moved to Pittsburgh after 
obtaining employment in 2010 but was laid off shortly after. He tried 
to make it on his own for about a year but had no local support kinship 
networks and ultimately found himself homeless. In 2011, Edwin and his 
two sons enrolled with one of VETS' HVRP grantees, Veterans Leadership 
Program of Western Pennsylvania (VLP), which he found out about at a 
Stand Down event.
    Through VLP, counselors worked with Edwin to help him obtain 
housing, and then helped him acquire employment as a security guard at 
the Monroeville Mall while he also attended the Community College of 
Allegheny County. Edwin completed the HVRP program, but still kept in 
touch with his Case Manager. Edwin graduated from the Community College 
in May 2015 and will start at VLP as a HVRP Career Advisor/Case Manager 
on August 3, 2015. Edwin now wants to give back to those who were so 
helpful to him and to his fellow veterans who can see in his 
accomplishments a path to their own success.
    the homeless female veterans and veterans with families program
    HFVVWF are competitive grants that specifically target the 
subpopulation of homeless female veterans and veterans with families 
who are ``at risk'' of becoming homeless. As noted in HUD's 2014 Annual 
Homeless Assessment Report to Congress, homeless women veterans 
accounted for 10 percent of the overall homeless veteran population. 
The program provides direct services through a case management approach 
that leverages Federal, state, and local resources. Eligible veterans 
and their families are connected with appropriate employment and life 
skills support to ensure a successful integration into the workforce.
          the incarcerated veterans' transition program grants
    The IVTP was last awarded in FY 2010; those grants continued up 
through September 30, 2013, after which funds were not appropriated for 
the program. IVTP grants were designed to support incarcerated veterans 
who are at risk of homelessness by providing referral and career 
counseling services, job training, placement assistance and other 
services. For PY 2012, IVTP grantees enrolled 1,408 participants and 
had a placement rate of 63.4 percent with an average hourly wage of 
$10.69 at placement. Funds have been made available for IVTP grants for 
FY 2015, and the 2015 Consolidated and Further Continuing 
Appropriations Act expanded the definition of the veterans eligible to 
participate in the IVTP program. Veterans eligible to participate in 
IVTP include veterans who are at risk of homelessness and are either 
residents of penal institutions, residents of institutions providing 
long-term care for mental illness, or were recently released from 
incarceration.
               stand down and technical assistance grants
    Through HVRP, the Department also supports ``Stand Down'' events. 
These events, typically held over one to three days in local 
communities, provide an array of social services to homeless veterans. 
Stand Down organizers partner with Federal and state agencies, local 
businesses and social services providers to offer critical services, 
including temporary shelter, meals, clothing, hygiene care, medical 
examinations, immunizations, state identification cards, veteran 
benefit counseling, training program information, employment services, 
and referral to other supportive services.
    A portion of the HVRP funding is used for the National Veterans 
Technical Assistance Center (NVTAC). The NVTAC provides a broad range 
of technical assistance on veterans' homelessness programs and grant 
applications to: existing and potential HVRP, HFVVWF, and Stand Down 
grantees; interested employers; Veterans Service Organizations; and, 
Federal, state, and local agency partners.
                          program performance
    In Program Year (PY) 2013, DOL received in appropriations 
$36,187,711 for HVRP. With these resources, DOL funded 35 new HVRP 
grants, 90 option-year HVRP grant extensions, 22 HFVVWF grants, 14 IVTP 
grants, and 90 Stand Down grants.
    In FY 2014, the HVRP programs received an appropriation of 
$38,109,000 with which the Department awarded 37 new HVRP grants, 101 
option year HVRP grants, 18 HFVVWF grants, and 66 Stand Down grants. 
These grantees are expected to provide services to 17,000 homeless 
veterans, with an estimated placement rate of over 60 percent, at an 
estimated cost per participant of $2,200. In addition, to support 
grantees and disseminate best practices, the Department awarded two 
technical assistance Cooperative Agreements.
    In June 2015, Secretary Perez announced the awarding of more than 
$35 million in grants to provide an estimated 16,000 veterans with 
services through over 150 new and option year HVRP grantees, 12 HFVVWF 
grantees, and estimates 70 or more Stand Down grants.
    HVRP grant recipients, including HFVVWF and IVTP, are measured 
against four performance outcomes outlined in our policy guidance. The 
performance outcomes are: (1) Number of Enrollments; (2) Number of 
participants placed in unsubsidized employment; (3) Placement Rate; and 
(4) Cost per Placement. DOL staff members work closely with grantees to 
help them succeed and to achieve their goals for all four performance 
outcomes. HVRP grant recipients also report on the average earnings for 
individuals who retain employment.

          Table 1. HVRP Participant Statistics, PYs 2012-2013*
------------------------------------------------------------------------
             Performance Outcomes                 PY 2012      PY 2013
------------------------------------------------------------------------
Participants Enrolled.........................      17,480       16,133
Placed Into Employment........................      11,317       10,226
Average Cost Per Participant..................   $1,985.95    $1,903.28
Average Hourly Wage at Placement..............      $11.22       $11.50
------------------------------------------------------------------------
* As reported in the Veterans' Employment and Training Service
  Operations and Program Activity Report (VOPAR) System, HVRP Program
  Status Report, including HFVVWF but not IVTP data.

                 jobs for veterans state grants (jvsg)
    In addition to HVRP, DOL awards Jobs for Veterans State grants 
(JVSG) as a formula grant to each state and territory to support two 
types of staff positions in the AJC network: Disabled Veterans' 
Outreach Program (DVOP) specialists and Local Veterans' Employment 
Representatives (LVER). DVOP and LVER staff support HVRP grantees by 
helping grantees achieve employment goals through case management, 
direct employer contact, job development, and follow-up services.
    DVOP specialists provide intensive services targeted at meeting the 
employment needs of disabled veterans and other veterans with 
significant barriers to employment, including homeless veterans. In 
addition, DVOP specialists often refer veterans who experience 
homelessness to other AJC services, such as the Workforce Investment 
Act of 1998 (WIA) Adult and Dislocated Workers services and training. 
AJCs provided JVSG-funded services to 17,734 homeless veterans in PY 
2013. LVER staff conduct outreach to employers and engage in advocacy 
efforts with local businesses to increase employment opportunities for 
veterans, and encourage the hiring of veterans, including homeless 
veterans.
    The transition from WIA to the Workforce Innovation and Opportunity 
Act (WIOA) provides an extraordinary opportunity to improve job and 
career options for our Nation's jobseekers and workers, including 
veterans, through an integrated, job driven public workforce system 
that links diverse talent to businesses. While retaining the network of 
DVOP specialists at AJCs, WIOA strengthens accountability and 
transparency of outcomes for core programs, including establishing 
common performance indicators across these programs. The Department is 
considering the adoption of these new common performance indicators for 
JVSG and other VETS-administered programs, so that we will know with 
even greater detail the outcomes of our investments in veterans' 
employment and related programs.
 s. 425--homeless veterans' reintegration programs reauthorization act 
                                of 2015
    The House passed H.R. 474, the ``Homeless Veterans' Reintegration 
Programs Reauthorization Act of 2015,'' which would reauthorize HVRP 
through 2020. The Department is also aware of a similar Senate Bill, 
S. 425, which mirrors H.R. 474 expanding the eligibility for services 
under HVRP, to include not only homeless veterans, but also veterans 
participating in VA- supported housing programs for which certain 
rental assistance is provided and veterans who are transitioning from 
being incarcerated, as well as the addition of Native Americans who are 
veterans and receiving assistance under the Native American Housing 
Assistance and Self Determination Act of 1996.
    The Department supports the extension of the HVRP authorization to 
2020. The Department looks forward to working with the Committee to 
provide technical information pertaining to S. 425 as necessary.
    As mentioned, H.R. 474 would expand eligible participants under 
HVRP to veterans currently receiving housing assistance under the HUD-
Veterans Affairs Supportive Housing (VASH) program and Native American 
veterans participating in the Native American Housing Assistance 
program who are otherwise not eligible for HVRP services. Under current 
legislative authority, approximately 78,000 veterans who participate in 
the HUD-VASH program annually are ineligible for HVRP's services 
because they are not, technically, homeless. The Department believes 
housing programs, such as HUD-VASH, are critical to the rehabilitation 
and success of homeless veterans because the availability of housing 
and health services improves their job readiness and employability.
    Similar to H.R. 474, under S. 425, veterans who are transitioning 
from incarceration would also be eligible for HVRP's services. For 
veterans, having an arrest record is a major barrier to employment and 
can lead to homelessness. VETS believes it is critical to begin 
delivering employment support prior to their release in order to better 
prepare them to secure civilian employment.
    While the Department supports the goals of this legislation, these 
changes would mean a substantial increase in the eligible population. 
To accommodate these changes within existing funding, VETS would need 
to write the HVRP grant solicitations to establish service priorities 
for the program to reach those with the greatest needs and avoid 
duplication.
                               conclusion
    We at the Department of Labor remain committed to the 
Administration's goal of ending veteran homelessness, and we look 
forward to working with the Committee to ensure the continued success 
of our efforts. Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee, this concludes my written 
statement. Thank you again for the opportunity to submit a statement 
for the record.
                                 ______
                                 
     Prepared Statement of Jean-Michel Giraud, Executive Director, 
  Friendship Place, Washington, DC, and Member of the DC Interagency 
                        Council on Homelessness
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, as executive director of a community-based nonprofit 
organization that partners with the Department of Veterans Affairs, I 
thank you for inviting me to present our perspective on progress toward 
VA's goal of ending veteran homelessness by the end of 2015.
    Founded in 1991 by a grassroots coalition of businesses, 
congregations and concerned community members, Friendship Place is a 
leader in Washington, DC, in developing and implementing innovative 
solutions to homelessness that have demonstrable results and a lasting 
impact. Our customized, person-focused programs include street 
outreach, drop-in, free medical and psychiatric services, job 
placement, case management, transitional shelter, rapid rehousing, 
homelessness prevention, permanent supportive housing for families and 
individuals, specialized services for homeless youth and young adults, 
and rapid rehousing and homelessness prevention for veterans and their 
families. In 2014, we helped 2,000 people; in 2015, we will help more 
than 2,500.
    In October 2014, The Community Partnership for the Prevention of 
Homelessness (the agency responsible for coordinating DC's homeless 
services Continuum of Care) presented its 25th Anniversary Award ``for 
extraordinary service to homeless single adults'' to Friendship Place.
    We accomplish our mission--to empower individuals and families 
experiencing or at risk of homelessness to rebuild their lives with the 
involvement of the community--with the help of more than 300 
volunteers, who contribute 20,000 hours of service a year, and the 
support of 26 neighboring congregations, several of which partner with 
us to provide shelter or housing.
    Friendship Place has participated in the DC VA Medical Center's 
annual January Stand Down, Winterhaven, since 2010. Since October 2011, 
we have been providing homelessness prevention and rapid rehousing 
services under VA's Supportive Services for Veteran Families program 
(SSVF). With our $2 million SSVF contract this year, we are serving 
veteran households in the District of Columbia and eight surrounding 
counties in Maryland and Virginia. In April 2015, we received an 
additional $3 million dollar SSVF surge grant to be used over the next 
three years for households in DC alone.
    We call our SSVF program ``Veterans First.'' Based on the 
successful outcomes of Veterans First, VA has twice awarded Mentor 
Status to Friendship Place--in 2014 and 2015. In addition, within our 
grant, VA is funding a staff position dedicated to providing training 
and technical assistance to providers in our SSVF region.
    In June 2014, Friendship Place launched Families First, a pilot 
project for veteran families in Prince George's County, Maryland, who 
need more support than SSVF can provide. With funding from the Maryland 
Department of Housing and Community Development and the Freddie Mac 
Foundation, Families First will serve 40 to 45 veteran families over 
three years. The goal of the program is to end both homelessness and 
poverty for the participating families. Case management places a 
special focus on increasing income through education, job placement, 
and benefits. Eligible families must have at least one dependent child 
and be below 50 percent of the Area Median Income. They are provided 
intensive case management for six months with possible re-certification 
for up to three years.
    The Director of our Veterans Services Division and I are both 
members of the 25 Cities--a joint initiative of VA, the Department of 
Housing and Urban Development (HUD), the U.S. Interagency Council on 
Homelessness (USICH), Community Solutions, and the Rapid Results 
Institute--whose aim is to achieve VA's goal of ending veteran 
homelessness nationwide by the end of 2015 through implementing 
Coordinated Entry. Friendship Place has assumed a leadership role in 
implementing Coordinated Entry for DC through Veterans NOW, the 25 
Cities Initiative, and Zero:2016.
    Based on our five years of experience working closely with both the 
DC VA Medical Center and VA's National Center on Homelessness among 
Veterans, we would like to present our perspective in four areas 
concerning Federal efforts to end veteran homelessness: (1) the SSVF 
program, (2) the joint VA-Department of Housing and Urban Development 
Supportive Housing Program (HUD-VASH), (3) character-of-discharge 
issues, and (4) VA's Homeless Providers Grant and Per Diem Program.
1) SSVF
    In the most recently completed fiscal year (2014) of our provision 
of SSVF services in DC and eight surrounding counties in Maryland and 
Virginia:

    <bullet> Our Veterans First program served 415 veteran households--
89 percent of them with Extremely Low household incomes (less than 30 
percent of the Area Median Income)
    <bullet> We exited 267 households, representing 461 individuals 
(including 147 children).
    <bullet> 425 of the 461 individuals who exited the program in FY 
2014 (92 percent) graduated to stable permanent housing.
    <bullet> The average length of time from intake to exit was just 
under three months (88 days) for homelessness prevention and just over 
three months (104 days) for rapid rehousing.

    In other words, 425 people who would have remained or become 
homeless but for our intervention are now safely housed and rebuilding 
their lives. The average cost per household served is less than 
$5,000--a small price to pay for stability for an entire household.
    With the additional surge funding, we now have the capacity to 
serve 550 households a year.
    We know that the program is effective. The annual Point-in-Time 
enumeration reveals that the overall number of homeless individuals 
dropped by 2 percent in the Metro area from 2011 to 2015, while the 
number of homeless veterans dropped by 19 percent.
    We would like to draw your attention to key features of the SSVF 
program that, from our perspective as a community provider, make it 
successful:

    <bullet> It is based on nationally recognized best practices, 
including the Housing First service model.
    <bullet> It is empowering. In the words of one of our Veterans 
First graduates, the program is a ``hand up,'' not a ``hand out.'' The 
service model recognizes that the individual or family is resilient and 
can rebuild quickly with the right kind of help.
    <bullet> It is individualized and participant-centered. SSVF does 
not dictate that we deliver services in a cookie-cutter manner but 
gives us flexibility to provide exactly what each particular household 
needs--no more and no less--to transition rapidly into stable housing.
    <bullet> Clinically, the program is backed by CARF, the national 
gold standard for rehabilitation services.
    <bullet> SSVF is flexible, allowing us as the service provider to 
adapt services to the local community and allowing veterans to transfer 
agencies and even regions.
    <bullet> As a community-based organization, we can leverage 
additional resources--volunteer support, private donations, and in-kind 
contributions--to enhance the assistance we are able to provide.

    More than anything, the success of the SSVF program is due to the 
outstanding expertise of the national VA leadership and their unfailing 
commitment to working collaboratively with their local grantees, 
including Friendship Place, to continually refine and improve the 
service model so as to ensure that we are achieving the desired results 
as effectively and efficiently as possible. We would like, in 
particular, to recognize the contributions of Mr. Vincent Kane, former 
Director of the National Center on Homelessness among Veterans (now 
Special Assistant to VA Secretary Robert McDonald); Mr. John Kuhn, 
National Director of VA Homeless Prevention Services; Mr. Dennis 
Culhane, Director of Research; and Ms. Adrienne Melendez, who is the 
Regional Coordinator for SSVF for our region.
    We applaud this VA team for providing excellent training (monthly 
webinars, regional meetings, SSVF universities), for fostering 
collaborative relationships among SSVF providers (coordinating regional 
meetings in which we can share our best practices), and for soliciting 
and being responsive to our feedback.
    We regret that there have recently been travel restrictions placed 
on the SSVF regional coordinators. We believe that SSVF providers need 
the hands-on technical support of their regional coordinators if 
communities nationwide are to reach the goal of functional zero by the 
end of this year. We strongly urge the immediate lifting of these 
travel restrictions.
    Here in DC, we have moved quickly to establish and fully implement 
a system of Coordinated Entry, which has increased the effective 
utilization of resources by reserving HUD VASH for the most vulnerable 
veterans while assigning to SSVF those who need only temporary help to 
become stably housed.
2) HUD-VASH
    The success of SSVF provides ample evidence that VA can make 
effective use of community-based organizations to get results in its 
efforts to end veteran homelessness. To improve outcomes in the HUD 
VASH program, we recommend that VA (1) increase the use of community 
organizations for the provision of the program's case management 
services, and (2) streamline the process for awarding contracts to 
community organizations.
    The advantages of contracting out case management services for HUD 
VASH are many:

    <bullet> Community providers can have smaller caseloads and, 
therefore, more intensive case management. In Housing First programs, 
the larger the caseload, the less likely it is that those served will 
achieve long-term housing stability; smaller caseloads produce higher 
housing retention rates. Programs with low retention rates are more 
costly to the taxpayer in the long run, because participants who return 
to the streets then seek out other services elsewhere.
    <bullet> Community providers have maximum flexibility to provide 
culturally competent services adapted to local needs and conditions.
    <bullet> Successfully linking program participants to community 
resources is key to the success of any Housing First program, and 
community providers are more familiar with and connected to resources 
in the local community.
    <bullet> Separating the funding source and the service provider 
allows for better checks and balances; the funding source can more 
objectively evaluate programs that are run by an outside provider.
    <bullet> Unfortunately, some veterans are uncomfortable seeking 
services at VA because of negative experiences they may have had in the 
past.

    Friendship Place has been providing Housing First services under a 
contract with the DC Department of Human Services since 2008, with an 
annual housing retention rate that consistently tops 98 percent. Our 
Housing First Director and I would be happy to meet with any interested 
Congressional or VA staff to provide greater detail on what makes our 
Housing First program successful and how a community-based model could 
be implemented by VA for HUD VASH.
3) Character-of-Discharge Issues
    Friendship Place urges passage of the ``Homeless Veterans Services 
Protection Act of 2015'' (S. 1731), which will guarantee that homeless 
veterans with Other Than Honorable discharges have access to all VA 
services for homeless veterans, including GPD and SSVF (excluding 
veterans who received dishonorable discharges or were discharged 
following courts-martial).
    Veterans with other than honorable discharges make up 15 percent of 
the Nation's homeless veteran population and are among the most 
vulnerable of all the veterans that seek the help of our SSVF program. 
Eddie is a typical example; he was nearing completion of his enlistment 
with a record of exemplary service when his squad was attacked in 
Afghanistan and he was one of only a few survivors. He began self-
medicating his PTSD, and ended up being discharged under other-than-
honorable conditions.
    If SSVF eligibility were limited to only those veterans that are 
eligible for VA health care, veterans like Eddie would be left out in 
the cold. Fortunately, we were able to get him legal assistance and 
walk him through the process of upgrading his discharge status, so that 
he is now VHA-eligible and can receive the help he needs and deserves.
    As we reach the end of the Five-Year Plan to End Veteran 
Homelessness, it is increasingly important that we retain the ability 
to serve homeless veterans with Other Than Honorable discharges.
4) GPD
    We believe that VA's Grant and Per Diem program would be more 
effective with greater flexibility in its regulations and with 
implementation of the following changes:

    <bullet> The VA should address structural issues in GPD in order to 
move veterans through the program and into stable permanent housing 
more quickly. The current slow pace of rotations through GPD is a 
costly waste of VA resources for addressing homelessness.
    <bullet> To ensure the provision of high-quality services that are 
in line with best practices, VA should establish the same high level of 
technical support for GPD providers that SSVF providers enjoy.
                                summary
    We are excited and energized by VA's impressive progress toward 
ending veteran homelessness and are honored to partner in this 
admirable--and much-needed--work.
    We believe that the following recommendations, if implemented, 
could expedite the success of VA's efforts:

    1. Extend the authorization of appropriations for the highly 
successful SSVF program and lift travel restrictions on the SSVF's 
regional coordinators.
    2. Increase the contracting out of HUD VASH case management 
services to community providers and streamline the process for awarding 
HUD VASH contracts.
    3. Ensure that homeless veterans with Other Than Honorable 
discharges are eligible for VA's homeless services by passing the 
``Homeless Veterans Services Protection Act of 2015'' (S. 1731).
    4. Institute changes in GPD that will result in a more timely 
rotation of veterans through the program.

    These recommendations not only are aligned with best practices in 
the field of homeless services, but would, we believe, make VA's entire 
system of services for homeless and at-risk veterans and their families 
both more cost-effective and more humane.

    Thank you for the opportunity to participate in this important 
discussion.
                                 ______
                                 
         Letter from Eric Garcetti, Mayor, City of Los Angeles
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
      

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
